<html>
<title> - BUREAU OF RECLAMATION WATER CONSERVATION, EFFICIENCY AND MANAGEMENT IMPROVEMENT ACT AND DROUGHT CONDITIONS IN NEW MEXICO</title>
<body><pre>[Senate Hearing 109-477]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-477

 
  BUREAU OF RECLAMATION WATER CONSERVATION, EFFICIENCY AND MANAGEMENT 
          IMPROVEMENT ACT AND DROUGHT CONDITIONS IN NEW MEXICO

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2561

   TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO MAKE AVAILABLE COST-
  SHARED GRANTS AND ENTER INTO COOPERATIVE AGREEMENTS TO FURTHER THE 
   GOALS OF THE WATER 2025 PROGRAM BY IMPROVING WATER CONSERVATION, 
  EFFICIENCY, AND MANAGEMENT IN THE RECLAMATION STATES, AND FOR OTHER 
                                PURPOSES

                                  AND

     TO RECEIVE TESTIMONY REGARDING THE DROUGHT CONDITIONS FACING 
                        THE STATE OF NEW MEXICO.

                               __________

                    ALBUQUERQUE, NM, APRIL 19, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-639                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
                          Nate Gentry, Counsel
                    Mike Connor, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
D'Antonio, John, New Mexico State Engineer.......................    56
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Hightower, Michael, Distinguished Member of the Technical Staff, 
  Sandia National Laboratories, Albuquerque, NM..................    59
Knight, Bruce I., Chief, Natural Resources Conservation Service, 
  Department of Agriculture......................................     7
Limbaugh, Mark A., Assistant Secretary for Water and Science, 
  Department of the Interior.....................................    37
Nunley, Lonnie R., Mayor, Village of Ruidoso, NM.................    22
Otero, Jose U., Chairman of the Board of Directors, Middle Rio 
  Grande Conservancy District....................................    53
Perkins, Larry F., Farm Superintendent, Agricultural Science 
  Center, New Mexico State University............................    12
Trujillo, Arvin, Executive Director, Navajo Nation Division of 
  Natural 
  Resources......................................................    24
White, R.B. ``Randy'', C.P.A., Black Cattle Ranch, LLC, 
  Albuquerque, NM................................................    15
Wilson, Hon. Heather, U.S. Representative From New Mexico........     4

                                APPENDIX

Responses to additional questions................................    73


  BUREAU OF RECLAMATION WATER CONSERVATION, EFFICIENCY AND MANAGEMENT 
          IMPROVEMENT ACT AND DROUGHT CONDITIONS IN NEW MEXICO

                              ----------                              


                       WEDNESDAY, APRIL 19, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                   Albuquerque, NM.
    The committee met, pursuant to notice, at 10:05 a.m., at 
the National Hispanic Cultural Center of New Mexico, Hon. Pete 
V. Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order. Can 
you hear me? All right.
    First of all, thank you, Senator Bingaman, for joining me 
in this hearing. For those who are witnesses, I think the staff 
will keep you posted on the timeliness and necessity for your 
presence. We will try to stay on a good schedule.
    I believe we have a good set of hearings. It's my intention 
to cover all of it today, and so we will keep the witnesses to 
their commitments, and we won't let people talk too much today, 
beyond that which we have agreed upon.
    Both Senator Bingaman and I have opening remarks, and I'm 
going to give mine, plus I believe we have five or six very 
diverse subjects, even though the issue is water and drought.
    Let me open with remarks and yield then to my friend, 
Senator Bingaman. First, one only needs to look outside at the 
Rio Grande to appreciate the dire situation we're in. During an 
average year, this is the time that the Rio Grande will be at 
its fullest. The flow of the Rio Grande is currently less than 
half of what it would be at this time in a normal year.
    Statewide, this is one of the worst droughts in the past 
100 years. In some river basins, this is the worst drought in 
recorded history. In New Mexico, in some of the river basins, 
it's the worst. To make matters worse, many of the State's 
reservoirs that we rely on during times of drought will remain 
at alarmingly low levels. Elephant Butte, our largest, which 
provides water to our farmers on the southern Rio Grande, will 
be less than 10 percent of capacity by Labor Day.
    The drought will be particularly devastating to our farmers 
and ranchers who are already suffering from repeated years of 
lack of water and drought years. Unless we have an 
extraordinary rainfall in the next several weeks, many farmers 
will receive little or no water from the rivers on which they 
depend. I think most people know that, but we never appreciate 
it until the stark reality is there.
    Ranchers and dairymen will also be hard hit by the drought. 
Lack of rain has resulted in less water for herds and below-
normal feed production, requiring ranchers to buy feed at 
increased prices, drill new wells, and to haul water, which 
certainly is not something they can afford to do for any 
extended period of time.
    In order to provide some relief to our farmers, ranchers, 
and dairymen, I recently co-sponsored an amendment, which was 
included in the emergency supplemental appropriation bill, that 
provides $4 billion for production losses and economic 
assistance to agricultural producers. The Senate considers this 
bill next week.
    Although it is very large in terms of dollars, and its 
title sounds good, I'm not sure how much it affects, in a 
positive way, our farmers and ranchers. And there may be 
somebody who might want to tell us how effective it might be, 
Senator Bingaman.
    In addition, numerous New Mexico communities are under 
severe water restrictions. It is anticipated that municipal 
water service will be disrupted in some areas. In order to 
mitigate the effects of drought, we included in the emergency 
appropriation bill a provision to extend through 2010 the 
Bureau of Reclamation's Emergency Drought Relief Act. This 
authority allows the Bureau to secure emergency water supplies 
for communities struggling with drought. $7.5 million will be 
included in the bill for this purpose. We've also included $5 
million for emergency water hauling and well drilling by the 
Corps of Engineers. In order to help our farmers and ranchers, 
we also requested $17 million in emergency drought-related 
assistance, which includes securing emergency water supplies 
for agricultural producers.
    The current drought illustrates the need to make the most 
efficient use of the water that we do have. In many instances, 
relatively cheap infrastructure for water can minimize water 
losses to a very large extent. For the past 3 years, Congress 
has awarded efficiency and conservation grants through the 
administration's 2025 Program. It is estimated that this 
program has yielded an additional 285,000 acre-feet of water 
per year through infrastructure amelioration by these grants 
that I have just alluded to.
    I thank Representative Wilson, who is here present--good 
morning, and it's great to have you here with us, Heather--for 
her willingness to introduce in the House the 2025 legislation 
that we will allude to and she will comment on, since she will 
introduce it in the House, and that will be an effort to extend 
that legislation onward out into the future years to maximize 
the effect.
    Now a moment on water technology. We also need to seek 
technological solutions to our water supply problems. In 
addition to other Federal water research initiatives that we 
have going, Sandia National Laboratories has been asked by us 
to work at developing technologies and managing technology 
development that helps address New Mexico's water scarcity 
issues. These efforts include creating some new tools to make 
available new sources of water. They will provide us with an 
update on their progress today.
    We wish we had more time, more lead time, and that we were 
operating on the program where they were already 5, 6, 7 years 
into the program. We would be seeing some bigger results. But 
things are coming.
    As we face this drought, we need to be as frugal with our 
water as possible. I would encourage all New Mexicans to be 
sensitive to the fact that we are in one of the worst droughts 
in 100 years, and the use of our water should be handled 
sparingly, without any question.
    I would now like to welcome and yield to Senator Bingaman 
for his comments, and then we will start with our first 
witness.
    Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, for 
having this hearing, for inviting me to participate, and to all 
of our excellent witnesses. I know a lot of staff work has gone 
into preparing the hearing, and I know it's been very good 
staff work.
    As I understand the purpose of the hearing, it is to focus 
on the effects of this ongoing drought and also to focus on the 
programs that can help to address some of the problems 
associated with the ongoing drought.
    I'd like to join you in welcoming the witnesses. I hope we 
can find, out of this testimony, some innovative ideas and 
solutions to the water supply issues that we face here in New 
Mexico. Obviously, the drought is what has brought us to this 
hearing. There are obviously other issues that also are drivers 
for our concern about water. The growing population in our 
State, climate change issues, issues that put increased stress 
on available water resources.
    The bottom line is: We need to find ways to balance our use 
of water with whatever we determine are the sustainable 
supplies in the region. That's what we're all struggling to do. 
I know there's always been agreement that management of water 
is a State issue and a local issue, and not a Federal issue. 
But I do believe the Federal Government can play a significant 
role in supplementing what States can do in finding solutions.
    I compliment you on your work in the Energy and Water 
Appropriations Subcommittee and trying to help with the 
specific issues we have in New Mexico. I think notwithstanding 
those efforts, you would probably agree that it is a constant 
struggle giving priority, or seeing that in Washington, where 
we have a lot of water, that the people in our Nation's capital 
recognize the priority that needs to be given to water issues 
out here in the arid West.
    The administration's budget requests this year makes the 
case that this priority needs to be recognized. The budget 
proposes a 13 percent cut in EPA's Clean & Safe Water programs, 
an 11 percent cut in the Army Corps of Engineers water budget, 
and a 21 percent cut in the Department of Agriculture's program 
for water and wastewater disposal grants. So we have not, in my 
view at least, given the priority in Washington at the Federal 
level consistently that we need to, to the water needs that we 
face here in the arid Southwest.
    There are areas where the administration has understood the 
importance of water, and I support those. We have this project 
or program of Water for the Poor Initiative. It is to address 
international water needs, and I think that is certainly a 
valid program that I would support.
    I don't think we have a similar level of commitment out of 
the administration on some of the more local issues that we 
face here. We have various water rights settlement issues that 
I know many in this room are expert on. Our State engineer here 
in particular I see as one of our upcoming witnesses. That is 
going to put an enormous burden on us to try to find funding 
for those, and I'm sure you're well aware of that.
    The Eastern New Mexico Rural Water System is another 
example. The Navajo-Gallup Pipeline Project, another example. 
There are various needs that are going to require attention 
that relate to our water supply in New Mexico. I think this is 
a great opportunity to get the issues out and hopefully find 
some solutions, and I look forward to learning from each of 
these witnesses. Thank you again for inviting me.
    The Chairman. Thank you, Senator Bingaman. There is no 
question that when it comes to water funding in executive 
budgets--that is, Presidential budgets--both the Corps of 
Engineers and Bureau of Reclamation and other normal water 
institutions are always underfunded as the budgets come down 
and then they leave them in our laps in the Appropriations to 
try to make up the difference. And we'll have the same problem 
this year in three areas that you have mentioned, but I have no 
solution as to how we're going to pay for the settlement of big 
litigation issues. I'm working as hard as I can to find 
solutions. But on some of the other, we will find money to make 
a better case from Washington than the executive budget put 
forth.
    With that, we're going to start with our first witness, 
Representative Heather Wilson.
    Glad to have you. Would you please tell us about--talk to 
us about whatever you'd like to for a few minutes.

               STATEMENT OF HON. HEATHER WILSON, 
              U.S. REPRESENTATIVE FROM NEW MEXICO

    Ms. Wilson. Thanks, Mr. Chairman. It's a pleasure to be 
with you today. And Senator Bingaman, it's also a pleasure to 
be with you. I think we're blessed in New Mexico to have two 
senators so well placed to address these kinds of issues, 
because you're right, there's a lot of water in Washington, and 
it is sometimes hard to remind people that these issues are 
important in the West. And I appreciate your leadership, from 
both of you in the Senate, and certainly, Senator, you on the 
energy and water appropriations, there's some really important 
work you have done, and I commend both of you for it.
    I wanted to talk a little bit and really focus on the Rio 
Grande, but also on the Water 2025 legislation that we're going 
to introduce into the House to try to address the major issues 
here. We're all focused on the drought this year. It's the 
worst drought in 100 years. The snowpack was the worst we've 
had in 50 years, which any skier would tell you, but it's also 
a big concern for those who depend on that snowpack to come 
down the rivers and irrigate their lands, have that water 
available for the six Pueblos, the city of Albuquerque, the 
agricultural users, and many smaller cities along the Rio 
Grande. It's a bad year.
    But there is a broader, longer-term problem, and that is 
that America is growing in the South and the West, and our most 
precious resource is water. And being able to manage that 
resource and come up with innovative ways to make that water go 
further is what we're trying to do in the Water 2025 
legislation.
    This map behind me here was produced by the Department of 
the Interior in a very good study they did about where it is 
most likely in the United States we're going to have major 
water conflicts by the year 2025. And if you'll notice, water 
conflict is highly likely on the Middle Rio Grande by 2025. And 
these red areas are the areas where the Department of the 
Interior is putting special emphasis to manage potential 
conflict, so that those conflicts become less likely and we can 
make the water we have go further.
    In the Rio Grande, under the interstate compact signed in 
1938, New Mexico gets 393,000 acre-feet of water. We share that 
with the compact between Colorado, New Mexico, Texas, and 
Mexico. And under that interstate compact, we've got a limited 
amount we have to deal with. We've got to make that go--make 
the expanded uses for that water, as New Mexico grows, possible 
without widespread displacement of existing users and a change 
to our quality of life that all of us enjoy.
    What we intend to do is to reauthorize--I'll be the sponsor 
in the House, with Senator Domenici in the Senate, to 
reauthorize the Department of the Interior's Water 2025 
Program, and it's been a very successful program in figuring 
out ways to make water go further. It's a 50/50 match program 
where local authorities come up with 50 percent of the funds, 
and those moneys go further with matching 50 percent Federal 
funds to avoid water crises and avoid water conflict in the 
West. It allows those grants and cooperative agreements to go 
forward in areas of high potential conflict like the Middle Rio 
Grande.
    I always think it's easier to explain an example than to 
say, ``Well you have got this program that is really good and 
gives grants,'' and the Middle Rio Grande Conservancy District 
has done a lot to make the water they use for their 
agricultural users go a lot further than it used to. And they 
got a grant for--the total Federal part is $3.5 million, and 
they matched it with their own funds, and, of course, they have 
done a whole lot of other work on their own. But what they did 
was, they put in gauges on the ditches and they put in 
automated water gates and they put in weather stations so that 
they can calculate crop needs so they don't overwater in the 
fields.
    And by putting in those automated gates and those gauges 
and those weather stations, they have managed to reduce the 
amount of water that the conservancy district is diverting from 
the river in the first place, while all the water users still 
get enough for their crops and for their uses.
    Is there a lot more to do? Absolutely. And that's why this 
2025 grant program needs to be reauthorized. Middle Rio Grande 
Conservancy District has reduced diversions from the river by 
39 percent since 1994. I think they deserve some credit for 
that, and I think it's also something to build upon as we look 
at cooperative programs to make the water that we have go 
further.
    This bill is also going to authorize the Secretary of the 
Interior to enter into cooperative agreements with research 
institutions. And I think one of the ways we're going to make 
water go further is to fund research into conservation of 
water, to increase the efficiency of the use of water, and to 
enhance water management. How can we use this precious resource 
more widely?
    I look forward to introducing this legislation in the House 
when we go back next week, and we will introduce the bill next 
week, and then moving it through the House of Representatives 
and continuing to work on problems related to water, so that 
when we're back here in the year 2025, the Middle Rio Grande 
isn't a red area, where we avoided water conflict, and where we 
solved problems by finding innovative, outside-the-box 
solutions.
    Senator, thank you for holding this hearing here today. 
Senator Bingaman, thank you, as well, for your openness to work 
solutions and focus on problems that are important here in 
central New Mexico.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Wilson follows:]

    Prepared Statement of Hon. Heather Wilson, U.S. Representative 
                            From New Mexico

    Chairman Domenici and Ranking Member Bingaman, thank you for the 
opportunity to address the Senate Energy and Natural Resources 
Committee on the impact the drought is having on managing New Mexico's 
most precious natural resource--water.
    According to the United States Department of Agriculture, New 
Mexico is facing one of the worst droughts since the early 1900s. 
Historic snow pack data indicates the 2005-2006 snow season is the 
worst in more than 50 years and, for much of the state, the period from 
November 2005 to March 2006 is the driest in recorded history.
    Mr. Chairman, the First Congressional District of New Mexico is 
bisected by the Rio Grande. The Middle Rio Grande's unique historical, 
biological, and hydrological factors make managing the river's flows to 
meet existing demands during periods of drought very difficult.
    Chaco Canyon in northwestern New Mexico was the home to many 
indigenous southwestern peoples from A.D. 850 to 1250. Unfortunately, 
the Chacoans ingenuity in storing and channeling water was not enough 
to save them from a 50-year drought that began in 1130. The Chacoan 
pueblo people left Chaco Canyon in stages and established a string of 
pueblos along the Rio Grande and a few other desert rivers.
    Mr. Chairman, U.S. Army Corps of Engineers (Army Corps), U.S. 
Bureau of Reclamation (BOR), and Middle Rio Grande Conservancy District 
(MRGCD) flood control and reclamation projects along the Rio Grande and 
its tributaries, store water during wet years for use during dry years. 
They help ensure that New Mexico's current population will not have to 
relocate during extended periods of drought--like the Chacoans were 
forced to do more than eight centuries ago.
    However, the demands on the Middle Rio Grande are immense and 
growing. The flows of the Middle Rio Grande serve the biggest city in 
New Mexico, Albuquerque, many smaller cities, six Indian pueblos, and a 
network of agriculture users. Many of these farmers irrigate the same 
land as their Spanish ancestors did over 4 centuries ago. In addition 
there is the endangered silvery minnow, which, under a 2003 U.S. Fish 
and Wildlife Service Biological Opinion, requires 180 miles of 
continuous minimum river flow in the Middle Rio Grande.
    New Mexico has an average allotment of 393,000 acre-feet of Rio 
Grande water under the 1938 interstate compact that apportions the Rio 
Grande between Colorado, New Mexico, Texas, and Mexico. These demands 
have stretched this allotment to the limit. Further complicating the 
picture is the fact that Article VII of the Rio Grande Compact severely 
restricts New Mexico's ability to store native water up stream at 
Heron, Abiquiu, El Vado, or Cochiti Reservoir.
    These factors, all putting pressure on the river and the people who 
live here, are why the Department of the Interior believes the 
potential for water conflict along the Middle Rio Grande by 2025 is 
highly likely.
    Mr. Chairman, the legislation that you and I are sponsoring to 
reauthorize the Department of the Interior's highly successful Water 
2025 program will allow the Bureau of Reclamation to continue to help 
stretch the limited flows of the Rio Grande and, as a result, help 
prevent a water conflict along the Middle Rio Grande well into the 
future.
    To date, BOR has awarded a total of 68 Water 2025 grants. In FY 
2004, 19 grants were awarded to irrigation and water districts, in FY 
2005, 43 grants were awarded to irrigation and water districts and six 
grants were awarded to Western States in FY 2006. In total, the state 
of New Mexico has received over $5 million in Water 2025 funding.
    In FY 2004, 2005, and 2006, the MRGCD received Water 2025 funding 
in order to make water efficiency improvements. In total, MRGCD has 
received $2.5 million dollars in Water 2025 funding and is set to 
receive and additional $1 million later this year. Due in part to this 
funding, MRGCD has installed 56 new and upgraded 14 old gages to 
measure water flows in its irrigation water delivery system. 
Additionally, forty three automated water control gates have been 
installed, and 18 weather stations have been built to calculate 
consumptive water needs of both crops and riparian vegetation.
    These improvements have resulted in the MRGCD reducing its 
diversions from the Rio Grande, providing a more reliable service to 
water users, and aiding in meeting the flow requirements required by 
the 2003 Biological Opinion for the Rio Grande Silvery Minnow. Since 
1994 MRGCD has reduced its diversions of water from the Rio Grande by 
39 percent. It is estimated by BOR that in the west the Water 2025 
program has yielded 285,342 acre feet in additional water per year.
    Mr. Chairman, I look forward to working with you on moving this 
important legislation though Congress so that the Water 2025 Program 
can continue to provide assistance to Western states and water 
districts to help stretch limited river flows during times of drought 
and hopefully help prevent water conflicts in Western states well into 
the future.
    Again, thank you Chairman Domenici and Ranking Member Bingaman for 
the opportunity to address the Senate Energy and Natural Resources 
Committee today on this critically important issue.

    The Chairman. Thank you very much, Representative. Now, we 
will have the first panel. You're excused.
    Ms. Wilson. Thank you.
    The Chairman. The first panel is made up of Mr. Bruce 
Knight, chief of the Natural Resource Conservation Service--If 
you will please take your seat here at the table--Mr. Larry 
Perkins, farm superintendent, Agricultural Service Center, 
Tucumcari; Mr. Randy White, certified public accountant; and 
the Honorable Ray Nunley, mayor of the village of Ruidoso.
    All right. We're going to take you in the order that we 
announced your seating.
    Bruce Knight, welcome. Please tell us a bit about yourself, 
and then your statement will be made a part of the record, and 
you deliver whatever you--however you'd like, making it as 
brief as possible.

         STATEMENT OF BRUCE I. KNIGHT, CHIEF, NATURAL 
         RESOURCES CONSERVATION SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Knight. Thank you, Chairman Domenici, and Ranking 
Member Bingaman. It's a pleasure to be with you today. I am 
first and foremost a farmer and a rancher myself, from a 
drought-plagued portion of South Dakota, but I'm still blessed 
with more moisture than I think many of my compatriots on the 
panel will be able to talk about.
    I have been chief of the Natural Resources Conservation 
Service for the last 4 years. The Natural Resources 
Conservation Service provides private lands conservation and 
conservation solutions to America's farmers and ranchers around 
the country and it's a part of the Department of Agriculture.
    Before I get into my formal testimony, I would like to take 
the liberty of introducing our new state conservationist, the 
head of our office here in New Mexico, and that is Dennis 
Alexander. And Dennis has all of 2 weeks in the job, but has 
experience in the West, comes to you from Colorado, and will 
stand to assist you, along with all of our personnel, on 
drought and all the full range of conservation issues.
    I will make my comments as brief as possible. We have 
extensive detailed comments in the formal written record. But I 
will report today on the current and future snowpack 
conditions, the water supply forecasts, soil moisture content, 
reservoir storage, and the NRCS activities to improve drought 
preparedness and monitoring for farmers and communities across 
the West, as well as New Mexico.
    In addition to delivering voluntary natural resource 
conservation programs, as we've mentioned, the NRCS monitors 
and forecasts current conditions, such as the amount of 
snowpack, the water supply availability and the moisture level 
available to plants in the snow profile. We do this through the 
following services and programs.
    First, the Snow Survey and Water Supply Forecasting Program 
provides agricultural users in 11 Western States with water 
supply forecasts to enable them to plan for efficient water 
management. NRCS maintains a network of 1,600 high-elevation 
snow measurement sites, including 715 automated sites across 
the United States. These SNOTEL stations report daily and 
hourly snow precipitation and temperature data.
    Second, the data collected from these SNOTEL sites allows 
NRCS to forecast the spring and summer runoff or water 
availability. Over half of New Mexico's annual water supplies 
come from snow melt. Therefore, when engaging water supplies 
for the future, it is critical to measure snow accumulations 
over the winter. On April 1 of 2006, nearly all New Mexico 
river basins reported reduced snowpacks, less than 50 percent 
of average. Due to these conditions, anticipated streamflows in 
most basins for the summer are expected to produce 50 percent 
of normal runoff. In addition, current reservoir storage is 
generally fair to poor, depending on location within the State. 
With the expected reduction in spring runoff from snow melt, 
the State will have to rely on water stored in the current 
reservoir system.
    And last, NRCS operates three soil climatic analysis 
network sites, SCAN, in New Mexico to monitor real-time soil 
moisture and temperatures, and analysis of soil moisture values 
through this network has documented the drying trend not only 
in New Mexico, but in Arizona and west Texas, as well.
    Mr. Chairman, with the low-water-availability information 
gathered through our data networks, NRCS has been proactive in 
helping prepare New Mexico farmers and ranchers to expect a dry 
summer in 2006. The Natural Resources Conservation Service is 
working closely with landowners on practices and projects that 
will increase irrigation efficiency and achieve net reductions 
in water demand. Through the Ground and Surface Water 
Conservation component of the Environmental Quality Incentives 
Program, NRCS has provided nationwide more than $150 million in 
financial and technical assistance to help landowners in 
realizing water conservation savings through our on-the-ground 
efforts.
    Activities under the Ground and Surface Water Conservation 
Program include improving irrigation systems, enhancing 
irrigation efficiencies, converting to less intensive 
agricultural commodities, switching to dryland farming, 
improving the storage of water through such measures as water 
banking and groundwater recharge, and mitigating the impacts of 
drought.
    Projects must result in net savings of groundwater or 
surface water resources to the agricultural operation. In 
fiscal year 2005, through both the EQIP program and the Ground 
and Surface Water Conservation Program, farmers and ranchers 
nationally were able to conserve nearly 600,000 acre-feet of 
water. And in New Mexico, from these two programs, that total 
was over 15,000 acre-feet. To put that in perspective, that 
approximates the capacity of the Castillo Reservoir in and of 
itself.
    While funding to support water conservation practices is 
important, NRCS recognizes that dollars aren't the only 
solution. Educating producers about water consumption and on-
farm economic benefits and improved efficiency is also 
critical. For that reason, NRCS is currently developing an 
irrigation water energy estimator for our agency's web site. 
This is part of our energy initiative, and I mention that today 
because, as we all know, the easiest way to save energy on an 
irrigating operation is to reduce the amount of water that 
we're actually having to move and pump. And so this, too, will 
help farmers explore future management scenarios, including 
changes in irrigation equipment and practices. What I like most 
about this product is that it's available 24 hours a day, 7 
days a week. Nobody has to go to the office or stand in line to 
participate in it. We believe that this additional knowledge 
will assist producers across the country, as well as New 
Mexico, in making better farm management decisions.
    In addition to making conservation programs available to 
farmers and ranchers and monitoring and forecasting water 
supplies, the NRCS is implementing improvements in resource 
data monitoring and assessment capabilities by further 
automating the change from manual to electronic SNOTEL signs 
and expanding the SCAN soil moisture measurement tool to 
provide additional sites.
    In conclusion, Mr. Chairman, the Natural Resources 
Conservation Service will continue to provide high-quality, 
timely data, drought monitoring, and water supply decision 
support information so that users and managers of water 
resources in the West can make scientifically based decisions. 
We'll continue to collect snowpack and soil moisture data 
through the SNOTEL and SCAN information systems, and provide a 
forecast of spring and summer streamflow that are used by 
thousands of natural resource managers and farmers and ranchers 
throughout the West. NRCS staff will continue to support the 
weekly U.S. drought monitor and NRCS products used by each 
State to determine drought mitigation strategies as well as 
actions.
    Thank you for the opportunity to give you a thumbnail 
sketch of NRCS on this issue. This concludes my statement, and 
I would be pleased to answer any questions either the Chairman 
or the Ranking Member may have.
    [The prepared statement of Mr. Knight follows:]

    Prepared Statement of Bruce I. Knight, Chief, Natural Resources 
            Conservation Service, Department of Agriculture

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before the Committee to 
discuss the current status of drought in New Mexico and neighboring 
States. Drought as a natural disaster is not easily recognized in its 
early stages. However, the longer it lasts the more detrimental its 
effects to natural resources and human communities. In my remarks 
today, I will report on the state of drought, current and future 
snowpack conditions, the water supply forecast, soil moisture content, 
reservoir storage, and NRCS activities to improve drought preparedness 
and monitoring for farmers and communities across the West.
    The Natural Resources Conservation Service (NRCS) is responsible 
for the Snow Survey and Water Supply Forecasting Program, which 
provides agricultural water users and other water management groups in 
the 11 Western States and Alaska with water supply forecasts to enable 
them to plan for efficient water management. The program also provides 
the public and the scientific community with data that can be used to 
accurately determine the extent of the snow accumulations and 
ultimately the surface water resource. Up to 80 percent of the stream 
flow in the Western United States is derived from melting snow pack, so 
accurate measurement is critical to those that depend upon water 
resources.
    In order to provide these services, the NRCS maintains a network of 
high elevation snow measurements throughout the Western U.S. Snow 
surveys across the West take place once a month from January through 
June and involve travel to specific remote locations (snow courses) and 
manually measuring the snow. In the past 30 years, the NRCS has 
automated 715 of the 1,600 sites in the West. Measurements from these 
automated sites, called SNOTEL (SNOw TELemetry) stations now report 
daily and hourly snow, precipitation, and temperature data. NRCS also 
operates three Soil Climate Analysis Network (SCAN) sites in New Mexico 
that monitor real-time soil moisture and temperatures.

                 CURRENT STATE OF DROUGHT IN NEW MEXICO

    Most parts of New Mexico have experienced some category of drought 
since 1999 when the United States Department of Agriculture (USDA) 
partnered with other Federal agencies to initiate a weekly drought 
assessment called the U.S. Drought Monitor. The current drought has 
recently intensified as a result of an exceptionally dry fall and 
winter.
    The U.S. Drought Monitor dated March 28, 2006, shows New Mexico is 
experiencing ``severe'' drought conditions in 70 percent of the State 
and ``extreme'' drought in 23 percent of the State (Fig. 1*). The most 
extreme conditions are reported in the south stem part of the State. 
Recent storms ha e brought limited relief; however, drought conditions 
are expected to persist through June 2106, well beyond the snowmelt and 
runoff season (Fig. 2).
---------------------------------------------------------------------------
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
          CURRENT AND HISTORIC SNOWPACK CONDITIONS--NEW MEXICO

    Over half of New Mexico's annual water supplies come from streams 
that are fed by snowmelt coming from the mountains. Therefore when 
gauging water supplies, it is critical to measure snow. The NRCS New 
Mexico Snow Survey network began in 1937 in the mountains above Taos, 
and expanded to a network of 28 manual and 20 automated sites today. 
Across the entire State, many sites that were snow-free on March 1, 
2006, remain exceptionally low in spite of recent storms.
    On April 1, 2006, nearly all New Mexico basins reported snowpacks 
of less than 50 percent of average with several basins reporting less 
than 25 percent of average (Fig. 3). Almost half of the New Mexico's 
long-term measurement sites are at record lows for this time of year 
and a full one third of the sites have no measurable snowpack.
    Statewide, the snowpack is the 5th lowest in the last 55 years at 
29 percent of normal (Fig. 4). Since 1999, the average April 1 snowpack 
has been 64 percent of normal. If it were not for the brief respite in 
2005, this 8-year stretch would be the longest drought in modem 
records.
    The latest snow survey shows that what are typically the wettest 
parts of the State have simply fallen too far behind to contribute 
meaningfully to water supplies this year. This late in the season, 
there are not many opportunities for recovery, although a significant 
spring event could still influence the course of the season.

                           STREAMFLOW OUTLOOK

    Due to exceptionally poor snowpack conditions, anticipated 
streamflows are expected to be very low. The highest flows are 
projected to reach only two-thirds of normal for the rivers that flow 
into New Mexico from Colorado. Within New Mexico, no stream is 
forecasted to produce more than 50 percent of normal runoff.
    For the period April-July, the inflow of the Rio Grande into 
Elephant Butte reservoir is expected to be 11 percent of normal. The 
flow of the Pecos river at Pecos has been forecasted by the NRCS since 
1947 and this month's forecast, 21 percent of normal, is the all-time 
lowest ever issued.
    In the northwest part of the State, many of the streambeds are 
already dry and it is likely that no more than 2-3 percent of normal 
runoff will be experienced.

                         SOIL MOISTURE CONTENT

    An analysis of soil moisture values through the NRCS Soil Climate 
Analysis Network (SCAN) has documented the drying trend in Arizona, New 
Mexico and west Texas. In October 2005, measurements taken at the 8-
inch depth showed soil moisture values that approached vegetation 
wilting point. By January 2006, the 20-inch deep sensors reported 
wilting point conditions. This shows the rapid drying of the soil 
profile.
    The Joint Agricultural Weather Facility (a cooperative effort of 
National Oceanic and Atmospheric Administration and the USDA, including 
NRCS) reports on April 4, 2006, that topsoil moisture in New Mexico is 
55 percent very short, 36 percent short and only 9 percent adequate.

                           RESERVOIR STORAGE

    Current reservoir storage is generally fair to poor depending on 
location within the State (Fig. 5, Courtesy CLIMAS, University of 
Arizona). The Navajo Reservoir in northwest New Mexico benefited from 
above-average runoff last year and is currently at 89 percent of 
capacity while Elephant Butte reports 22 percent of capacity. With the 
expected lack of spring runoff, the State will rely on available stored 
water. For example, using the latest available projections, Elephant 
Butte will fall from 22 percent of capacity today to 3 percent by Labor 
Day.

                     STATE PREPAREDNESS ACTIVITIES

    The NRCS is working closely with landowners on practices and 
projects aimed to increase irrigation efficiency, and achieve net 
reductions in water use. Through the Ground and Surface Water 
Conservation (GSWC) component of the Environmental Quality Incentives 
Program, NRCS has provided more than $150 million in financial and 
technical assistance through GSWC.
    Activities under the GSWC program include improving irrigation 
systems, enhancing irrigation efficiencies, converting to the 
production of less water intensive agricultural commodities, converting 
to dryland farming, improving the storage of water through such 
measures as water banking and groundwater recharge, and mitigating the 
effects of drought. Projects must result in a net savings of 
groundwater or surface water resources in the agricultural operation of 
the producer.
    Since GSWC began in 2002, NRCS has entered into over 5,000 
contracts, enrolled more than 1.5 million acres into the program to 
help producers conserve ground and surface water resources. An 
additional $51 million in GSWC funding is currently available to 
producers nationwide.
    While funding to support water conservation practices is important, 
NRCS recognizes that dollars aren't the only solution. Education of 
producers about water consumption, and the on-farm economic benefits of 
improved efficiency is a critical tool. For that reason, NRCS is 
currently developing an irrigation water energy estimator on the NRCS 
website. The purpose of this tool will be to provide farmers the 
ability to explore future management scenarios, including changes in 
irrigation equipment and practices. From the options that the producer 
provides, the estimator will provide potential energy savings estimates 
that would result from the change in practices. We believe that this 
additional knowledge will assist producers in making better farm 
management decisions for the future.

                      PALEOCLIMATE DROUGHT RECORD

    How unusual is the current drought in a historical context? It does 
not appear to be as severe as the 1950s drought, which is generally 
believed to be New Mexico's worst of the 20th century (Fig. 6). 
However, looking back further in history, using records from tree 
rings, even the 1950s drought seems typical over the past 300 years. 
Viewing back more than 2,000 years, history presents many cycles of 
droughts that are almost incomprehensible by modem standards.
    It is impossible to predict whether the pattern of wet conditions 
over the last 50 years will continue or if the region is due for a 
return to normal. What has changed however is the significant 
population growth of the West during this period; this growth has put 
additional pressures on scarce water resources and made the need for 
real-time data even more critical.

                               CONCLUSION

    In conclusion Mr. Chairman, the Natural Resources Conservation 
Service will continue to provide high quality, timely data, drought 
monitoring and water supply decision support information so that users 
and managers of water resources in the West can make scientifically 
based decisions. We will accomplish this by continuing to collect 
snowpack and soil moisture data through the SNOTEL and SCAN information 
systems and providing forecasts of spring and summer streamflow that 
are used by thousands of natural resource managers in the West. NRCS 
staffs will continue to support the weekly U.S. Drought Monitor and 
NRCS products used by each state to determine drought mitigation 
strategies and actions. The National Water and Climate Center homepage 
(www.wcc.nrcs.usda.gov) is the operational link to this information and 
is available to citizens nationwide.
    In addition to our ongoing monitoring and forecasting of current 
conditions, the NRCS is implementing improvements in resource data 
monitoring and assessment capabilities by:

  <bullet> Further automating of manual snow courses to SNOTEL sites 
        where real-time information is needed to provide water supply 
        forecasts.
  <bullet> Expansion of SCAN to provide governments, water managers, 
        agricultural producers, businesses and researchers improved 
        information about soil moisture conditions and potential 
        droughts.
  <bullet> Improving models and computational capacity to provide more 
        frequent and accurate water supply forecasts and assessments of 
        soil moisture.

    Thank you for opportunity to describe the work of NRCS on this 
issue. This concludes my statement. I will be glad to answer any 
questions that Members of the Committee might have.

    The Chairman. We'll have some questions at the end. Is that 
satisfactory?
    Senator Bingaman. Sure.
    The Chairman. We'll proceed with the witnesses and then get 
to them.
    Our next witness is Larry Perkins, farm superintendent, 
Agricultural Service Center, Tucumcari. Good to have you with 
us, Larry. It's nice to have you.

      STATEMENT OF LARRY F. PERKINS, FARM SUPERINTENDENT, 
    AGRICULTURAL SCIENCE CENTER, NEW MEXICO STATE UNIVERSITY

    Mr. Perkins. Thank you, Mr. Chairman, and Senator Bingaman. 
I appreciate the opportunity to be here. My request was to 
basically give you a history of some of the things that 
actually happen to a rancher and a farmer, and that's pretty 
much what I am. I am the farm superintendent at the 
Agricultural Science Center at Tucumcari, and that took place 
in 2004, so I have not been there a long time, but I have been 
2 years there, and that job was taken solely because of the 
drought and the situation it put me in.
    I'd like to go ahead and give you my statement now. My name 
is Larry Perkins, and I'm a fourth-generation farmer and 
rancher from eastern New Mexico, and my ranch and farm is near 
Tucumcari. I'm also a farm superintendent at the ag science 
center there at Tucumcari.
    My great-grandfather started our farm and ranch in 1912, 
which is the year New Mexico became a State. In 1983, after 
getting out of the service, I took over farming, the management 
and operation of the farm, from my grandfather, and now with 
the help of my wife and three kids, we're trying to hold on to 
what was once our way of life. And I make that statement in the 
past tense, because this drought has drastically changed the 
way we live and work. Our work hours have increased, our work 
load has increased, while our income has decreased. And it's 
decreased due to the herd downsizing, due to limited crop 
production.
    It needs to be understood that it takes a lot more work to 
protect the farm and the ranch from a severe drought like we're 
in than it does to operate during a high water production year. 
A lot of people don't think about that and they think maybe you 
don't have anything to do, so you sit back. To protect your 
land from no water is a tremendous thing, and for farmers and 
ranchers, that's what we live for.
    From 1983 to 1986, I ran our farm and our cow/calf 
operation pretty much the way my grandfather did and my great-
grandfather did for the past 40 years. And then when I married, 
in 1986, she and I did the farm and ranching together. In the 
1990's, we combined our farming and ranching operations, which 
allowed us to triple our herd size over the next 8 years. It 
was very successful, and we converted much of our crop land 
into irrigated permanent pastures. And we grew all the forage 
that the herd required on the remaining crop land, so it pretty 
much was a self-sufficient operation.
    In 2000 and 2001, which many of us know, the drought had 
come in, but we did have some irrigation water. We had some 
snowpack that was mentioned before, and the irrigation water 
was there. But in 2002, that water wasn't there. My irrigation 
district is the Arch Hurley Irrigation District. We receive our 
water from the Conchas Reservoir. We received three inches per 
acre that year. A normal allocation is always at least two feet 
per acre, and the total amount we can get is three feet. So you 
can see three inches is not much.
    So the drought really became reality to us in 2002. For the 
first time in my life, I leased pasture and I bought hay, and I 
have never done that. In 2003, we had cut our herd by 50 
percent, and my wife went back to work teaching after 14 years 
of being home with myself and raising our family. By the end of 
2003, we had cut an additional 15 percent more of our herd, and 
our land was rough. It was parched and bare.
    We had received very little rain in those 3 years, and 
three inches of irrigation water. In 2003, 2004, we got no 
irrigation. In 2004, I started looking for work and that's when 
I was lucky enough to find the job and get the opportunity to 
work for the Agricultural Science Center, New Mexico State 
University. And so I took that job as their farm and ranch 
superintendent.
    Last year we got a little reprieve, so we bought back some 
cow/calf pairs, because we still farm our same ranch, farming 
ranch, and so that is our living. But right now, looking at 
2006, this year we're going to receive six inches of water, 
which is not going to do very much for us. So it looks like 
those cattle that I bought will be culled back and go back out 
on the marketplace.
    One of the things you need to understand is, the drought, 
whether we want to think it, it's far from over. And it's going 
to take all of us together and it's going to take a long time 
to recover, even after we get the rain back. One of the 
misconceptions that a lot of people have about the drought is 
that with one rain, it's going to be--everything will be back 
to normal, which is very far from the--you know, one good rain 
would help us, but the long-term effects of this drought will 
be felt for many years to come, and I don't think--it will not 
and cannot be solved overnight.
    As I stated before, with the help of my wife and my three 
kids, we have continued to run our farm and ranch, but now in 
order to meet the financial needs that go along with the farm 
and a ranch, we're holding down two full-time jobs, we do our 
farming and ranching before work and after work at night, and 
on the weekends. This requires a lot of work from each member 
of my family, especially including my 6-year-old son and my two 
daughters, 13 and 11. They work and they do--they feed the 
cattle, feed the yearlings, feed the livestock before they get 
on the bus, and they get on the bus at 20 minutes until 7. So 
it's a burden on them also.
    But our way of life is important to my family, and we're 
willing to make those kind of sacrifices. I don't think there's 
one farmer or rancher in the whole State or in the whole 
drought area that could not give a similar account of their 
unique situation. You know, some of them could be a little 
better than mine, as Mr. Knight pointed out, but some of them 
could be a lot worse. And you know, I have been fortunate that 
my wife and I both found work.
    One of the most devastating effects of this drought, I 
think, is how long it's stayed and how long it's held on, and 
it's held our income down to record lows. The other side of 
that fact is that the debt and bills that the farmers and 
ranchers have still have to be paid. With income being lower, 
that's really difficult. I know many good, hardworking men that 
have not been able to hang on. They have lost their farms and 
many of these farms are family farms that have been there for 
many past years.
    Some people think that the drought only affects the farming 
and ranching sector of the State. I think they need to 
reconsider that thought. For every farmer and rancher, such as 
myself, that takes a job in town, that's one less job that 
could be given to a nonfarmer or a nonrancher. For every foot 
of water table that drops, it becomes more costly to pump their 
drinking water or to even water their lawns here in town. I 
know personally my wells out on the ranch have dropped over 20 
feet in the last 5 years. I spoke to one of my neighbors the 
night before last, at a meeting. One of his wells is completely 
dry now, so he's having to--as Senator Domenici said, he's 
having to start hauling water to those pastures. For the price 
of fuel, you all can imagine what that's going to be. You know, 
for each week or each month that goes by without rain and our 
land rangeland, our parks, our forests, they get dryer and 
dryer, and they become much more vulnerable to wildfires, which 
we've all seen the result of here recently in the Texas fires, 
and a lot of eastern New Mexico has had fires also. This costs 
every one of us in one way or the other.
    It is a fact that the farming and ranching individuals of 
our State feel the direct hit from the drought, but the drought 
does affect everyone in the State. There are a lot of 
underlying aspects of this drought that many people don't seem 
to understand, and even though they think they have nothing to 
do with agricultural industries, the declining water tables and 
aquifers need to be a major concern, I think, to the State and 
to everyone in the State. People need to understand that their 
food only comes to the grocery store from the farm, and they 
also need to understand that their water doesn't come from a 
faucet; it comes from the wells that these water tables are 
depleting. The danger of the wildfire is not just a forest or 
rangeland problem, but it's a problem throughout the State, 
including in the cities and the towns.
    I think we could go on and on, but the point is that the 
drought does affect everyone, not only in our State of New 
Mexico, but in all of the States that are affected by this. I 
don't think there is a man-made cure for the drought, but there 
are committees such as this one that we're speaking to that are 
willing to take the time and to try to do something to help. 
And I know that there are a lot of folks like myself, others on 
the committee and others that are here that are willing to do 
whatever it takes to help all of us make it through this 
drought.
    I know it will rain someday again and things will be 
better. It will be better because we'll have learned from the 
past. We will have survived this drought and we will be better 
conservationists and we will not take our valuable water 
resources for granted. I also know that if we don't try to help 
each other, that there's going to be a lot less of us here when 
it is over.
    I thank you for this opportunity to testify before the 
senators and the committee and to tell my personal story. Thank 
you, sir.
    The Chairman. Thank you very much. And I guarantee you that 
everybody appreciates hearing your story. It gives us a good 
example, a good background of what's really happening. Thank 
you for it.
    Now, we have a clock here that isn't working very well in 
terms of you all seeing it. We're not going to hold you exactly 
to it, but you know, we've got a timer here, and we're going to 
at least set it up where you can see it.
    Mr. White, it will be visible to you someplace here. We 
just have to make it less obtrusive, but visible. We'll put it 
over there. Now we're going to hear from you. Certified public 
accountant, Randy White. Please proceed.

STATEMENT OF R.B. ``RANDY'' WHITE, C.P.A., BLACK CATTLE RANCH, 
                      LLC, ALBUQUERQUE, NM

    Mr. White. Thank you, Mr. Chairman and Mr. Ranking Member. 
I'm here today more to tell my personal story than represent my 
ranching clients, per se, because my story is basically the 
same as the whole ranching community and Mr. Perkins and 
everybody else.
    Drought is a horrible thing to go through, both a financial 
and an emotional stress. When I had breakfast this morning, I 
opened up the paper. I think I can keep my comments strictly to 
what the paper said this morning in the article on the drought; 
it said, ``New Mexico's rangeland and pasture have withered 
because of dry weather.''
    You can go to my place at Black Cattle Ranch just west of 
Albuquerque, and there's nothing left, basically. I mean, we're 
feeding the cows every other day to try to get through until 
hopefully another rain. ``The agency,'' meaning the Weather 
Service, ``said 13 percent of the rangeland and pasture is good 
to excellent, down from 60 percent last May.''
    Well, 13 percent good--fair and poor are the other 
definitions--is not very productive.
    I'd like to read from my prepared statement a little bit to 
make some points, and then give you a couple of financial 
things that have happened to me because of the drought since 
2001.
    I operate Black Cattle Ranch on the West Mesa of 
Albuquerque. I've done that for almost 20 years. I'm secretary-
treasurer of the New Mexico Cattle Growers Association. I run 
the ranch with my family, Kate, who's a sophomore at New Mexico 
State, majoring in agricultural business, and Justin, who's a 
seventh-grader at Jefferson and does all of our fencing.
    Our family operation includes a purebred Hereford operation 
and a commercial herd. We operate strictly on leased private 
lands and city of Albuquerque open space on the West Mesa. Due 
to the drought I'm also leasing and have sent half of my cows 
to Santa Rosa, at additional cost, to try to get through this 
period of time. Not only do I have to face the impacts of 
drought in my own operation, but you have to analyze the 
financial burdens long-term drought is placing on many of my 
friends and my clients. It's difficult to quantify the total 
financial impacts of drought on the cow/calf industry, but they 
include the additional supplemental feed, which is what we're 
struggling with now. I have had two semis show up in the last 3 
months to try to keep the cattle in shape, enough shape to 
raise their babies and breed back, so we can have some revenue 
in 2007. I have reduced my stocking rates from roughly 200 to 
60 since 2001, when the drought started to set in.
    My break-even with my operation doesn't matter whether you 
have 2,000 or 200 cows. The numbers pretty much are the same on 
a per-cow basis. We basically brought it down to 60. As the cow 
numbers go down, the costs don't always change. Not only does 
the feed cost go up, but a lot of your fixed costs: Your 
pasture lease, everything. Fuel has gone up. We went--in this 
state, the average cost per cow is about $357. That is what it 
takes to operate a cow in a year. With the added fuel and with 
the added feed costs to maintain that cow for a year, we're up 
to $450 to $500 a cow, which basically means everybody is 
underwater, ready, however you want to look at it.
    The average profit over a long period of time on cows in 
this State is around $50 a cow. Well, $50 buys enough feed to 
feed a cow for 1 month. So, in essence, if you feed a cow for a 
month, you're not going to make any money. If you feed her for 
2 months, you have already lost money. And that $50 you lost on 
the second month you fed her is next year's profit, so you're 
already digging a hole.
    A lot of us, including me, have only been able to survive 
and keep our base and keep our genetics that we've all tried to 
improve to provide the consumer a good product, through 
artificial insemination and good bull power. The only way we 
can do that is to keep a base genetic herd even though it's 
below our break-even.
    The Federal Livestock Disaster Assistance programs have 
kept many of us in business. 2001, 2002, 2003, basically it's 
enabled us to not make money but to survive and keep that base 
genetic herd together so that we can go forward hopefully to 
better times and more range. The other programs, such as the 
EQIP program Mr. Knight mentioned, certainly help in the 
infrastructure of the facility to operate more efficiently with 
these additional costs.
    That's something that all of us in the Southwest realize. I 
mean, my ranging clients in Texas and Oklahoma haven't been 
much different than we are here. It just seems that the timing 
changes--sometimes we'll be especially bad here and they'll be 
good there--but it's the same costs.
    One other comment I want to make is during the drought, 
feeding cattle is not necessarily a profitable alternative, but 
if it's a short-term supplemental sort of thing, you can get 
there. The government programs have enabled us to stretch out 
our grass resource and get months down the line in hopes that 
some rain will come. And if that does, in fact, come, then 
that's probably a brilliant decision. If it never comes, then 
it's not, because liquidating cows in a drought isn't very 
profitable either, because we're all in the same boat, within 
500 miles. Nobody wants the cows anyway.
    There used to be a joke years ago, in 2002, when the 
drought really started to get bad, that don't ever stop and 
park your truck and trailer unattended, because somebody will 
put cattle in it.
    [Laughter.]
    Mr. White. That's about how valuable they were at the time.
    And so the Government programs have kept health insurance 
paid for families. I mean, they may have paid us to help with 
the supplemental feed to get through the drought times, but in 
essence, it also pays health insurance for the family, and 
living expenses, also.
    I'm at a decision tree, like many of us are now, where I'm 
already down to below the base level, and we don't see any 
possible rain maybe for 2 minutes. I mean, 2 months. Sorry. I 
looked at the light.
    [Laughter.]
    Mr. White. So basically, it's hard times for everybody, and 
the only way we're going to survive that is with some 
government help and aid. I thank you for the opportunity.
    [The prepared statement of Mr. White follows:]

  Prepared Statement of R.B. (Randy) White, Black Cattle Ranch, LLC, 
                        Albuquerque, New Mexico

    Mr. Chairman, Mr. Ranking Member and members of the Committee, on 
behalf of the agricultural industry and all New Mexicans, let me thank 
you for holding a field hearing in New Mexico on this issue so vital to 
our livelihoods and futures, and for the opportunity to testify before 
you. We are especially proud in New Mexico to have both the Chairman 
and the Ranking Member from our state.
    My name is Randy White. I reside in Albuquerque where I run a 
cattle operation and an accounting firm. A significant portion of my 
client base is in the ranching industry. I have two children, Kate, a 
sophomore at New Mexico State University (NMSU) majoring in 
agricultural business, and Justin, a seventh grader who spends his 
weekends at the ranch feeding. Our family operation includes a purebred 
Hereford herd as well as a commercial herd we have maintained on 
Albuquerque's West Mesa using both leased private lands and Albuquerque 
Open Space property. Due to the drought we are also leasing pasture 
near Santa Rosa, New Mexico, just to have enough feed for the cattle.
    I am here today representing New Mexico's agricultural industry, 
including the New Mexico Cattle Growers' Association (NMCGA), where I 
have been the Secretary/Treasurer for the past 10 years. In addition, 
my accounting practice serves numerous ranching operations in New 
Mexico and across the Southwest.
    Not only do I have to face the impacts of the drought on my own 
operation, but I have to analyze the financial burden this long-term 
drought is placing on my accounting clients, which I believe represent 
a fair cross-section of the ranching industry.
    It is difficult to quantify the total financial impacts of the 
drought on the cow/calf industry. But, they include the need for 
additional supplemental feed, which leads to additional labor and 
transportation costs. There are costs also associated with providing 
water for livestock. With the drought there is little to no surface 
water available, which leads to either pumping more water or to the 
purchase and hauling of water. Finally, there becomes the need to 
reduce stocking rates, which in the cow business means that we are 
literally selling the factory. When we must reduce herd size due to 
drought, we are selling animals that are the result of generations of 
genetic selection for traits that are compatible with our environment 
and that satisfy the consumer. They cannot be replaced by simply buying 
other cattle when better times arrive.
    The need to lease the pasture in Santa Rosa is costing my operation 
$7600 per year, which can never be recouped. A ton of hay today costs 
$160. This is an increase of $40 over last year. A ton will feed 100 
cows for 1 day.
    No small part of this issue are the huge fluctuations and ever 
increasing fluid energy costs we have experienced over the past few 
years. Not only are we paying higher prices for the fuel we use on the 
ranch, but the producers of the commodities we need are paying higher 
prices which leads to higher commodity costs for us.
    My fuel bill has almost doubled in the last two years.
    Western states are bearing another burden of our nation's energy 
crisis that is directly tied to the drought. This is oil and gas 
exploration and production. While I strongly support the need for a 
secure domestic energy supply, it must be done in a responsible manner. 
Ranchers and landowners in the northwestern and southeastern part of 
New Mexico are paying the price for our nation's drive to a sustainable 
energy supply. The surface estate, the land, must be cared for while 
energy is being produced. There are responsible energy producers, but 
there are those who are not. The drill pads and multiple roads and 
pipelines without adequate reclamation are leading to scaring erosion 
that may not heal for generations. That erosion is leading to water 
quality degradation that we can ill afford, especially during a drought 
when water is so precious.
    We in the ranching industry are most appreciative of the programs 
the federal government has provided in the face of this drought. Some 
ranchers have avoided liquidation because of this assistance. The 
Livestock Assistance Program (LAP), crop insurance for grazing lands, 
and the ability to graze on Conservation Reserve Program (CRP) lands 
have all been extremely helpful in keeping producers in business. As we 
look forward to the 2007 Farm Bill, we hope and pray that Congress 
continues to recognize the great need for these programs as well as the 
value of a secure domestic food supply. Conservation programs are nice, 
but instead of devoting tens of millions of dollars to ``conservation'' 
programs that divide private property rights, we need programs that 
support production. This is most obvious when we are suffering an 
extended drought, which we do regularly in the arid Southwest.
    Another constant worry cattlemen face today is the unknown amount 
of forage grasses that permanently die off during a long-term drought. 
I don't know any livestock producer who doesn't provide the maximum 
amount of stewardship for the land possible. Unfortunately in a drought 
time and money are devoted almost solely to keeping the animals, both 
livestock and wildlife, fed.
    Living near a major metropolitan area, we have had the ``luxury'' 
of resources other producers might not have. We are involved with the 
City of Albuquerque in an experiment utilizing treated waste as sludge 
spread on the ground, which provides nitrogen to enrich the soil and 
hopefully save grasses from the devastating impacts of the drought.
    The Environmental Quality Incentives Program (EQIP) has also been 
helpful to me and other agricultural producers in providing funding to 
for fencing and water development to better manage our livestock and 
utilize the land available.
    An important fact to remember is that as ranchers provide for their 
livestock they are doing an additional service--they are providing the 
life sustaining feed and water for the ``public's'' wildlife. The 
abundant wildlife populations that our state and nation enjoy are 
largely the result of the agricultural industry.
    Although my family does not ranch on federal lands, many of my 
clients do and as an officer in the New Mexico Cattle Growers' it is an 
issue I am much more familiar with than I would like to be. With some 
60 percent of the land base in New Mexico owned by government of some 
kind, the health of the federal and state lands segment of the ranching 
industry is critical to the infra-structure of the industry as a whole 
in additional to the tri-ethnic culture our state was founded on.
    Both the Bureau of Land Management (BLM) and the U.S. Forest 
Service (USFS) have struggled with balancing the need to keep livestock 
producers on the ground now and into the future with the condition of 
the range. This drought has been particularly harsh on USFS allotment 
owners in the Southwest. The agency is inundated with litigation from 
so-called environmental groups attempting to drive livestock from the 
land. During a drought, dotting every ``i'' and crossing every ``t'' in 
federal regulation is often not possible or even practical. However, in 
an apparent effort to avoid even more litigation, federal agencies 
would rather remove livestock than find workable solutions. In many New 
Mexico counties, livestock is the last viable industry left. Eco-
tourism may be a popular term, but it is not and will not pay the bills 
for rural communities and families. Additionally, the need for a safe, 
domestic food supply must be considered.
    Another issue that has not directly affected me, at least yet, is 
fire. Although New Mexico has not faced the livestock losses due to 
fire that fellow ranchers in Texas and Oklahoma have suffered, we have 
lost hundreds of thousands of acres to fire. This is leaving ranchers 
without any pasture at all. If they are to keep any cattle, they are 
going to have to purchase feed. It doesn't take very long for that to 
be financially impossible.
    In summary, the drought has been costly for ranchers in New Mexico 
and throughout the West especially in terms of providing supplemental 
feed and hay so that we can retain our livestock. It appears that, 
although we don't like it, we must look to the government for continued 
programs like LAP and pasture insurance that will provide ready cash we 
can use to purchase feedstuffs.
    Low interest loans have long been at the top of the list of 
government programs. While I have no wish to appear ungrateful and with 
all due respect, if I could borrow the money to feed my cattle with any 
expectation of paying it back, I would do that without government 
assistance. Although I have found that no matter how low the interest, 
if you can't see how to pay it back, borrowing is not an option.
    Thank you for your time and consideration today and let's all pray 
for rain.

                        COW-CALF SPA KEY MEASURES SUMMARY FOR NEW MEXICO HERDS--1991-2003
                     [Number of Herds: 52; Herd Sizes: from 28 to 2,500; Total Cows: 28,775]
----------------------------------------------------------------------------------------------------------------
                                                                                                     Coefficient
                                                                                          Standard        of
                                                                Average    Weighted\2\   Deviation    Variation
                                                                                          (+/-)\3\      (%)\4\
----------------------------------------------------------------------------------------------------------------
Production Measures

                    Herd Related Measures
Pregnancy percentage\1\.....................................      81.8         80.6         26.1         32
Calving percentage..........................................      84.3         85.8         15.3         18
Calving death lass based on exposed females.................       3.5          3.1          3.8        107
Calf crop or weaning percentage.............................      82.6         82.8          9.5         12
Actual weaning weight, steers and bulls.....................     515.4        520.4         64.5         13
Actual weaning weight, heifers..............................     482.6        483.0         56.5         12
Average weaning weight......................................     497.8        499.3        573           12
Pounds weaned per exposed female............................     411.5        409.6         78.7         19

             Other Physical Performance Measures
Raised feed acres per exposed female........................       0.0          0.1          0.1        523
Grazing feed acres per exposed female.......................      53.1         56.8         20.2         38
Pounds weaned per acre utilized by the cow-calf enterprise..       8.8          7.8          3.6         43

                  Pay Weight Prices Per Cwt
Weaned calf pay weight--steers/bulls........................     $86.96       $82.23       $13.92        16
Weaned calf pay weight--heifers.............................      81.38        76.32        13.68        17
Weaned calf pay weight--weighted average....................      84.18        79.36        13.37        16

Financial Measures\5\

                Investment and Returns (ROA)
Total Investment Per Breeding Cow--cost basis...............  $2,644       $3,350       $2,053           78
Percent Return on Assets--cost basis........................       1.83%        2.64%        7.72%      422
Total investment per Breeding Cow--market value.............  $3,915       $5,008       $2,716           69
Percent Return on Assets--market value......................       0.63%        1.37%        5.42%      860

                    Financial Performance
Raised/Purchased Feed Cost per cow..........................     $58.09       $65.32       $26.90        46
Grazing Cost per cow........................................      57.04      5039           58.80       103
Total Cost Before Nonce Revenue Adjustment per cow..........     395.40       337.79       153.14        39
                                                             ---------------------------------------------------
    Total Cost Before Noncalf Revenue Adjustment per cwt....      94.34        81.76        36.16        38
                                                             ===================================================
Total Cost Noncalf Revenue Adjusted per cow.................     365.51       302.97       145.37        40
Total Cost Noncalf Revenue Adjusted per cwt--Unit Cost......      87.44        73.42        35.82        41
Net Income After Withdrawals per cow........................      -6.95        47.64       130.02     1,871
Net Income After Withdrawals per cwt........................      -3.47        10.63        32.49       937

                    Economic Performance
Total Cost Noncalf Revenue Adjusted per cow.................    $465.07      $412.96      $170.95        37
                                                             ---------------------------------------------------
    Total Cost Noncalf Revenue Adjusted per cwt--Unit Cost..     112.34       100.48        45.92        41
                                                             ===================================================
Net Income After Withdrawals per cow........................     106.51       -62.34       158.16       148
Net Income After Withdrawals per cwt........................     -28.37       -16.44        41.55       146
----------------------------------------------------------------------------------------------------------------
\1\ Based on pregnancy tested herds.
\2\ Weighted averages are calculated on number of breeding cows.
\3\ Standard deviation measures variability; 6S% of the herds fall within one standard deviation (+/-) of the
  average.
\4\ Coefficient of Variation is the standard deviation expressed as a% of the average.
\5\ Measures are calculated on a pretax basis.


                                                     BLACK CATTLE RANCH, LLC--Bernalillo County, NM
                                                            [Precipitation History in Inches]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                          Mean   City                                                                                              Ranch
                 Month                    Temp  Normal   2006   2005   2004   2003   2002   2001   2000   1999   1998   1997   1996   1995   1994   Avg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
January................................  36       0.49   0.00   1.04   0.15   0.00   0.18   0.30   0.13   0.00   0.10   0.70   0.00   0.40   0.00   0.25
February...............................  41       0.44   0.00   0.57   0.88   0.54   0.00   0.25   0.08   0.05   0.60   0.10   0.20   0.40   0.00   0.31
March..................................  48       0.61   0.10   0.88   0.82   0.58   0.00   0.25   1.00   0.75   3.20   0.00   0.00   0.30   0.00   0.65
April..................................  56       0.50   0.00   0.47   2.95   0.00   0.15   0.33   0.28   0.50   0.60   1.30   0.00   0.90   0.20   0.64
May....................................  65       0.60   0.00   0.10   0.00   0.57   0.00   0.10   0.00   0.30   0.00   2.20   0.00   0.50   0.50   0.36
June...................................  75       0.65   0.00   0.35   0.94   0.35   0.35   0.38   0.27   1.30   0.00   1.00   1.30   0.00   1.00   0.60
July--Critical.........................  79       1.27   0.00   0.53   1.63   0.00   0.55   0.72   1.21   1.90   2.00   2.30   0.50   1.00   2.75   1.26
August--Critical.......................  76       1.73   0.00   0.86   0.76   0.66   0.70   0.30   1.28   4.00   0.30   1.10   1.40   1.40   1.45   1.18
                                        ----------------------------------------------------------------------------------------------------------------
    Monsoon............................           3.00   0.00   1.39   2.39   0.66   1.25   1.02   2.49   5.90   2.30   3.40   1.90   2.40   4.20   2.44
September..............................  69       1.07   0.00   1.18   0.65   0.13   2.18   0.00   0.00   0.30   0.10   2.00   2.00   0.80   0.40   0.81
                                        ----------------------------------------------------------------------------------------------------------------
    Total--Growing Season..............           5.82   0.00   3.49   6.93   1.71   3.93   1.83   3.04   8.30   3.00   9.90   5.20   4.60   6.30   4.85
                                        ================================================================================================================
October................................  57       1.00   0.00   0.57   1.31   0.88   0.87   0.15   2.48   0.10   1.20   0.00   1.10   0.20   2.05   0.91
November...............................  44       0.62   0.00   0.00   0.66   0.70   0.28   0.23   1.03   0.00   0.70   0.60   0.30   0.00   1.80   0.53
December...............................  36       0.49   0.00   0.00   0.13   0.00   0.43   0.30   0.15   0.10   0.00   0.40   0.00   0.00   0.75   0.19
Totals.................................           9.47   0.10   6.55  10.88   4.41   5.69   3.31   7.91   9.30   8.80  11.70   6.80   5.90  10.90   7.68
Average--Actual........................           7.68
--------------------------------------------------------------------------------------------------------------------------------------------------------


    The Chairman. Later we want you to describe briefly the 
best Federal program, the one that does the best for you. That 
will be interesting to find out. Thank you very much, Mr. 
White.
    Mr. Mayor, Ray Nunley, village of Ruidoso. Terrific to have 
you here. Will you proceed?

  STATEMENT OF LONNIE R. NUNLEY, MAYOR, VILLAGE OF RUIDOSO, NM

    Mr. Nunley. Thank you, sir. Thank you, Mr. Chairman, and 
thank you, Senator Bingaman, and also Representative Wilson for 
attending this today, and all the distinguished guests. We 
appreciate it in Ruidoso. I brought with me Mr. Rick DeIaco, 
our in-house forester, as an expert witness on what we've done 
in Ruidoso to conserve water, and also to help with forest fire 
deprivation. Also, Ken Mosley, our water department manager, 
who's done a good job with what he's had to work with. So if 
you have any questions after this, I'll be glad to answer, or 
those two would also be available to you.
    I have lived in Ruidoso for 40 years plus, and I have never 
known the Sierra Blanca not to have snowpack. We have no 
snowpack this year. And I don't mean a little bit, I mean none. 
And so you can see what we're faced with. I think most cities 
and towns and villages in New Mexico are battling on a daily 
basis for water, on water issues. We not only need rain, we 
need some updated laws to accommodate the villages and towns 
and cities. So I would look forward to that.
    Mr. Chairman, on behalf of the village of Ruidoso, I'd like 
to thank you and Senator Bingaman for your leadership and 
assistance with regard to the challenges presented by the 
current drought conditions. Many people around the country and 
around the world think of New Mexico as a land of enchantment 
and a treasure chest of natural resources and cultural 
diversity. Ruidoso is that way. Ruidoso is a mountain community 
of 8,500 permanent residents located in south-central New 
Mexico at 7,000 feet elevation. From Memorial Day to Labor Day 
the population can swell to more than 35,000 people, staying in 
their second homes or local lodging. I'm proud to live in a 
place where families come to relax and recreate and happily add 
to the economic development of our community. Recreation and 
tourism are economic staples in many of the mountain 
communities in New Mexico and throughout the West.
    The drought condition in the Ruidoso area is at a critical 
stage. In Ruidoso, water supply for the village is highly 
dependent on surface water and wells that rely on surface water 
recharge. With little or no snowpack to rejuvenate the streams 
and wells used for drinking water, the potential for major 
water rationing is very likely.
    Eagle Creek and Eagle Creek wells supply approximately \3/
4\ of the village's drinking water. Currently the flow in Eagle 
Creek is approximately .022 cubic feet per second, or ten 
gallons per minute. And the average flow recorded by USGS for 
the month of April is approximately 4.24 cubic feet, or 1,900 
gallons per minute.
    The Rio Ruidoso supplies approximately \1/4\ of the 
village's drinking water and is currently flowing at 1.7 cubic 
feet per second, or 763 gallons per minute. The records 
indicate the average flow for the month is 15.7 cubic feet, or 
7,046 gallons per minute.
    During the summers, as our population fluctuates, so does 
our water product. This can vary from 1.5 million gallons a day 
to 6 million gallons a day. If the water resources are not 
available to supply this tremendous range of demand, our 
community could see a severe economic impact, as could the rest 
of the communities in New Mexico.
    With regard to the natural environment, the drought's 
effects have a dangerous potential as a catalyst and accelerant 
for wildfire. The current interagency effort and mandatory 
fuels management ordinances in the Ruidoso area focus on 
maintaining and protecting its values at risk to the 
catastrophic effects of wildfire.
    Additional forest health effects of continued drought in 
New Mexico are the bark beetle and other insect outbreaks. Most 
experts will agree that the most effective remedy is to reduce 
the densities of trees through fuels management and thinning 
projects, which you all have helped us with, and I appreciate 
that. Trees already weakened and stressed due to overcrowding 
are susceptible to dwarf mistletoe and other forest pathogens. 
Prescribed fire is sometimes necessary to remove fuels from our 
forest floors. Drought reduces the windows of opportunity to 
implement this important step. Projects are not done and fuels 
remain on the ground. Sometimes projects that remove material 
through utilization reduce the need to burn, but are more 
costly.
    Within our urban settings, parks and fields will be 
restricted from watering, reducing aesthetics and increasing 
the potential for allergies and injury. Economics could be 
affected if scheduled softball tournaments look elsewhere due 
to unfavorable conditions. Golf courses could be affected by 
less attendance. Trees continue to die as a result of lack of 
water. Water as a tool for fighting fires becomes scarce. And 
last but not least, the health, safety, and welfare of the 
public becomes at risk.
    The water supply for the village is currently meeting the 
demand, but our water levels and our wells have dropped to 60 
to 70 percent of total well depth. We would like to be able to 
deepen our well through the State engineer's efforts.
    If this drought persists, the possibility of a moratorium 
on new construction, severe water rationing, loss of supply 
wells, and a need for emergency water supplies is conceivable. 
Water conservation is a must. We are currently in the fourth 
stage of a five-stage water conservation effort, and we've been 
there for some time. The Office of the State Engineer Water Use 
Conservation Bureau is currently working with the village of 
Ruidoso on a preliminary water audit that should result in 
information that will indicate where the village should be 
looking for lost water. Once the information is available, the 
village of Ruidoso will commence to eliminate all possible 
sources of water loss, resulting in increased water 
availability to the public.
    Some areas that we're working toward that we feel could 
significantly help water supplies are: We are working toward 
having water audits performed; we are continuing to educate the 
public on the effects of water conservation; and we are 
continuing to search for additional water sources and water 
rights.
    That's all I have, Mr. Chairman and Senator Bingaman. If 
you have any questions of me or of the people I brought with 
me, I'd be happy to answer them when it's appropriate.
    The Chairman. We'll get back to you very shortly.
    Mr. Trujillo, I failed to introduce you at the outset. 
Pleased to have you here as a member of this panel. Would you 
please proceed with your testimony.

STATEMENT OF ARVIN TRUJILLO, EXECUTIVE DIRECTOR, NAVAJO NATION 
                 DIVISION OF NATURAL RESOURCES

    Mr. Trujillo. Thank you, Mr. Chairman, Senator Bingaman. 
Good to see you both again. Again, I want to thank you for 
giving me the opportunity to speak. I come here on behalf of 
President Joe Shirley and the Division of Natural Resources. 
I'm the executive director for the Division of Natural 
Resources for the Navajo Nation.
    As noted by the members of the panel here, I might as well 
just turn in the testimony they have given. Everything that 
they have said mirrors what is happening on the Navajo 
Reservation, be it livestock development, forestry, water 
infrastructure, community development, community 
infrastructure. All those areas are currently impacting the 
Navajo Nation as we speak today.
    But I'd like to note also that the Nation, since I came on 
board with the Nation back in 1999 and since the drought really 
came into effect in 2002, we've learned quite a bit, and we've 
taken on a more proactive approach, rather than a reactive 
approach, in a lot of our work within the Nation.
    One of the areas I'd like to briefly discuss, and it's part 
of the written testimony provided, is our work over at Navajo 
Mountain. Though it's not here in the State of New Mexico, it 
exemplifies what we're going through on the Navajo Reservation.
    Navajo Mountain is a community of about 1,200 people 
located along the Arizona-Utah border. We have three schools in 
that area, and in 2002, there was a massive or an extreme water 
shortage in that area. The area is supplied by springs, and 
those springs are supplied by shallow aquifers, and those 
aquifers were drying up. As a result, they didn't have enough 
water to sustain the community, and we were looking at having 
to shut the schools down because we didn't have enough water to 
run the sprinkler systems.
    And as a result, we then coordinated our efforts in the 
emergency response with the Indian Health Service, the BIA, and 
community members. We started hauling water at about close to 
$4,000 a week out to that community, and that was sustained 
over that summer of 2002. We were able to sustain the schools 
and keep the children in school there, not having to bus them 
out. But again, a number of issues came up.
    As a result of that, we began to coordinate our efforts not 
only with these agencies, but also with Coconino County, as 
well as the State of Utah, to devise ways to better address 
this issue of Navajo Mountain. We came up with a two-phase 
plan. The first phase was to develop a new water well in the 
community about 20 miles away, known as Inscription House. 
We've done that. We've upgraded the water system. We also are 
looking at developing additional storage tanks north of 
Inscription House to deliver water to Navajo Mountain.
    Phase 2 is now to develop a waterline from Inscription 
House to Navajo Mountain. That will be about 20 miles of 
gravity flow to the area. We are currently working very hard to 
get that project in place. We've learned and we've developed on 
how to begin to address these issues.
    But again, it becomes very apparent that if we become 
proactive and begin to look at this from a very--try to be as 
innovative as we can and look at cooperation from all entities, 
we find solutions. If we go at it from a reactive point of 
view, we end up spending a lot of money and putting a lot of 
effort in, and we don't solve the problem.
    So again, other successes we've been able to achieve 
through our efforts working with the Bureau of Reclamation, the 
Fish and Wildlife Service, the New Mexico Office of the State 
Engineer. We've developed the New Mexico--I mean the San Juan 
River shortage sharing recommendations for the Navajo 
Reservoir. Again, those discussions were very tense in the 
beginning. There was a lot that we had to work through, but as 
a result of that, we've been able to monitor the reservoir 
level. We've been able to come up with agreed operational 
recommendations on how to run the reservoir. As a result, right 
now, Navajo Reservoir is at about 81 percent of its active 
capacity.
    So again, those have been things that we've done to begin 
to address these issues, and it's been an ongoing process for 
us to address a number of areas here within the Navajo Nation.
    Finally, in terms of what the distinguished senators are 
looking at, what we're seeing on the Navajo Reservation is, how 
do we better address the drought situation as we look at 
livestock development, as we look at water infrastructure? We 
have worked through the U.S. Department of Agriculture. I have 
worked with Chief Knight. But we've got to improve. The 
programs there are specifically targeted toward producers, but 
many of our tribal members don't interact very well on that 
level. And again, looking at Indian country as a whole, we've 
worked with the Department of the Interior, which has a 
different set of rules than how the Department of Agriculture 
works.
    I think, with your help, maybe we need to revisit farm 
policy as it applies to Native American communities and Indian 
country as a whole to better bring these programs to us and 
help us with those benefits. As Mr. Perkins noted, we also were 
involved in the American Indian Livestock Program, helping us 
with the drought situation. We didn't get real participation 
with the Farm Service until the Navajo Nation became involved 
in that, and we took the lead working with the Farm Service to 
get that program going. Now we're getting applications coming 
through, and a number of our producers are beginning to see 
benefits from that program.
    We've also seen benefits from the Water 2025 Program 
through the feasibility efforts or the feasibility studies that 
have to happen. We need more assistance there and more 
importantly, Senators, if there's a way we can work through 
those feasibility studies in terms of getting authorization for 
those studies from the agencies rather than having to work 
through Congress. Right now we have to go through a two-tiered 
system, where we have to go to Congress to ask for assistance 
with feasibility, and then we have to ask for assistance on 
appropriations for that.
    Finally, in coordinating our efforts, the Navajo Nation is 
very much focused on the drought. Right now the Navajo Nation 
Council is in session, and they are considering drought relief 
packages right now for our communities. We also have a drought 
mitigation program in place. We also have a task force in 
place, but again, we still need help with the Corps of 
Engineers. It's working through the policy aspects, and at 
times we have difficulties gaining access to those areas.
    So again, I want to thank the Senators for this opportunity 
to come to you, and we have had successes, and I'm open to 
questions of the Senators. And again, thank you very much for 
this opportunity.
    [The prepared statement of Mr. Trujillo follows:]

Prepared Statement of Arvin Trujillo, Executive Director, Navajo Nation 
                     Division of Natural Resources

    Chairman Domenici and ranking member Bingaman, good morning and 
thank you for the opportunity to submit this testimony concerning the 
impact of the ongoing drought on the Navajo Nation. My name is Arvin 
Trujillo, I am the Executive Director of the Navajo Nation Division of 
Natural Resources. As
    Senators from New Mexico, and important members of the delegation 
that represents the Navajo Nation, you are both keenly aware of the 
drought conditions confronting the Southwest and Navajo Nation. I thank 
you both for your tireless work in helping the Navajo Nation, to 
confront and address the effects of this ongoing problem.

   I. WE LIVE IN AN ARID REGION, BUT WE ALSO FACE PERIODS OF EXTREME 
                                DROUGHT

    On March 8, 2006, the Navajo Nation Emergency Management Commission 
and President Shirley reaffirmed a declaration of a thought emergency. 
This warning was triggered by the driest weather conditions that have 
confronted the Navajo Nation in decades. Even with a brief snowstorm in 
early March, the snowfall in the Chuska Mountains is significantly 
below average, and the current conditions and forecast indicate that by 
most measures we remain in a critical drought.
    Due to the arid climate in this region, drought has always been a 
major concern. Navajo Nation residents, ranchers, farmers, and 
businessmen are subjected to frequent water shortages. The term 
``drought'' is often inaccurately used to characterize all water 
shortage situations. However, the term ``drought'' is more accurately 
defined as a persistent and extended period of below normal 
precipitation causing abnormal moisture deficiency having adverse 
effects on people, animals and crops. Today we are experiencing a 
difficult and prolonged drought. It is a drought cycle that has had a 
stranglehold on this region since I began working for the Navajo Nation 
almost ten years ago.
    A drought is the result of a number of interacting factors. The 
impacts of a drought vary depending on the water use sector. A drought 
can be defined by meteorological, agricultural, hydrologic or 
socioeconomic variables. Any one of these variables can be quantified 
using different indices. Furthermore, the beginning and end of drought 
events are not distinct. The Navajo Nation relies primarily on the six-
month Standard Precipitation Index, a quantified standard for defining 
and declaring drought on the Navajo Nation.

        II. DROUGHT RESPONSE: MITIGATION AND PROTECTION VERSUS 
                         RESPONSE AND RECOVERY

    One lesson we have all learned during the last ten years is that 
mitigation and protection are far more cost effective than response and 
recovery. ,One objective of drought mitigation is to reduce the expense 
of responding to drought emergencies when they occur. Emergency drought 
response is expensive and difficult to sustain over a long period. The 
Navajo Nation is adopting both long term and short-term mitigation 
strategies which will assist all of the Navajo stakeholders to be 
proactive before drought impacts become critical.
    The Navajo Mountain Chapter best exemplifies the challenges facing 
the entire Navajo Nation regarding the ongoing drought. The Navajo 
Mountain Chapter is the most isolated community within the Navajo 
Nation. Situated roughly 90 miles north of Tuba City, Arizona, the 
community is located in Coconino and Navajo Counties in Arizona, and 
San Juan County in Utah.
    The Indian Health Service estimates that more than 70 percent of 
the households in this chapter do not have direct access to a public 
water system. Compounding the difficulty, the main public water system 
relies on springs that are not reliable. There are three schools at 
Navajo Mountain and surrounding areas that serve more than 150 
students: Navajo Mountain Head Start, Naa Tsis Aan Community School, 
and Navajo Mountain High School. In the event of a fire at the 
community school or high school, Navajo Mountain had only two minutes 
of water available. If strictly applied, fire safety rules would have 
closed the schools.
    Despite the rural location, Navajo Mountain is a growing community. 
More than 1,200 people live within Navajo Mountain Chapter. There are 
more than 350 housing units with plans for an additional 40 homes to be 
built by the Navajo Housing Authority
    During the summer of 2002, Navajo Mountain faced a devastating 
water shortage. The Indian Health Service, the Bureau of Indian 
Affairs, and hundreds of community members were forced to haul water 
from as far away as 80 miles. The cost of hauling water from other 
Navajo communities was estimated to be over $3,500/week. The problem of 
hauling water was compounded by the difficulty in finding haulers who 
would risk their vehicles' axels on the 25 miles of unpaved roads that 
lead to the community.
    The Bureau of Reclamation, the Bureau of Indian Affairs, the Indian 
Health Service, Coconino County, and the State of Utah came to the 
Chapter's rescue by working together to find ways to bring the needed 
water to the community. Out of that crisis came a consensus and a 
commitment to find a long-term solution. The Bureau of Reclamation 
Native American Affairs Office funded a feasibility study of water 
supply alternatives. The preferred alternative is a water line from 
Inscription House. The first phase of the water project is nearing 
completion. It was funded by the Bureau of Indian Affairs and the 
Environmental Protection Agency with extensive technical support from 
the Indian Health Service. The first phase includes a new well, 
upgrades to the Inscription House Public Water System, and additional 
storage on the north side of the Inscription House Chapter. The next 
phase will be a twenty-mile long gravity water line to the Navajo 
Mountain Chapter.
    A water shortage of potentially similar severity is predicted for 
Summer 2006.
        iii. navajo nation success in responding to the drought
    It might sound strange, but out of this most recent prolonged 
drought cycle a number of important successes have emerged.

1. The recommendations for San Juan River operations and administration
    Four years ago, the San Juan Basin was facing a crisis. The storage 
level behind Navajo Reservoir was approaching a critical level. The 
largest water users got together and developed a plan to share their 
collective risk, and to implement major conservation measures. The 
resulting agreement, which is usually referred to as the San Juan River 
Shortage Sharing Recommendations, encourages the participants to 
conserve water early in the spring in order to avoid a crisis late in 
the summer. These recommendations have saved literally tens of 
thousands of acre-feet of water in Navajo Reservoir.
    The Bureau of Reclamation, the U.S. Fish and Wildlife Service, and 
the Office of the State Engineer should all get special recognition for 
the roles that they played in orchestrating this agreement as well as 
the other signatories including the Jicarilla Apache Nation, the City 
of Farmington, Public Service of New Mexico, Arizona Public Service, 
Hammond Irrigation District, BHP, Bloomfield Irrigation District, and 
Jewitt Valley deserve recognition. This agreement is a hard won success 
story.
    Today the Navajo Reservoir stands at 81 percent of its active 
capacity. But no one is breathing easy. The major water users have 
again agreed this year to follow through on these recommendations. They 
are all willing to tighten their water usage this spring in order to 
reduce the likelihood of a crisis later this summer. Every acre-foot 
retained in Navajo Reservoir storage provides more flexibility in 
confronting the unknown hydrology this year and next.

2. The Navajo Nation has improved its drought response
    Eight years ago, the Navajo Nation was late in declaring a drought 
emergency and in responding to the rapidly changing circumstances. 
Since then, the National Drought Mitigation Center has developed web-
based information that gets current conditions and forecasts into the 
hands of water managers. This vastly improved system for distributing 
information an essential tool and needs to be maintained.
    Another part of the improved response has been by the Navajo Nation 
itself. The Bureau of Indian Affairs Water Planning and Pre-development 
Program and the Bureau of Reclamation Native American Affairs Office 
provided funding over a two-year period for the Navajo Nation to 
develop a drought response plan. This response plan follows the 
National Drought Mitigation Center guidelines. The Navajo Nation now 
relies on the Standard Precipitation Index as its primary response 
indicator. The Navajo Nation now has a response program that is based 
on a methodology that is very similar to those used by the States of 
New Mexico, Arizona and Utah. This response is now much more timely, 
and, equally important, it reduces of chances of ``crying wolf' because 
conditions at a particular point in time do not really merit a drought 
declaration.
    As part of the Navajo Nation drought plan, the Division of Natural 
Resources established a drought task force that organizes the response 
of specific departments within the Division. According to this plan, as 
a drought intensifies, a monthly drought report is distributed to a 
widening list of recipients.

3. The Navajo Nation has made improvements in drought response and 
        mitigation
    As part of the drought response plan, the Division of Natural 
Resources assessed more than 80 public water systems in terms of 
drought risk. Criteria were established based on the number of water 
haulers in the area, lack of storage, and reliability of the water 
source. As one might imagine, the water users on a large number of 
these public water systems face considerable risk. Four years ago, the 
Navajo Nation developed a short list of water projects that were deemed 
especially suitable for drought mitigation work.
    Of the ten projects on that list, the Coalmine Well Replacement and 
the Toadlena Fish Hatchery Well were implemented directly through 
resources provided by Reclamation. The Twin Lakes Well and the Spencer 
Valley to Manuelito Waterline Extension were facilitated by 
Reclamation's planning resources, and implemented by funding from the 
State of New Mexico. The Gray Mountain Extension was completed by the 
Indian Health Service. Additional emergency domestic water projects 
were completed with Reclamation assistance in Navajo Mountain, Torreon 
and Alamo. Additional water projects are nearing completion in Gap-
Bodway and Tolani Lake. This list represents a very substantial 
accomplishment that would not have been possible without a superb 
effort by these agencies.
    Based on this progress, and recognizing the current emergency 
conditions, the Navajo Nation Department of Water Resources, working 
closely with the Indian Health Service, updated the list of key drought 
water projects.

            IV. NAVAJO NATION IS CONFRONTED WITH CHALLENGES 
                      IN RESPONDING TO THE DROUGHT

    The recent prolonged drought cycle has created challenges that 
threaten the survival of the Navajo Nation.

1. The Navajo Nation faces difficult challenges
    Even after more than 100 years of federal trusteeship, the Navajo 
Nation faces serious economic and social challenges. The Navajo 
Division of Economic Development reports that the median family income 
on the Navajo Nation is barely half the U.S. median family income. More 
than 50 percent of the Navajo families on the reservation live below 
federal poverty levels, compared with less than 13 percent of the 
general U.S. population, making it among the most impoverished regions 
in the United States. The unemployment rate on the reservation exceeds 
40 percent. These disparities show no sign of narrowing. While the 
surrounding regional economy has boomed, these gaps in income, 
unemployment and poverty have widened.
    The Navajo Nation faces serious water resource problems. Many homes 
lack indoor plumbing. More than 50 percent of Navajo homes lack 
complete kitchens and more than 30 percent of Navajo households haul 
water to meet their daily needs. Navajos use far less water per capita, 
yet pay among the highest water rates in the region. Their low per 
capita water use is part of a larger pattern of a lower economic 
standard of living.
    Safe drinking water is a precondition for health promotion and 
disease prevention. The lack of clean, safe water results in a higher 
incidence of disease, poor health, and fire protection. In 1996, 
President Clinton noted that ``the number one health problem in the 
developing world is the absence of clean, safe water.''--Without access 
to safe drinking water, people are forced through a revolving door of 
expensive medical treatment and unhealthy conditions. In a report to 
Congress by the Comptroller General, it was noted that families living 
in homes with satisfactory environmental conditions placed only one 
fourth of the demands on IHS primary health care delivery systems than 
families living in homes with unsatisfactory conditions. Biological 
contaminants like coli form bacteria, giardia, and cryptosporidium can 
only be controlled by proper water source protection, treatment and 
distribution systems. Children living in homes without access to safe, 
affordable, and dependable drinking water are especially vulnerable.
    These grim statistics threaten the survival of the Navajo Nation. 
According to the Division of Community Development, due to the 
stagnation. of development in Navajo country, the Navajo Nation is 
losing population to off-reservation communities, the Four Corners 
Area, and the other 46 states. In recent decades the Navajo off-
reservation population in New Mexico, Arizona, and Utah grew by 125 
percent, the Navajo population in the other 46 states grew by 71 
percent, while the on-reservation population grew by only 22 percent. 
Without reducing the out-migration, in a few years more than half of 
the Navajo people may be living off the Navajo reservation.
    The lack of infrastructure, the lack of economic development, and 
sustained poverty are closely connected. Throughout the arid southwest, 
and especially on the Navajo Nation, a reliable water supply is 
essential for jump starting and sustaining economic development. The 
Navajo Nation has identified economic development growth centers 
throughout the reservation. These economic development centers 
represent large population bases that have the potential to benefit 
from an economy of scale in infrastructure development. Accordingly, 
the Navajo Nation will focus resources in these locations to stimulate 
economic growth.
    Developing an adequate water infrastructure can create sustained 
economic growth, and a narrowing of the disparities between the Navajo 
people and the rest of the Nation. If improved water infrastructure can 
close the income gap by just one percent, the direct benefits to the 
Navajo Nation, and the indirect benefits to the federal government, 
will be worth tens of millions of dollars annually. For example, the 
Navajo Nation captures less than 8 percent of the $660 million annual 
tourism revenue in the Four Corners Area. If an enhanced tourist 
infrastructure increases that percentage to 12 percent, the Navajo 
Nation economy could generate an additional $26 million annually.
    Current annual municipal water production on the Navajo reservation 
is approximately 15,000 acre-feet. Assuming that the economic and 
social condition can be improved, and that out-migration can be 
reduced, by the year 2040 the population of the Navajo Nation is 
projected to be approximately 500,000. If the disparities in water use 
between the Navajo people and the rest of the Nation can be reduced, 
the total annual municipal water demand on the reservation will exceed 
89,000 acre-feet. This demand may require a six-fold increase in system 
capacity and regional municipal water projects. Overcoming the legacy 
of economic neglect and the readily apparent deficits in infrastructure 
will require a very aggressive water development program. One measure 
supported by the Navajo Nation is the Navajo Gallup Water Supply 
Project that will bring a sustainable water supply to more than 20 
Navajo chapters in New Mexico and Arizona, the City of Gallup and the 
southern part of the Jicarilla Apache Nation.

2. The Navajo Nation's traditional agriculture suffers during prolonged 
        drought
    The importance of agriculture to the Navajo Nation cannot be 
overstated. In spite of droughts, harsh winters and fluctuating prices, 
traditional agriculture has historically been one of the few economic 
enterprises which has been successfully managed in the reservation 
environment. On the Navajo Nation there are more than 12,000 livestock 
permitees and hundreds of irrigation permitees. The Navajo Division of 
Economic Development estimates that in the Navajo reservation the value 
of cattle is $16 million, the value of sheep is $3 million, the value 
of horses is $625,000, and the value of goats is $375,000. The total 
value of livestock exceeds $20 million. The cultural importance of 
livestock to the local community goes far beyond its monetary value. 
Livestock have been integrated into the Navajo lifestyle for many 
generations. The water for an estimated 300,000 permitted animal units 
comes primarily from 800 shallow windmill-powered wells and thousands 
of rain-fed stock-ponds.
    The current drought has devastated the livestock industry because 
ranchers are far more sensitive to variations in range conditions than 
other groups. The Navajo Nation has found ways to address this problem 
through the distribution of improved range information.

3. Significant improvements are still needed in drought response and 
        mitigation
    The Navajo Nation Department of Water Resources, working closely 
with the Indian Health Service and Reclamation, have updated the list 
of key drought water projects. This updated list includes the 
uncompleted projects from the previous list, and a few new projects:

------------------------------------------------------------------------
                          Project                                Cost
------------------------------------------------------------------------
1. Tuba City Additional Well...............................     $400,000
2. Teec Nos Pos New Well...................................     $460,000
3. Rare Metals to Tuba City Waterline Extension............     $280,000
4. Torreon/Counselor New Well..............................     $420,000
5. Baca/Haystack System Upgrades...........................     $755,000
6. Navajo Mountain Water Hauling...........................     $100,000
7. Lupton Additional Well..................................     $250,000
8. Cove Additional Well....................................     $250,000
9. Livestock Water Facilities..............................     $791,500
                                                            ------------
    Total..................................................   $3,706,500
------------------------------------------------------------------------

    These projects reflect only a small fraction of the infrastructure 
needs on the Navajo Nation. However, part of the selection criteria was 
that these projects can be implemented quickly, and they will address 
immediate water needs. This list was provided to the Commissioner of 
Reclamation for consideration early in March.

4. The Navajo Mountain water supply project remains unfinished
    In may seem strange to consider Navajo Mountain both a success 
story and one of the greatest challenges. However, in spite of our 
recent efforts, there is still a long way to go before that community 
has a sustainable and reliable water supply. Based on Reclamation's 
estimate, completing the second phase of this project may cost 
approximately $5 million. The Navajo Nation is committed to completing 
Phase 2 and bringing the waterline to this desperate community. An 
updated feasibility study was complete two weeks ago by the Indian 
Health Service, and clearances on the first few miles of Phase 2 were 
completed by Reclamation last week. Funding, however, remains elusive.

                             V. CONCLUSION

    The Navajo Nation remains committed to facing this drought. The 
Navajo Nation's oversight committees are currently considering a 
thought relief package to assist the Chapters and the Tribal programs 
respond. The Navajo Nation is also closely coordinating with the local, 
state and federal agencies that may be equipped to assist with this 
response. I am confident that working together, we will be ready to 
meet this challenge.

    The Chairman. Thank you very much.
    Senator Bingaman, would you please lead off with questions?
    When we finish our questions, before the second panel 
comes, we will seat them, but before we inquire of them, we'll 
take a 15-minute recess and start with the second panel. But 
we're going to question this panel first before we recess.
    Senator Bingaman.
    Senator Bingaman. Thank you very much. Thanks to all of you 
for your excellent testimony.
    Chief Knight, let me ask you first, I would say the Natural 
Resource Conservation Service probably has tools at its 
disposal for analyzing and predicting drought as good as any of 
the Federal agencies; would you agree with that?
    Mr. Knight. Yes.
    Senator Bingaman. I don't need a long answer to that. I 
just wanted the short answer.
    Mr. Knight. We're pretty good at forecasting streamflows.
    Senator Bingaman. OK. Well, how far in the future can you 
forecast streamflows? I think in your testimony you say that 80 
percent of extreme flow comes from snowpack.
    Mr. Knight. Yes.
    Senator Bingaman. What can you tell us about the 
anticipated snowpack this next winter and the winter after 
that, as we go forward through the rest of this decade?
    Mr. Knight. The arena that we use the prediction and 
predictive efforts on is on an annual basis, based off of the 
existing snowpack, to be able to predict the streamflow in a 
given basin in a given watershed for this current year. We do 
not go into the outyears. We leave that for the weather 
forecasting.
    Senator Bingaman. So you do not try to predict snowpack in 
the future?
    Mr. Knight. We do not, sir.
    Senator Bingaman. There's a group called the Western States 
Water Council. Are you familiar with them?
    Mr. Knight. Yes, sir.
    Senator Bingaman. They have developed a water action plan 
for the Western States, and as I have read through that, tried 
to understand it, one of their concerns has to do with the 
ramifications of climate change. Now, I think this gets you 
into questions about what's causing a drought, or what's 
causing some of these things, and they talk there about smaller 
snowpacks. They say there's already evidence of smaller 
snowpacks, more rain instead of snowpack, earlier snow melt. 
They say there's a fairly clear trend toward earlier snow melt, 
more evaporation and dryness in the soil. Do you have any 
agreement or disagreement, or do you take any position with 
regard to any of those issues?
    Mr. Knight. Our National Water Climatic Center--we will, 
with our SNOTEL service, be celebrating our one-hundredth 
anniversary this year, so in many areas of the West we have 
about 100 years of historical data. And that is giving us some 
reference and many of the people engaged in the climate change 
debate are using some of that data for some of their findings.
    What we find is that with 100 years of data, that is still 
woefully short to be able to make any meaningful long-term 
climatic conditions. As an agency, we are very action-oriented, 
and so we stay very focused on what we can do for our farm and 
ranch customers in the here and now.
    One of the things, as an example, the debate about earlier 
spring runoff is also sometimes managed or influenced strongly 
based off of the range management conditions there. And our 
grazing systems management can actually do a great deal to slow 
the runoff to make sure that water is there. Good, meaningful 
brush control will do the same thing, in order to be able to 
control the brush, reduce the evapotranspiration, increase the 
water flows. So we stay very focused on the pragmatic things to 
serve our customers in today's arena.
    Senator Bingaman. Let me just ask about one of those 
practical things that I think you're involved in. You mentioned 
this ground and surface water conservation component, which was 
part of the Farm Bill. Do you know how much funding we have 
received in New Mexico as a result of that ground and surface 
water conservation effort?
    Mr. Knight. The ground and surface water conservation 
effort in fiscal year--this fiscal year, I believe, is about 
$1.3 million. And many of the similar water conservation 
efforts are also done in the Environmental Quality Incentives 
Program. For this year, I believe that is $24 million for the 
State of New Mexico alone. And I would be very pleased to 
provide you with historical data since the passage of the 2002 
Farm Bill.
    Senator Bingaman. And you indicated some figure as to the 
amount of water that has been conserved as a result of those 
various programs; is that what I understood?
    Mr. Knight. Last year in New Mexico alone, the water 
conservation from these two programs was the equivalent of 
about 15,000 acre-feet.
    Senator Bingaman. OK. And that would correlate with the $24 
million figure you just gave us?
    Mr. Knight. Yes.
    Senator Bingaman. That was the Federal expenditure in order 
to save the 15,000 acre-feet?
    Mr. Knight. Yes.
    Senator Bingaman. OK.
    Mr. Knight. It looks on balance to be a good rate of 
return. We are seeing routinely nationwide a 20 to 30 percent 
savings in water conservation that can be done on-farm with 
different types of irrigation technology, the right sort of 
measurements. In the middle of a drought, if you're in the 
fifth year of the drought and you can't get water, these tools 
don't help as much, but if you're spreading a limited amount of 
water over your acreage, this makes a great deal of difference, 
and it really hardens a farm operation for the future and the 
ability to respond throughout the weather changes.
    Senator Bingaman. So I take it that when we write the new 
Farm Bill in Congress next year, you recommend us including and 
expanding this program; right?
    Mr. Knight. Secretary Johanns has done a series of 
listening sessions around the country and there certainly has 
been a great deal of support for these efforts. We are in the 
process of going to the next round of Farm Bill 
recommendations, and I fully expect the Secretary to have a set 
of recommendations to deliver to both the Senate and the House 
of Representatives in the near future.
    Senator Bingaman. Why don't you go ahead, Mr. Chairman?
    The Chairman. Thank you, Senator Bingaman.
    Well, this sounds to me like this is a winner, so we hope 
to see it revisited with even more resources. These are the 
times when we need it, it seems to me.
    I'm going to ask each one of you two or three questions 
based on your testimony, so let me start with you, Mr. 
Trujillo. You're aware that the San Juan Dineh Water Users 
Association received a 2025 grant in 2004; right?
    Mr. Trujillo. Yes, I am.
    The Chairman  And that when completed this fall, that will 
save 5,500 acre-feet a year of water. How will this 2025 plan 
benefit the Water Users Association that I have just referred 
to in the Dineh Association?
    Mr. Trujillo. The way it will benefit the association is, 
it's going to help improve water delivery along different 
aspects of the irrigation system in the Cudeii and the Hogback 
areas. And again, the idea here is to get a measured amount of 
water throughout the community there, as we go through those 
areas and as we work through the shortage sharing 
recommendations.
    The Chairman. Now, normally, we do a program like this and 
we have a grant and a match, and generally those who will have 
to come up with a match are very reluctant to come up with the 
money. You had to come up with some money here, the Navajo 
Nation; how did you sell that?
    Mr. Trujillo. Very difficult.
    [Laughter.]
    Mr. Trujillo. But no, Senator, we were able to work, 
through the mitigation efforts, with the different contractors 
as well as working with our producers. We were able to find 
funding through the recommendations, as well as through the 
treasury of the Navajo Nation to come up with the necessary 
match dollars to bring this project to realization.
    The Chairman. So you believe if we continue this and you 
find projects like this, the Navajo understand its significance 
and you may be able to find the match in the future?
    Mr. Trujillo. Again, that's what we're looking to achieve, 
and again, the idea here is to educate our constituencies on 
how to begin to work in this area. Again, there seems to be a 
tremendous amount of mistrust when we work with the Federal 
Government.
    The Chairman. Right.
    Mr. Trujillo. And it's just teaching our people how to work 
with the Federal Government.
    The Chairman. Well, I think you have done an excellent job, 
and I commend you.
    Let me talk a minute with you, Chief. You said in your 
testimony that up to 80 percent of the streamflows are derived 
from snowpack. Some parts of the State apparently have the 
lowest snowpack in 50 years. Which stream systems and 
reservoirs will be most significantly impacted by a lack of 
snowpack?
    Mr. Knight. Sir, I may need to give you some of this for 
the record.
    The Chairman. Do what you can. Don't take too long. If it 
gets too burdensome, we'll let you do it later.
    Mr. Knight. Let me do it for the record, then, sir, because 
I need to pull that out of the technical data, as to which 
exact areas. Obviously, for the South, the further South you go 
in the State, the more dramatic the lack of snowpack has been. 
You do have some streamflows coming in out of Colorado, where 
there was a little more generous snowfall that is going to give 
you a little more reservoir capacity. But I'll submit the rest 
for the records.
    The Chairman. All right. Well, currently, as an example, 
Rio Hondo and the Zuni Bluewater basins have no snowpack at 
this point. Do you predict that these basins will have any 
consistent streamflow for the remainder of the spring and 
during the summer?
    Mr. Knight. In many of these areas, at this stage of the 
year, we will be relying mostly upon existing reservoir storage 
for irrigation use.
    The Chairman. Mr. Perkins, the NRC believes that this year 
streamflows on the Canadian River will compete with the worst 
on record. How will you make do if that's the case? Have you 
thought of it in that context, and are you prepared for it?
    Mr. Perkins. Well, I don't know if there's any real way to 
prepare for something like that except to tighten the belt and 
put a little bit more water in the beans. But I think the 
streamflow is going to be gone. What most of the area will do, 
myself included, is we take what little bit of water we do get 
and we cut our acreage down, and so you get--my estimate would 
be, if we get six inches per acre, which is, like I said, about 
\1/6\ of the amount, we would divide our acreage down to \1/6\ 
and put that total amount of water on \1/6\ of the acreage.
    I know several people have plowed \1/4\ of their crop land 
to get ready to plant, because we do know--we anticipate. So, 
as far as getting prepared for something like that, I think the 
best way we can do it is to rely on what information we've got. 
We have gone through 2003 and 2004 where we had even less water 
and we had no irrigation, so we're a little bit better prepared 
this year than we were for those 2 years. 2002 was a real wake-
up call for everybody.
    You had mentioned--I want to briefly mention some 
historical data. There are little records. I mean, about every 
10 years, in our district alone, we have had a dry spell. We 
have never--until 2003, we had always been able to get at least 
one inch of water or two inches of water, that was our low one, 
but then we'd reprieve during the summer. But about every 10 
years, we've hit one.
    And what I think happened is, we had 20 years where we did 
not have a dry spell, and I think some of things got a little 
bit lax. But I think after going through this, I believe we are 
prepared and we will handle that by cutting down the amount of 
acres we do and putting all that water in one spot. But that 
will also mean that that water will only run for a short period 
of time, because it will all be used up quickly.
    The Chairman. Mr. White, let me just ask two questions of 
you: One, obviously, the rancher needs to feed more under these 
conditions, which means he has to buy more hay.
    Mr. White. Correct.
    The Chairman. Has the price of feed increased 
proportionately during this drought, or how has the market 
reacted?
    Mr. White. Well, if you can find it, it's increased in 
price.
    The Chairman. So it's short.
    Mr. White. To get through June, I had to get a load 
recently, and to give you an idea, it was running $120 a ton at 
the end of the fall, last fall. Last month it was $165 a ton. 
And that's not for real top quality alfalfa. That's for what we 
call number 2.
    The Chairman. Now, my second question, since I asked of 
you--but I'll also ask Mr. Perkins to comment, if he'd like. I 
ask you, because you have a broad experience with clients. 
What's the best Federal program that you and other ranchers 
have used to mitigate disaster losses?
    Mr. White. Well, I mean, obviously, in the heat of the 
battle, currently it's the Livestock Disaster Assistance 
Program. I mean, we're making decisions now whether to feed 
them or sell them. We've got to get these cows bred if we're 
going to have revenue in 2007, and so they have got to be in 
good enough nutritional shape to breed, as well as raise their 
current-year calf. And so that decision tree is being done now. 
If we know we have some disaster assistance that's going to be 
available, that will influence that financial decision, whether 
they're just going to haul them to town and sell them, or 
whether they're going to try to acquire more feed when 
available and work through this thing.
    The Chairman. Mr. Perkins, you agree that that's the best 
program?
    Mr. Perkins. Yes, I currently would have to agree on that. 
I have a little bit of difference that I do farm and ranch. But 
that Livestock Assistance Program has helped many of us and 
many ranchers that don't farm on their own. And if that program 
could continue it would be, I think, a saving grace to a lot of 
people.
    I would like to comment a little bit on some of your other 
programs like the 2025 grant, those for the farming side of my 
thing. And all of the constituents--I'm also on the board of 
directors of the Arch Hurley Conservancy District, and the 2025 
grants and some of the other water conservation grants that 
have been given, those are definitely excellent programs and 
we've got to keep them on board. We did have a 2025 grant that 
we thought would improve, but there was a slight glitch. 
Somehow we had not put one signature on there, so we lost that 
grant. And I would like to hope for people maybe to look into 
those. One signature does not equate to losing the amount of 
water we would have saved by putting in a pipeline to save some 
of that water. And so I hope if we can reapply, we'd look at 
that, and I appreciate Ms. Wilson, as she was commenting that 
she's going to try to work on that.
    But those programs like that, Senator, we can't get along, 
I don't think, as ranchers and farmers, without them. And not 
just there, but my area, too. Every one of us are looking at, 
``Do we keep them or do we sell them?'' And you know, when 
you--I could ask some of the visitors if they want to put 
themselves in our place right now, take your annual salary and 
cut it by 65 percent, and see if you could still make your 
mortgage payments and your house payments and your health 
insurance. Health insurance is a big issue on farms and 
ranches, because you don't have the employer paying the other 
half, you know. But yes, those programs definitely help every 
farmer and rancher out there, Senator. Thank you.
    The Chairman. Senator Bingaman.
    Senator Bingaman. Well, thank you all very much. Let me 
just ask Chief Knight about this issue of declining underground 
aquifers. To what extent does your agency involve itself in 
trying to assess the extent of the decline in underground 
aquifers? It seems like we've had this history of drought 
periods, and one way to get through those is to rely more on 
the underground water than otherwise. And Mr. Perkins testified 
to drops in groundwater levels in the aquifer that he depends 
upon, and others that he's aware of.
    To what extent are you trying to solve that problem or deal 
with that problem in a meaningful way in your agency?
    Mr. Knight. The ground and surface water conservation 
program that I mentioned, part of the underlying statute and 
intent was, in fact, to be able to address the aquifer 
challenges of the severe drawdown that is occurring in some of 
those aquifers. So with that program, we, in fact, allocate the 
dollars for that program to States based on the amount of 
drawdown that's going on in that area, and so we do not even 
offer that program nationwide. We offer that primarily in the 
17 Western States, and a few other Eastern States with aquifer 
recharge problems, as well.
    But one of the primary determining factors for the use of 
that program and the funding for that program is the severity 
of the recharge need. And so a majority of the funds, historic, 
in the last few years have been going to those areas that are 
served by the Oglala Aquifer from Nebraska all the way down to 
Texas and New Mexico, because of the severity of that problem 
and the lack of recharge.
    Senator Bingaman. And do you depend, as I think you do 
depend, on the Geological Survey to provide you with data as to 
how much of a drop there is in those aquifers? Is that 
accurate? Do you do that yourself?
    Mr. Knight. For that particular formula, yes, we're tapping 
into USGS data and any other reliable data that's out there, to 
ensure that those formulas are as accurate as they possibly can 
be.
    Senator Bingaman. OK.
    Mr. Knight. As you get into the smaller aquifers, it does 
get more challenging to be able to really measure the severity 
of that drawdown for the purpose of, on my level, appropriating 
money to the State. And then most importantly in the State, the 
State conservationist, in consultation with the State technical 
committee, the farmers and ranchers and the interest groups in 
the State, determines the priorities of where we should 
allocate resources in that State, and what should be the 
highest priority. Is it soil conservation? Is it water quality? 
Is it water quantity? And that sort of data at the local level 
is extraordinarily important for a community to make that sort 
of prioritization decision.
    Senator Bingaman. Let me just ask one other question of Ray 
Nunley. There, in Ruidoso, you mentioned, I believe, that a lot 
of the thinning activity that has occurred has been helpful, 
particularly in reducing the fire danger. Is it your 
information that the thinning that has occurred in and around 
Ruidoso has also benefited the community, by virtue of helping 
with water supply and recharge of wells, or is it possible to 
even judge that this soon into the process?
    Mr. Nunley. Senator Bingaman, I have been told that that, 
in fact, is the case. I know that you have seen our efforts 
there to clear up the fire danger part of the community there 
toward the Upper Canyon. I have been told--and I have never 
seen a tree drink, but I have been told they drink about 30 or 
40 gallons of water a day, a big tree does, so yes, it has 
helped. We're going to continue on that effort with your help, 
and I know that you have done a good job for us, and we'll be 
coming to Washington in a couple of weeks, and we'll be the 
ones on our knees asking for more money.
    [Laughter.]
    Mr. Nunley. But it has helped some, and unfortunately, 
we're not able to keep up with the drought that's really 
affecting it. If we don't get some rain soon, we'll be going 
into phase 5, which means that you can't wash your car, you 
can't do a lot of things that people like to do. At the present 
time we're allowing drip systems only and hand watering, and 
that's all we're allowing in the village.
    So we're doing everything we can to keep up, but it's kind 
of a losing battle, like it is with these other gentlemen, and 
I really am distressed with the fact that the farmers are 
having such a difficult time, because our economy depends on 
them, too.
    The Chairman. Senator Bingaman, is that adequate?
    Senator Bingaman. Sure.
    The Chairman. All right. We might submit additional 
questions. If we do, we'll tell you how long we can give you 
with opening the record to let you submit them, but I don't 
think we'll have very many additional ones.
    Thank you. You have been excellent. We're in recess for 15 
minutes.
    [Recess.]
    The Chairman. Could we get started, please? All right. For 
those who are going to come back, it would be nice if we could 
get started now. Thank you. Now, the second panel is ready. And 
we're going to start with the Honorable Mark Limbaugh, 
Assistant Secretary of Water and Science, U.S. Department of 
the Interior. We're very grateful that you would take the time 
and make the effort to join us. Thank you, Mr. Secretary.
    Jose Otero, chairman of the board of the Middle Rio Grande 
Conservancy District. He is accompanied by Sterling Grogan, 
biologist and planner. And John D'Antonio, New Mexico State 
engineer and secretary, Interstate Streams Commission. We thank 
you for being here, but we also thank you for your terrific 
work for the State of New Mexico.
    And Mike Hightower, distinguished member of the technical 
staff at Sandia National Laboratories, thank you for being 
here. We could take a lot more time with you, but we'll have to 
get by with a little bit today, and perhaps do some additional 
inquiring at another time.
    We're going to start with you, Mr. Secretary. Would you 
please lead off? Thank you for being here.

 STATEMENT OF MARK LIMBAUGH, ASSISTANT SECRETARY FOR WATER AND 
              SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Limbaugh. Well, Mr. Chairman, Senator Bingaman, thank 
you for inviting me. I appreciate the opportunity to appear 
before this committee today to talk a little bit about the 
severe conditions facing New Mexico, and its drought. I'm also 
here today to highlight how S. 2561, recently introduced by 
you, Mr. Chairman, to authorize our Water 2025 Grant Program, 
can help the State of New Mexico and other arid Western States 
deal with such droughts and with the other pressures on our 
valuable resources. I want to thank you, Mr. Chairman, and also 
thank Congresswoman Wilson for introducing this legislation.
    In listening to my colleague, Chief Knight, the NRCS talk 
about the dire runoff and reservoir conditions here in New 
Mexico and I, too, am truly concerned about the effects of 
drought on the people and communities of New Mexico today. I 
know that the Bureau of Reclamation, which is one of the 
Bureaus that I'm responsible for in the Department of the 
Interior, is helping its contractors prepare for those dry 
conditions, and is preparing also to assist the pueblos and 
tribes, real communities, and the endangered species in the 
basin through their Native American and emergency drought 
programs.
    Obviously, the best time to prepare for drought is not just 
during a drought, but every year in the West. And as we all are 
aware, drought conditions are not uncommon in Western States, 
and tend to magnify many of the underlying pressures on water 
resources in the West that will not go away when the rains and 
snows return.
    Water 2025 was fostered by former Secretary of the Interior 
Gail Norton to recognize that we are dealing with realities in 
the West that will ultimately cause conflict and crises over 
water, sometimes pitting neighbor against neighbor, farmers 
against fish and wildlife, and cities against rural 
communities. The crises that result are simply not acceptable 
in today's world. Western States like New Mexico are dealing 
with reality such as increasing water demands due to rapid 
population growth, environmental needs, endangered species 
requirements, and, yes, record drought. They're also dealing 
with realities such as overallocated watersheds, lack of 
adequate stored water even in normal water years, and aging 
facilities used to manage and deliver water supplies to ever-
thirsty farms and communities. And we recognize the very real 
fact that crisis management is not the way to deal with these 
issues.
    Today we must search out and promote innovative, proactive, 
locally-based approaches to prepare for the inevitable droughts 
while also dealing with the larger realities I have just 
mentioned. These realities make the impacts of drought like the 
one New Mexico this year is facing much worse than ever before. 
The tools Water 2025 relies on include improving water 
conservation efficiency and management, increasing 
collaboration among stakeholders, and removing Government's 
barriers to success. They are all essential to heading off 
conflicting crises over water before they occur, especially in 
areas of the West where we can predict them.
    S. 2561 permanently authorizes the Bureau of Reclamation to 
enter into 50/50 cost-shared grants and cooperative agreements 
to encourage projects that use these tools to get ahead of 
problems. Recently such authority has only been provided 
annually through the appropriations process. During the past 3 
years, Reclamation has been using competitive grants and 
cooperative agreements to fund projects that further the 
philosophy of Water 2025, partnering with water districts, 
irrigation districts, tribes, States, and other water delivery 
organizations in the areas of the West ripe for conflict and 
crisis.
    The fruits of these investments cannot be overlooked: 
Sixty-eight projects estimated to conserve over a quarter-
million acre-feet of water annually in 16 Western States, and 
representing a total value of almost $60 million, all leveraged 
by a Federal investment of only $15 million. These projects 
include improvements to aging infrastructure, to better and 
more effectively manage water supplies, increasing the use of 
water banks and markets, and collaborative efforts to bring 
communities together to face these tough water issues.
    As Congresswoman Wilson pointed out, New Mexico has 
directly benefited from these grants, and will continue to 
benefit from the projects funded by Water 2025 well into the 
future. Increased water supplies have resulted from several 
water management improvement projects funded through cost-
shared grants to the Middle Rio Grande Conservancy District, 
the State of New Mexico, the New Mexico Interstate Stream 
Commission, the San Juan Dineh Water Users Association, the 
city of Las Cruces, and the Elephant Butte Irrigation District. 
All of these projects have been designed not only to provide 
relief from today's drought, but also to continue to empower 
locally-driven solutions to many of the water problems here in 
New Mexico.
    Also, competitive cost-shared grants of funded partnerships 
for advanced water treatment research in order to improve 
today's technology to better meet tomorrow's needs. Just last 
year 16 pilot research and demonstration projects were funded, 
which represent a total investment of $6 million in research 
and development projects to improve water purification 
technologies such as desalination.
    In closing, Mr. Chairman, Mr. Bingaman, Reclamation has 
programs that help deal with the effects of drought, but these 
programs are not designed to deal with the many other realities 
the West faces when managing their water resources. Water 2025 
is a program that has now proven itself in stretching both 
western water supplies and Federal, State, and private dollars 
to meet the many water supply challenges we currently face here 
and across the West. And S. 2561 is a crucial step in ensuring 
this program and its philosophy continues well into the future.
    Thank you for inviting me to testify today. I certainly 
will be happy to answer any questions you may have at the end 
of this panel. Thank you.
    [The prepared statement of Mr. Limbaugh follows:]

 Prepared Statement of Mark A. Limbaugh, Assistant Secretary for Water 
                and Science, Department of the Interior

    Mr. Chairman and Members of the Committee, I am Mark Limbaugh, 
Assistant Secretary for Water and Science, U.S. Department of the 
Interior. I am pleased to appear today to talk about the drought 
conditions currently facing the State of New Mexico, and about how the 
Water 2025 program and legislation will work to address Western water 
supply needs.

                              INTRODUCTION

    Chronic water supply problems in many areas of the West are among 
the greatest challenges we face in the coming decades. We are 
experiencing increasing demands for water as a result of exploding 
population growth, increasing water needs of urban areas, settlement of 
Indian water rights claims, and ecosystem needs, including compliance 
with the Endangered Species Act. These demands run up against limits 
imposed by already over-allocated watersheds and aging facilities even 
in non-thought years. The extended drought that we are currently 
experiencing magnifies already-stressed water supply conditions, 
particularly in important river basins such as the Middle Rio Grande 
and the Colorado River Basin.
    Crisis management is not an effective response to drought, nor is 
it an effective solution to long-term, systemic water supply problems. 
Today's water supply issues require innovative, locally-based 
approaches that identify solutions in advance of water supply crises. 
The Water 2025 program embodies these principles. Through its 
competitive Challenge Grant program, Water 2025 recognizes that State 
and local governments should play leading roles in meeting the West's 
water supply challenges, and that the Department of the Interior should 
focus its attention and existing: resources on areas where scarce 
Federal dollars can provide the greatest benefits to the West and the 
rest of the Nation.
    The tools that the Water 2025 program relies on, including 
improved. water management through conservation, efficiency and 
markets; removing institutional barriers to coordination; increasing* 
collaboration among stakeholders; and researching and developing new 
technologies, are essential to heading off problems before they occur. 
Water 2025 also complements Reclamation's Drought Program, which is 
designed to help plan for drought events and to respond to an emergency 
situation if it occurs. Both these programs help armor water users 
against the impacts of drought by maximizing the amount of water 
available under drought conditions. My statement today will discuss 
both of these programs, focusing on how they are being applied in New 
Mexico and throughout the West.

         WATER 2025: PREVENTING CRISES AND CONFLICT IN THE WEST

    Water 2025 is designed to enable Reclamation to take action in 
advance of a water supply crisis by focusing Federal financial and 
technical resources on geographical problem areas, or ``Hot Spots,'' 
identified on the Potential Water Supply Crises by 2025 illustration 
(the ``Hot Spots Illustration''). As shown on the Illustration, there 
are numerous Hot. Spots in New Mexico, including the Rio Grande and 
Pecos River Basins. The Hot Spots Illustration is currently being 
updated to reflect the current state of water conflicts in the West.
    A key element of Water 2025 is the Challenge Grant Program, which 
relies on local initiative and innovation to identify and formulate the 
most sensible improvements for local water systems. Water 2025 promotes 
improved water management through modernizing facilities, establishing 
alternative strategies such as water banks, and taking advantage of 
water markets. To foster innovative solutions, Water 2025 creates 
partnerships and promotes collaboration with state and local water 
management agencies.
    The Challenge Grant program seeks out projects at the local level 
that stretch existing water supplies. Reclamation funds up to 50% of 
the costs of implementing such projects. Examples of activities funded 
under Water 2025 include canal lining and piping, installing measuring 
devices and automation technology to better control water deliveries 
and management, and creating and expanding water markets.
    Water 2025 authorizing legislation was introduced in the Senate by 
U.S. Senator Pete Domenici on April 6, 2006, as S. 2561. If enacted, S. 
2561 would provide long-term authorization for the Water 2025 Challenge 
Grant program, and expand Reclamation's authority to enter cooperative 
partnerships for research and development of water management issues. 
For the first two years of Water 2025, Fiscal Years 2004 and 2005, 
Water 2025 was funded through the annual appropriations process, which 
also provided year-to-year authority for the Challenge Grant Program. 
The ten-year authorization provided in Senator Domenici's bill will 
ensure the long-term effectiveness of Water 2025.
    S. 2561 authorizes the Secretary to enter into grants and 
cooperative agreements with Western States, Tribes, irrigation 
districts, water districts, or other organizations with water delivery 
authority. Consistent with the existing Water 2025 program, under these 
grants and cooperative agreements, the Federal government would fund up 
to 50% of the cost of improvements that will conserve water, increase 
efficiency, facilitate water markets, enhance water management, or 
implement other actions to prevent water-related crises and conflicts. 
Projects funded under the authority must be located in watersheds with 
a nexus to Federal water projects in the West. Grant and cooperative 
agreement funding awarded under the bill is non-reimbursable:
    If Water 2025 is to have a future, it must have long-term 
authorization. S. 2561 is largely consistent with the Administration's 
legislative proposal for permanent authorization for the Water 2025 
Program. The Department is committed to working with the Committee on 
Energy and Natural Resources and the House Resources Committee to 
secure passage of this critical bill. Passage of S. 2561 will ensure 
that irrigation and water districts, Western states, Tribes, and other 
non-Federal entities with water delivery authority can leverage their 
funding and thus have incentives to propose innovative solutions to 
pressing and long-term water management challenges. Water 2025 is key 
to enabling the Bureau of Reclamation to reward flexibility and 
innovation and proactively address potential conflicts over scarce 
water resources. The Administration is pleased to support this bill.
    Water 2025 has proven that leveraging Federal dollars with our 
partners can provide on-the-ground improvements in water management 
infrastructure that can help prevent water crises where they are most 
likely to occur. To date, Reclamation has awarded funding for 68 
Challenge Grants in 16 states, including 62 projects by irrigation and 
water districts and 6 more by Western states. Collectively, the 68 
projects represent almost $60 million in improvements, including a non-
Federal contribution of $44 million and a Federal government 
contribution of $15 million. In other words, for every dollar the 
Federal government has invested, there has been about $2.90 in non-
Federal investment. Based on estimates in the project proposals, the 68 
funded projects collectively could save up to 285,000 acre-feet of 
water per year once fully implemented.
    In addition to the Challenge Grant Program, Water 2025 has also 
funded cost-shared, competitive grants to improve water purification 
technology and make it more affordable. In FY 2005, 16 pilot, research 
and demonstration projects were funded. Including non-Federal cost 
share contributions, the 16 projects represent a $6 million investment 
in improving water purification technology. S. 2561 includes a 
provision providing long-term authorization for this important research 
effort.
    In the past year, the Department has been working closely with the 
Office of Management and Budget (OMB) to develop long-term strategic 
planning goals and performance measures for Water 2025. The long term 
goals include increasing water supply certainty and flexibility, 
diversifying the water supply, and preventing crises through added 
environmental benefits in many watersheds, rivers and streams in the 
Hot Spot areas. Use of these performance measures to track our progress 
toward achieving the program's strategic goals will ensure that the on-
the-ground achievements of the program are maximized and will 
strengthen our accountability to stakeholders.

                    WATER 2025 EFFORTS IN NEW MEXICO

    Since the inception of Water 2025 in 2004, over $5 million in 
Federal program funding--along with matching private and state 
contributions--has been committed to addressing water supply issues in 
New Mexico. This funding supports partnerships with the Middle Rio 
Grande Conservancy District and the New Mexico Interstate Stream 
Commission, as well as Challenge Grants to the San Juan Dineh Water 
Users Association, the City of Las Cruces, the Elephant Butte 
Irrigation District, and the State of New Mexico.

Partnership with the Middle Rio Grande Conservancy District (FY 2004, 
        2005, and 2006
    Reclamation entered into a 50-50 cost-share partnership with the 
Middle Rio Grande Conservancy District in 2004 to implement water 
efficiency improvements inside the District. Planned improvements 
include the automation of water control structures, improved water 
measurement, canal lining, and pipe systems. Reclamation has committed 
$2,540,925 to these efforts to date, and has dedicated approximately $1 
million more in FY 2006. Through this partnership, the District has 
installed new software to upgrade its supervisory control and data 
acquisition (SCADA) system. Several water control gates have been 
installed at key locations, which will provide automated control and 
measurement at those sites. These improvements will provide better 
service to District water users and assist in meeting the requirements 
of the Endangered Species Act for protection of the Rio Grande silvery 
minnow.

Partnership with the New Mexico Interstate Stream Commission (FY 2006)
    In 2006, Reclamation is entering into an agreement with the New 
Mexico Interstate Stream Commission (ISC), providing approximately $1 
million in Water 2025 funding to improve water efficiency and 
supplement water supplies on the Pecos River. The funding will be used 
for pipelines that will deliver water from wells in the Seven Rivers 
area to augment Brantley Reservoir.

State of New Mexico (2005, Water 2025 Western States Grant)
    The State of New Mexico will rehabilitate a Pecos River gage so 
that New Mexico's deliveries to Texas under the. Pecos River Compact 
can be measured more reliably. Accurate measurement of water delivered 
to Texas is a critical step in helping to avoid conflicts between New 
Mexico and Texas. The total project will cost $146,660 with a Water 
2025 contribution of $59,480.

San Juan Dineh Water Users Association (2004, Water 2025 Challenge 
        Grant)
    The San Juan Dineh Water. Users Association (Association), which 
serves water users in the Navajo Nation near Shiprock, New Mexico, is 
using its Challenge Grant to replace three unlined canal laterals with 
underground pipelines, potentially saving 5,500 acre-feet of water per 
year for the Association's water users. The Association has completed 
work on one of the laterals and will begin construction on the other 
two this fall. This project will decrease demand on the San Juan River, 
which will benefit the endangered Colorado pikeminnow and the razorback 
sucker. The total project cost is $751,000, with a Water 2025 
contribution of $200,000.

City of Las Cruces (2005, Water 2025 Challenge Grant)
    The city will install pumps on the Elephant Butte Irrigation 
District water distribution system so that the city's Bum Lake can be 
used as a regulating reservoir for storm water runoff, operational 
spills, and irrigation water. The city also will install pumps so that 
Elephant Butte Irrigation District water stored in Burn Lake can be 
returned to the district as needed. The project is expected to save 
3,750 acre-feet of water a year. The total project cost is $174,889, 
including a Water 2025 contribution of $86,350.

Elephant Butte Irrigation District 2005 Water 2025 Challenge Grant
    The district will install 100 flow control meters to implement its 
metering and monitoring plan to meter all farm deliveries using 
telemetry. The project is estimated to save 8,000 acre-feet of water 
per year, with 75,000 acre-feet better managed. The total project cost 
is $615,000, including a Water 2025 contribution of $300,000.
    In addition to the Water 2025 projects outlined above, Reclamation 
works proactively with Pueblos and tribes throughout New Mexico through 
its Native American Affairs Program, to assist with a variety of water 
resource needs. Several of these projects complement Water 2025 program 
efforts to improve water management on the Middle Rio Grande and its 
tributaries. Four hundred thousand dollars has been provided to the 
Pueblo de Cochiti through a Self-Determination Act contract for 
rehabilitation of Middle Rio Grande Conservancy District ditches that 
serve the Pueblo. The Native American Program has also funded projects 
for irrigation system improvements at the Pueblos of Sandia, Santo 
Domingo, and San Felipe.

Drought Program Efforts in New Mexico
    Reclamation's approach to addressing drought conditions begins with 
storing water for times of shortage. During the recent prolonged 
drought, our reservoirs have performed well, meeting water requirements 
in most areas of the West.
    Reclamation responds to drought emergencies using its authority 
under the Reclamation States Emergency Drought Relief Act of 1991. 
Title I of the Drought Act provides Reclamation with the flexibility to 
meet contractual water deliveries in times of drought by allowing 
Reclamation, on a nonreimbursable basis, to buy or lease water for fish 
and wildlife benefits, helping to meet requirements under the 
Endangered Species Act and to alleviate pressure on contractors' water 
supply. Since Fiscal Year 2000, approximately $6.25 million has been 
spent through the Drought Program in New Mexico on water acquisition 
projects, primarily on the Middle Rio Grande and on the Pecos River, 
along with approximately $2.2 million spent on well projects. The 
authority for Title I expired on September 30, 2005, but S. 648, 
legislation to extend the expiration date to 2010 has been passed by 
the Senate, and companion legislation in the House, H.R. 2925, received 
a hearing in the House Resources Subcommittee on Water and Power on 
September 27, 2005.
    Additionally, the Drought Act includes provisions for Reclamation 
participation in water banks established under state law; facilitation 
of water acquisitions between willing buyers and sellers; acquisition 
of conserved water for use under temporary contracts; and use of 
facilities for storage and conveyance of project and nonproject water. 
The Drought Program focuses on improving management of existing water 
supplies during times of drought rather than on increasing storage; the 
only permanent construction authorized under the Act is groundwater 
wells. Reclamation's Drought Program is often the last resort for 
smaller, financially-strapped entities, such as towns, counties, and 
Tribes that lack the financial capability to deal with the impacts of 
drought.
    Reclamation also actively engages in drought planning, working with 
States--including the State of New Mexico--water users, and other 
entities to prepare in advance so that when drought occurs there is 
agreement on the appropriate response. Reclamation's Water Conservation 
Field Services Program addresses drought conditions on a proactive 
basis, providing technical advice and cost-share financing for water 
management and conservation improvements before a drought hits.
    Reclamation is also working closely with other Federal agencies, 
associations and water users both at the Reclamation project level and 
at the agency level to stretch otherwise limited water supplies and to 
protect water users during droughts. For example, Reclamation is 
working with the USDA to deploy drought action teams in drought 
stricken areas of the West to coordinate the communication and delivery 
of drought-relief resources, and is working to deploy such a team in 
New Mexico. Reclamation has also established an agreement with the Army 
Corps of Engineers and other partners to cooperate on water management 
programs and activities. Finally, in operating our facilities, we work 
closely with other agencies to monitor and share data on water 
conditions and to coordinate water management to help minimize effects 
of the drought on communities and citizens of the West.

                               CONCLUSION

    The Bureau of Reclamation has a long history of effective and 
responsive water management in good times and bad. I believe the 
efforts I have outlined today demonstrate that the Bureau of 
Reclamation is providing leadership and innovation in assisting the 
West to meet the tremendous challenges of the future. To enable us to 
continue to improve existing water management strategies, the 
Administration urges passage of S. 2561, which will effectively focus 
limited resources as the Department of the Interior works with States, 
Tribes, local government, and the private sector to meet water supply 
challenges.
    That concludes my testimony. I am pleased to answer any questions.
                                 ______
                                 

                                                   NEW MEXICO
                                       [Fiscal Year 2001 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                                     Technical       Financial      Educational
                  Program Name                      Assistance      Assistance      Assistance         Total
                                                       (TA)            (FA)            (EA)
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)........               0               0               0               0
Conservation Security Program (CSP).............               0               0               0               0
Conservation Reserve Program (CRP)..............             900               0               0             900
Environmental Quality Incentives Program (EQIP).       1,106,800       4,975,822          29,000       6,111,622
Ground and Surface Water Conservation (GSWC)....               0               0               0               0
Klamath Basin (KB)..............................               0               0               0               0
Farm and Ranch Lands Protection Program (FRPP)..               0               0               0               0
Grassland Reserve Program (GRP).................               0               0               0               0
Wetland Reserve Program (WRP)...................          15,000               0               0          15,000
Wildlife Habitat Incentives Program (WHIP)......          20,800         135,760               0         156,560
Biomass Research and Development................               0               0               0               0
Conservation Technical Assistance...............       9,137,652               0               0       9,137,652
Plant Material Center (CO 46)...................         271,400               0               0         271,400
Snow Survey (CO 45).............................         109,800               0               0         109,800
Soil Survey (CO 02).............................       1,194,900               0               0       1,194,900
Flood Protection Operations (WF 03).............               0               0               0               0
Watershed Rehabilitation (WF 07)................               0               0               0               0
Small Watershed Operations (WF 08)..............       1,137,150       1,196,957               0       3,054,107
Emergency Watershed Protection..................         358,441         761,179               0       1,119,621
Watershed Planning (PL 06)......................          40,400               0               0          40,400
Forestry Incentive Program......................               0               0               0               0
Resource Conservation and Development (RC&D)....         815,900               0               0         815,900
                                                 ---------------------------------------------------------------
    Total Obligation............................      14,209,144       7,789,718          29,000      22,027,862
----------------------------------------------------------------------------------------------------------------


                                                   NEW MEXICO
                                       [Fiscal Year 2002 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                                     Technical       Financial      Educational
                  Program Name                      Assistance      Assistance      Assistance         Total
                                                       (TA)            (FA)            (EA)
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)........               0               0               0               0
Conservation Security Program (CSP).............               0               0               0               0
Conservation Reserve Program (CRP)..............             500               0               0             500
Environmental Quality Incentives Program (EQIP).       2,006,299      11,269,574               0      13,275,774
Ground and Surface Water Conservation (GSWC)....         259,830       1,258,016               0       1,517,846
Klamath Basin (KB)..............................               0               0               0               0
Farm and Ranch Lands Protection Program (FRPP)..               0               0               0               0
Grassland Reserve Program (GRP).................               0               0               0               0
Wetland Reserve Program (WRP)...................               0               0               0               0
Wildlife Habitat Incentives Program (WHIP)......          28,000         126,687               0         154,687
Biomass Research and Development................               0               0               0               0
Conservation Technical Assistance...............       7,918,770               0               0       7,918,770
Plant Material Center (CO 46)...................         216,273               0               0         216,273
Snow Survey (CO 45).............................         146,025               0               0         146,025
Soil Survey (CO 02).............................       1,181,134               0               0       1,181,134
Flood Protection Operations (WF 03).............               0               0               0               0
Watershed Rehabilitation (WF 07)................          42,407               0               0          42,407
Small Watershed Operations (WF 08)..............       1,175,000       5,500,000               0       6,675,000
Emergency Watershed Protection..................         653,899       4,082,777               0       4,736,677
Watershed Planning (PL 06)......................          46,471               0               0          46,471
Forestry Incentive Program......................               0               0               0               0
Resource Conservation and Development (RC&D)....         921,100               0               0         921,100
                                                 ---------------------------------------------------------------
    Total Obligation............................      14,595,611      22,237,055               0      36,832,665
----------------------------------------------------------------------------------------------------------------


                                                   NEW MEXICO
                                       [Fiscal Year 2003 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                                     Technical       Financial      Educational
                  Program Name                      Assistance      Assistance      Assistance         Total
                                                       (TA)            (FA)            (EA)
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)........               0               0               0               0
Conservation Security Program (CSP).............               0               0               0               0
Conservation Reserve Program (CRP)..............          24,800               0               0          24,800
Environmental Quality Incentives Program (EQIP).       3,519,500      13,251,209               0      16,770,709
Ground and Surface Water Conservation (GSWC)....         200,000       1,062,730               0       1,262,730
Klamath Basin (KB)..............................               0               0               0               0
Farm and Ranch Lands Protection Program (FRPP)..          35,838       1,388,055               0       1,423,893
Grassland Reserve Program (GRP).................         494,700       1,544,904               0       2,039,604
Wetland Reserve Program (WRP)...................               0          20,000               0          20,000
Wildlife Habitat Incentives Program (WHIP)......         101,500         199,214               0         300,714
Biomass Research and Development................               0               0               0               0
Conservation Technical Assistance...............       7,807,717               0               0       7,807,717
Plant Material Center (CO 46)...................         271,727               0               0         271,727
Snow Survey (CO 45).............................         132,975               0               0         132,975
Soil Survey (CO 02).............................       1,226,566               0               0       1,226,566
Flood Protection Operations (WF 03).............               0               0               0               0
Watershed Rehabilitation (WF 07)................         740,593               0               0         740,593
Small Watershed Operations (WF 08)..............       1,101,312       3,337,632               0       4,438,944
Emergency Watershed Protection..................          14,000         248,250               0         262,250
Watershed Planning (PL 06)......................          70,000               0               0          70,000
Forestry Incentive Program......................               0               0               0               0
Resource Conservation and Development (RC&D)....         969,700               0               0         969,700
                                                 ---------------------------------------------------------------
    Total Obligation............................      16,710,927      21,051,994               0      37,762,922
----------------------------------------------------------------------------------------------------------------


                                                   NEW MEXICO
                                       [Fiscal Year 2004 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                                     Technical       Financial      Educational
                  Program Name                      Assistance      Assistance      Assistance         Total
                                                       (TA)            (FA)            (EA)
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)........               0               0               0               0
Conservation Security Program (CSP).............         121,311         586,330               0         707,641
Conservation Reserve Program (CRP)..............          22,300               0               0          22,300
Environmental Quality Incentives Program (EQIP).       5,391,301      21,042,028               0      26,433,329
Ground and Surface Water Conservation (GSWC)....         237,576       1,039,399               0       1,276,975
Klamath Basin (KB)..............................               0               0               0               0
Farm and Ranch Lands Protection Program (FRPP)..          12,700         422,000               0         434,700
Grassland Reserve Program (GRP).................         231,076               0               0         231,076
Wetland Reserve Program (WRP)...................          30,000         450,000               0         480,000
Wildlife Habitat Incentives Program (WHIP)......          98,801         296,786               0         395,587
Biomass Research and Development................               0               0               0               0
Conservation Technical Assistance...............       8,588,150               0               0       8,588,150
Plant Material Center (CO 46)...................         304,397               0               0         304,397
Snow Survey (CO 45).............................         134,540               0               0         134,540
Soil Survey (CO 02).............................       1,094,010               0               0       1,094,010
Flood Protection Operations (WF 03).............               0               0               0               0
Watershed Rehabilitation (WF 07)................         986,805               0               0         986,805
Small Watershed Operations (WF 08)..............         489,943          94,814               0         584,757
Emergency Watershed Protection..................         195,779               0               0         195,779
Watershed Planning (PL 06)......................          24,334               0               0          24,334
Forestry Incentive Program......................               0               0               0               0
Resource Conservation and Development (RC&D)....       1,140,873               0               0       1,140,873
                                                 ---------------------------------------------------------------
    Total Obligation............................      19,103,896      23,931,357               0      43,035,253
----------------------------------------------------------------------------------------------------------------


                                                   NEW MEXICO
                                       [Fiscal Year 2005 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                                     Technical       Financial      Educational
                  Program Name                      Assistance      Assistance      Assistance         Total
                                                       (TA)            (FA)            (EA)
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)........               0               0               0               0
Conservation Security Program (CSP).............         318,101       1,540,819               0       1,858,920
Conservation Reserve Program (CRP)..............          25,000               0               0          25,000
Environmental Quality Incentives Program (EQIP).       6,097,826      23,471,908               0      29,569,734
Ground and Surface Water Conservation (GSWC)....         186,826         670,476               0         857,302
Klamath Basin (KB)..............................               0               0               0               0
Farm and Ranch Lands Protection Program (FRPP)..          22,833         657,647               0         680,480
Grassland Reserve Program (GRP).................         175,000               0               0         175,000
Wetland Reserve Program (WRP)...................           9,260         200,000               0         209,360
Wildlife Habitat Incentives Program (WHIP)......          52,931         237,984               0         290,915
Biomass Research and Development................               0               0               0               0
Conservation Technical Assistance...............       8,476,576               0               0       8,476,576
Plant Material Center (CO 46)...................         326,600               0               0         326,600
Snow Survey (CO 45).............................         158,841               0               0         158,841
Soil Survey (CO 02).............................       1,178,539               0               0       1,178,539
Flood Protection Operations (WF 03).............               0               0               0               0
Watershed Rehabilitation (WF 07)................         618,943               0               0         618,943
Small Watershed Operations (WF 08)..............         250,121        	183,493               0          66,627
Emergency Watershed Protection..................           5,818               0               0           5,818
Watershed Planning (PL 06)......................          77,800               0               0          77,800
Forestry Incentive Program......................               0               0               0               0
Resource Conservation and Development (RC&D)....       1,025,234               0               0       1,025,234
                                                 ---------------------------------------------------------------
    Total Obligation............................      19,006,349      26,595,341               0      45,601,690
----------------------------------------------------------------------------------------------------------------


                                                   NEW MEXICO
                               [Fiscal Year 2006 Obligations (thru 1/25/06) in $]
----------------------------------------------------------------------------------------------------------------
                                                     Technical       Financial      Educational
                  Program Name                      Assistance      Assistance      Assistance         Total
                                                       (TA)            (FA)            (EA)
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)........               0               0               0               0
Conservation Security Program (CSP).............         219,929       1,545,900               0       1,765,829
Conservation Reserve Program (CRP)..............          75,400               0               0          75,400
Environmental Quality Incentives Program (EQIP).       5,678,277      18,233,198               0      23,911,475
Ground and Surface Water Conservation (GSWC)....         296,647       1,036,116               0       1,332,763
Klamath Basin (KB)..............................               0               0               0               0
Farm and Ranch Lands Protection Program (FRPP)..          18,557         291,365               0         309,922
Grassland Reserve Program (GRP).................               0               0               0               0
Wetland Reserve Program (WRP)...................          10,683               0               0          10,683
Wildlife Habitat Incentives Program (WHIP)......         103,056         340,570               0         443,626
Biomass Research and Development................               0               0               0               0
Conservation Technical Assistance...............       8,061,944               0               0       8,061,944
Plant Material Center (CO 46)...................         318,611               0               0         318,611
Snow Survey (CO 45).............................         145,500               0               0         145,500
Soil Survey (CO 02).............................       1,070,000               0               0       1,070,000
Flood Protection Operations (WF 03).............               0               0               0               0
Watershed Rehabilitation (WF 07)................         608,000       1,830,000               0       2,438,000
Small Watershed Operations (WF 08)..............         234,000       1,485,200               0       1,719,200
Emergency Watershed Protection..................               0               0               0               0
Watershed Planning (PL 06)......................          72,188               0               0          72,188
Forestry Incentive Program......................               0               0               0               0
Resource Conservation and Development (RC&D)....         979,469               0               0         979,469
                                                 ---------------------------------------------------------------
    Total Obligation............................      17,892,261      24,762,349               0      42,654,610
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

                                                NATIONAL SUMMARY
                                       [Fiscal Year 2001 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                              Technical         Financial        Educational
              Program Name                Assistance  (TA)  Assistance  (FA)  Assistance  (EA)        Total
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)         1,497,000         6,714,711                 0         8,211,711
Conservation Security Program (CSP).....                 0                 0                 0                 0
Conservation Reserve Program (CRP)......        23,072,600                 0                 0        23,072,600
Environmental Quality Incentives Program        37,867,332       159,299,075         1,809,775       198,976,182
 (EQIP).................................
Ground and Surface Water Conservation                    0                 0                 0                 0
 (GSWC).................................
Klamath Basin (KB)......................                 0                 0                 0                 0
Farm and Ranch Lands Protection Program            700,000        16,799,950                 0        17,499,950
 (FRPP).................................
Grassland Reserve Program (GRP).........                 0                 0                 0                 0
Wetland Reserve Program (WRP)...........        13,959,500       140,532,931                 0       154,492,431
Wildlife Habitat Incentives Program              2,371,355        12,695,065                 0        15,066,420
 (WHIP).................................
Biomass Research and Development........                 0                 0                 0                 0
Conservation Technical Assistance.......       537,861,992                 0                 0       537,861,992
Plant Material Center (CO 46)...........         7,597,228                 0                 0         7,597,228
Snow Survey (CO 45).....................         3,658,458                 0                 0         3,658,458
Soil Survey (CO 02).....................        64,095,643                 0                 0        64,095,643
Flood Protection Operations (WF 03).....         3,406,918         8,878,468                 0        12,285,385
Watershed Rehabilitation (WF 07)........                 0                 0                 0                 0
Small Watershed Operations (WF 08)......        30,756,830        60,359,705                 0        91,116,535
Emergency Watershed Protection..........        21,833,608       114,449,917                 0       136,283,526
Watershed Planning (PL 06)..............         8,112,750                 0                 0         8,112,750
Forestry Incentive Program..............                 0         9,936,787                 0         9,936,787
Resource Conservation and Development           35,171,412                 0                 0        35,171,412
 (RC&D).................................
Alaska Villages Initiative..............                 0                 0                 0                 0
                                         -----------------------------------------------------------------------
    Total Obligation....................       791,962,626       529,666,610         1,809,775     1,323,439,011
----------------------------------------------------------------------------------------------------------------


                                                NATIONAL SUMMARY
                                       [Fiscal Year 2002 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                              Technical         Financial        Educational
              Program Name                Assistance  (TA)  Assistance  (FA)  Assistance  (EA)        Total
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)         1,490,000         6,878,871                 0         8,368,871
Conservation Security Program (CSP).....                 0                 0                 0                 0
Conservation Reserve Program (CRP)......        23,055,128                 0                 0        23,055,128
Environmental Quality Incentives Program        63,330,965       320,993,646           221,383       384,545,994
 (EQIP).................................
Ground and Surface Water Conservation            4,738,625        20,462,727                 0        25,201,352
 (GSWC).................................
Klamath Basin (KB)......................           427,432         2,062,699                 0         2,490,131
Farm and Ranch Lands Protection Program             28,800        50,677,000                 0        50,705,800
 (FRPP).................................
Grassland Reserve Program (GRP).........                 0                 0                 0                 0
Wetland Reserve Program (WRP)...........         2,366,050       263,703,509                 0       266,069,558
Wildlife Habitat Incentives Program              2,719,682        14,384,414                 0        17,104,097
 (WHIP).................................
Biomass Research and Development........                 0                 0                 0                 0
Conservation Technical Assistance.......       580,904,071                 0                 0       580,904,071
Plant Material Center (CO 46)...........         8,393,160                 0                 0         8,393,160
Snow Survey (CO 45).....................         5,841,327                 0                 0         5,841,327
Soil Survey (CO 02).....................        66,922,576                 0                 0        66,922,576
Flood Protection Operations (WF 03).....         3,133,535        15,338,022                 0        18,471,557
Watershed Rehabilitation (WF 07)........         5,857,526         3,300,000                 0         9,157,526
Small Watershed Operations (WF 08)......        36,047,855        54,642,691                 0        90,690,546
Emergency Watershed Protection..........        11,926,815        68,677,266                 0        80,604,082
Watershed Planning (PL 06)..............        10,475,973                 0                 0        10,475,973
Forestry Incentive Program..............                 0        10,309,052                 0        10,309,052
Resource Conservation and Development           43,240,399             2,500                 0        43,242,899
 (RC&D).................................
Alaska Villages Initiative..............                 0                 0                 0                 0
                                         -----------------------------------------------------------------------
    Total Obligation....................       870,899,919       831,432,398           221,383     1,702,553,699
----------------------------------------------------------------------------------------------------------------


                                                NATIONAL SUMMARY
                                       [Fiscal Year 2003 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                              Technical         Financial        Educational
              Program Name                Assistance  (TA)  Assistance  (FA)  Assistance  (EA)        Total
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)         1,062,700                 0                 0         1,062,700
Conservation Security Program (CSP).....             5,890                 0                 0             5,890
Conservation Reserve Program (CRP)......            24,800                 0                 0            24,800
Environmental Quality Incentives Program        40,459,693                 0                 0        40,459,693
 (EQIP).................................
Ground and Surface Water Conservation          135,078,328       505,913,750                 0       640,992,078
 (GSWC).................................
Klamath Basin (KB)......................         7,963,426        40,066,315                 0        48,029,741
Farm and Ranch Lands Protection Program          1,556,450        10,732,635                 0        12,289,085
 (FRPP).................................
Grassland Reserve Program (GRP).........         2,097,426        75,135,700                 0        77,233,126
Wetland Reserve Program (WRP)...........        13,836,092        47,646,128                 0        61,482,221
Wildlife Habitat Incentives Program              6,426,082        17,908,697                 0        24,334,779
 (WHIP).................................
Biomass Research and Development )......                 0                 0                 0                 0
Conservation Technical Assistance.......       597,517,430                 0                 0       597,517,430
Plant Material Center (CO 46)...........         9,100,650                 0                 0         9,100,650
Snow Survey (CO 45).....................         6,035,192                 0                 0         6,035,192
Soil Survey (CO 02).....................        72,818,528                 0                 0        72,818,528
Flood Protection Operations (WF 03).....         4,835,545         7,455,094                 0        12,290,639
Watershed Rehabilitation (WF 07)........        15,370,237        12,611,750                 0        27,981,987
Small Watershed Operations (WF 08)......        34,056,765        70,590,756                 0       104,647,520
Emergency Watershed Protection..........        13,133,668        56,335,473                 0        69,469,140
Watershed Planning (PL 06)..............         9,552,083                 0                 0         9,552,083
Forestry Incentive Program..............                 0         1,877,013                 0         1,877,013
Resource Conservation and Development           45,319,984                 0                 0        45,319,984
 (RC&D).................................
Alaska Villages Initiative..............                 0                 0                 0                 0
                                         -----------------------------------------------------------------------
    Total Obligation....................     1,038,147,641     1,119,642,584                 0     2,157,790,226
----------------------------------------------------------------------------------------------------------------


                                                NATIONAL SUMMARY
                                       [Fiscal Year 2004 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                              Technical         Financial        Educational
              Program Name                Assistance  (TA)  Assistance  (FA)  Assistance  (EA)        Total
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)         2,899,610        10,271,519                 0        13,171,129
Conservation Security Program (CSP).....         4,621,341        34,556,220                 0        39,177,561
Conservation Reserve Program (CRP)......        51,534,719                 0                 0        51,534,719
Environmental Quality Incentives Program       175,268,893       673,390,604                 0       848,659,497
 (EQIP).................................
Ground and Surface Water Conservation           12,271,436        50,156,163                 0        62,427,599
 (GSWC).................................
Klamath Basin (KB)......................         3,181,996        15,033,730                 0        18,215,726
Farm and Ranch Lands Protection Program          2,388,940        88,087,544                 0        90,476,484
 (FRPP).................................
Grassland Reserve Program (GRP).........        10,212,519        31,638,559                 0        41,851,078
Wetland Reserve Program (WRP)...........        25,278,205       257,783,609                 0       283,061,814
Wildlife Habitat Incentives Program              8,625,086        27,927,615                 0        36,552,701
 (WHIP).................................
Biomass Research and Development........                 0             5,727                 0             5,727
Conservation Technical Assistance.......       634,827,792                 0                 0       634,827,792
Plant Material Center (CO 46)...........        10,512,916                 0                 0        10,512,916
Snow Survey (CO 45).....................         6,046,009                 0                 0         6,046,009
Soil Survey (CO 02).....................        67,735,270                 0                 0        67,735,270
Flood Protection Operations (WF 03).....         4,448,992         7,574,375                 0        12,023,367
Watershed Rehabilitation (WF 07)........        14,609,727        12,999,350                 0        27,609,077
Small Watershed Operations (WF 08)......        27,683,965        55,711,626                 0        83,395,591
Emergency Watershed Protection..........         7,258,622        41,370,730                 0        48,629,352
Watershed Planning (PL 06)..............         8,472,303                 0                 0         8,472,303
Forestry Incentive Program..............                 0         2,532,105                 0         2,532,105
Resource Conservation and Development           49,755,726                 0                 0        49,755,726
 (RC&D).................................
Alaska Villages Initiative..............                 0                 0                 0                 0
                                         -----------------------------------------------------------------------
    Total Obligation....................     1,127,634,067     1,308,859,476                 0     2,436,493,543
----------------------------------------------------------------------------------------------------------------


                                                NATIONAL SUMMARY
                                       [Fiscal Year 2005 Obligations in $]
----------------------------------------------------------------------------------------------------------------
                                              Technical         Financial        Educational
              Program Name                Assistance  (TA)  Assistance  (FA)  Assistance  (EA)        Total
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)         4,033,218         9,746,596                 0        13,779,814
Conservation Security Program (CSP).....        30,179,507       171,388,723                 0       201,568,230
Conservation Reserve Program (CRP)......        69,206,913                 0                 0        69,206,913
Environmental Quality Incentives Program       239,491,090       755,979,613                 0       995,470,703
 (EQIP).................................
Ground and Surface Water Conservation           14,339,856        50,418,417                 0        64,758,273
 (GSWC).................................
Klamath Basin (KB)......................         2,076,137         8,035,176                 0        10,111,313
Farm and Ranch Lands Protection Program          4,933,959       106,853,750                 0       111,787,709
 (FRPP).................................
Grassland Reserve Program (GRP).........        13,661,297        13,311,523                 0        26,972,820
Wetland Reserve Program (WRP)...........        27,024,791       223,897,622                 0       250,922,413
Wildlife Habitat Incentives Program             11,229,549        34,360,524                 0        45,590,073
 (WHIP).................................
Biomass Research and Development........           208,023           350,000                 0           558,023
Conservation Technical Assistance.......       756,354,418                 0                 0       756,354,418
Plant Material Center (CO 46)...........        13,310,649                 0                 0        13,310,649
Snow Survey (CO 45).....................        10,230,634                 0                 0        10,230,634
Soil Survey (CO 02).....................        89,241,053                 0                 0        89,241,053
Flood Protection Operations (WF 03).....         4,417,677         4,812,692                 0         9,230,369
Watershed Rehabilitation (WF 07)........        15,284,977        12,533,651                 0        27,818,628
Small Watershed Operations (WF 08)......        32,344,446        39,057,379                 0        71,401,825
Emergency Watershed Protection..........        27,380,335       266,974,525                 0       294,354,860
Watershed Planning (PL 06)..............         6,844,867                 0                 0         6,844,867
Forestry Incentive Program..............                 0                 0                 0                 0
Resource Conservation and Development           51,997,906                 0                 0        51,997,906
 (RC&D).................................
Alaska Villages Initiative..............                 0           496,000                 0           496,000
                                         -----------------------------------------------------------------------
    Total Obligation....................     1,423,791,302     1,698,216,191                 0     3,122,007,493
----------------------------------------------------------------------------------------------------------------


                                                NATIONAL SUMMARY
                               [Fiscal Year 2006 Obligations (thru 1/25/06) in $]
----------------------------------------------------------------------------------------------------------------
                                              Technical         Financial        Educational
              Program Name                Assistance  (TA)  Assistance  (FA)  Assistance  (EA)        Total
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance (AMA)                 0                 0                 0                 0
Conservation Security Program (CSP).....        25,650,890       174,803,470                 0       200,454,360
Conservation Reserve Program (CRP)......        14,573,262                 0                 0        14,573,262
Environmental Quality Incentives Program       236,140,190       727,135,464                 0       963,275,654
 (EQIP).................................
Ground and Surface Water Conservation           18,652,336        50,489,996                 0        69,142,332
 (GSWC).................................
Klamath Basin (KB)......................         3,133,834         8,037,000                 0        11,170,834
Farm and Ranch Lands Protection Program          3,193,888        68,954,992                 0        72,148,880
 (FRPP).................................
Grassland Reserve Program (GRP).........                 0                 0                 0                 0
Wetland Reserve Program (WRP)...........        22,949,833       199,750,000                 0       222,699,833
Wildlife Habitat Incentives Program             10,297,510        32,509,488                 0        42,806,998
 (WHIP).................................
Biomass Research and Development........                 0                 0                 0                 0
Conservation Technical Assistance.......       682,551,758                 0                 0       682,551,758
Plant Material Center (CO 46)...........        10,719,826                 0                 0        10,719,826
Snow Survey (CO 45).....................        10,299,056                 0                 0        10,299,056
Soil Survey (CO 02).....................        85,165,261                 0                 0        85,165,261
Flood Protection Operations (WF 03).....         3,272,199         3,333,600                 0         6,605,799
Watershed Rehabilitation (WF 07)........        14,356,277        16,833,000                 0        31,189,277
Small Watershed Operations (WF 08)......        25,983,433        43,334,519                 0        69,317,952
Emergency Watershed Protection..........        12,228,883        40,358,994                 0        52,587,877
Watershed Planning (PL 06)..............         5,938,870                 0                 0         5,938,870
Forestry Incentive Program..............                 0                 0                 0                 0
Resource Conservation and Development           50,707,515                 0                 0        50,707,515
 (RC&D).................................
Alaska Villages Initiative..............                 0                 0                 0                 0
                                         -----------------------------------------------------------------------
    Total Obligation....................     1,235,814,821     1,365,540,523                 0     2,601,355,344
----------------------------------------------------------------------------------------------------------------


    The Chairman. Thank you very much, Mr. Secretary.
    Now we're going to ask Mr. Otero, chairman of the Middle 
Rio Grande Conservancy District, to start, and whenever he is 
ready, he can yield to the expert that he has with him.

STATEMENT OF JOSE U. OTERO, CHAIRMAN OF THE BOARD OF DIRECTORS, 
                 MIDDLE RIO GRANDE CONSERVANCY 
                            DISTRICT

    Mr. Otero. Senator Domenici and Senator Bingaman, my name 
is Jose Otero. I'm the chairman of the board of directors of 
the Middle Rio Grande Conservancy District, and I have been 
chairman since June 2001. I want to thank you for the 
opportunity to bring you up to date on the progress the 
District has made to improve water management in the Middle Rio 
Grande Valley.
    Senator Domenici asked me to be brief, and I intend to do 
that. You have a copy of my written report, and we have about 
20 copies distributed around the room, with more detail on our 
work.
    The Chairman. Right.
    Mr. Otero. I want to thank Representative Wilson for the 
good work she put in for the Conservancy District. In fact, I 
thought, at the time, she was quoting from my report to you.
    [Laughter.]
    Mr. Otero. I want to introduce my board members that were 
able to make it: Mr. Bill Turner from Albuquerque, he 
represents the Albuquerque Division, and Mr. Jimmy Wagner, in 
the back, represents Sandoval County.
    We have seven members representing their district. Our 
district stretches from Cochiti to the Bosque del Apache 
Refuge. It's 150 miles in length. We have about 1,500 miles of 
canals and ditches that we maintain to bring the water to the 
irrigators. The District encompasses about 277,000 acres, of 
which 62,000 currently are being irrigated. Our District serves 
over 11,000 Indian and non-Indian irrigators along 150 miles of 
the length of the Rio Grande.
    Where I farm, in Valencia County, the District has been an 
important voice for agriculture since its inception in 1925. 
It's also the same with all the other counties--Sandoval, 
Bernalillo, and Socorro. We have had great success working with 
the Bureau of Reclamation, the New Mexico Interstate Stream 
Commission, and other partners to modernize all of the 
District's important infrastructure.
    Along with the very valuable support we have received from 
Senator Domenici, the Bureau of Reclamation Water 2025 Program 
has been a great help to our staff. Senator Domenici, through 
your diligent efforts to secure the funding necessary to carry 
on this work, we have been able to show our serious commitment 
to improving water management while we continue to support 
agriculture for both Indian and non-Indian alike.
    With the advent of the Water 2025 Program, through your 
diligent efforts to secure the funding necessary to carry on 
this work, which we greatly appreciate, we have achieved the 
pace of promise. We have accelerated the pace of progress. To 
date, we have installed 56 new and upgraded 14 old gauges to 
measure water flows in our irrigation water delivery system. 
Forty-three automated water control gates have been installed, 
and 18 weather stations have been built which serve to 
calculate the consumptive water needs of both crops and 
riparian vegetation. These measurement and control devices, in 
conjunction with the District's institution of strict 
scheduling and rotation of the water deliveries, have produced 
a major water savings for the region. The Federal and State 
water managers and other interested parties have been utilizing 
data from our state-of-the-art metering and measuring devices 
available on our web site to make better-informed decisions.
    I would be remiss in not complimenting the irrigators 
themselves. They have spent loads of money to put concrete-
lined ditches in their fields, and this has also helped to 
increase the savings of water.
    Many other irrigation system improvement projects are under 
construction or planned, and of the $2.5 million the Water 2025 
funds have provided to the District to date, approximately 
$600,000 has being spent or obligated. The District's required 
50 percent cost share is being met and the work is on target to 
be completed by December 2008. I am very proud of the progress 
made by the District, and I look forward to continuing to work 
with the concerned departments and Congress to complete the 
improvements that are planned and under construction, as far as 
the 2025 project.
    Thank you, Mr. Domenici, for your support of our important 
work. We appreciate it.
    The Chairman. Thank you, Mr. Chairman. Did you want Mr. 
Grogan to speak now?
    Mr. Grogan. Senator, I'd be happy to yield, in the 
interests of time, and make myself available for questions.
    [The prepared statement of Mr. Otero follows:]

     Prepared Statement of Jose U. Otero, Chairman of the Board of 
           Directors, Middle Rio Grande Conservancy District

    Thank you for this opportunity to report to you on the progress the 
Middle Rio Grande Conservancy District has made during the current 
drought to improve water management, support agriculture, and protect 
endangered species in the middle Rio Grande valley.
    The District provides irrigation water, drainage, and flood control 
services to some eleven thousand Indian and non-Indian irrigators, and 
many communities, including Albuquerque, along 150 miles of the Rio 
Grande between the outlet of Cochiti Dam and the northern boundary of. 
Bosque del Apache National Wildlife Refuge. The District encompasses 
some 277,000 acres, of which approximately 62,000 acres are currently 
being irrigated. More than $30 million in economic activity is 
generated annually by irrigated agriculture in the District.
    In 2005, some 366,000 acre feet of water were diverted by the 
District from the Rio Grande, amounting to approximately 5.9 acre-feet 
per irrigated acre. Of that amount, approximately 155,000 acre-feet was 
consumed by crops, 146,000 acre-feet was returned to the river through 
surface and subsurface flows, and approximately 65,000 acre-feet was 
consumed by riparian vegetation and open water evaporation. The 
improvements outlined in this report have allowed us to reduce District 
diversions of water from the Rio Grande by 39% since 1994, thus 
conserving this precious resource and making water available for 
endangered species and other uses.
    Since 1995, we have had great success working with the Bureau of 
Reclamation, the New Mexico Interstate Stream Commission, the Middle 
Rio Grande Endangered Species Collaborative Program, and others, to 
improve the efficiency of our irrigation system, create new habitat for 
endangered species, and upgrade our water management in concert with 
the social, economic, and environmental values of this watershed.
    With the advent of the Water 2025 Program, and though the diligent 
efforts of Senators Domenici and Bingaman to secure the funding 
necessary to carry on this work, which we greatly appreciate, we have 
accelerated the pace of progress. To date, the District has installed 
56 new gages and upgraded 14 old gages to measure water flows in our 
irrigation water delivery system. Forty three automated water control 
gates have been installed, and 18 weather stations have been installed 
to calculate consumptive water needs of both crops and riparian 
vegetation. These measurement and control devices, in conjunction with 
the District's institution of strict scheduling and rotation of water 
deliveries, have produced major water savings for the region. The 
Federal and State water managers, along with other interested parties, 
have been utilizing the data from the District's state-of-the-art 
metering and measuring devices available on our website to make better-
informed decisions.
    Many other irrigation system improvement projects are under 
construction or planned. Of the $2.5 million in Water 2025 funds 
provided to the District's to date, approximately $600,000 has been 
spent or obligated, the District's required 50% cost share is being 
met, and the work is on-target to be completed by December, 2008.
    To support protection and recovery of the endangered Rio Grande 
silvery minnow and the southwestern willow flycatcher, the District has 
for several years taken specific steps to improve our management of 
water, including a guarantee of certain minimum flows below the Isleta 
and San Acacia diversion dams. These minimum flows are planned and 
managed in conjunction with Reclamation to meet minimum flow targets of 
the Biological Opinion. Occasionally, Reclamation runs short of water, 
and the District has consistently covered those shortfalls by providing 
irrigation return flow water until the water released by Reclamation 
arrives. The District will continue these and other operations as long 
as necessary to avoid jeopardizing the Biological Opinion and helping 
Reclamation to conserve the supply of supplemental water for endangered 
species.
    In 2006, as in the past few years, the District has carefully 
monitored and controlled our start-up and early season operations to 
minimize the impact on the Rio Grande. The annual startup process is 
now staggered so that only one Division at a time takes water, waiting 
until that water travels through the canal system and returns to the 
river before starting-up the next Division. These actions allowed 
Reclamation to defer releasing any of the stored silvery minnow water 
until nearly the end of March this year.
    In spite of the ongoing drought, the District is planning for the 
2006 season to be one of normal water deliveries based upon several 
conservation measures that are already in place. Diversions are tightly 
monitored and controlled to make the most of a limited water supply. 
That allows the District's stored water to last longer and also allows 
Reclamation to minimize releases of water stored for the silvery 
minnow. Return flows in excess of District needs are provided at key 
points and combined with the minnow water from Reclamation. These and 
other management strategies have allowed the District, working closely 
with Reclamation and others, to maintain compliance with the Biological 
Opinion flow targets while conserving precious stored water.
    As we continue to carefully monitor agricultural demand, 
diversions, river flows, and riparian consumption, we had until last 
week provided as much as 100% of the target flow at the San Acacia 
diversion. Now, our conservation measures are allowing us to save as 
much as 100 to 150 acre-feet per day of the water stored for the 
silvery minnow.
    The automatic water control gates we have installed at the Isleta 
and San Acacia diversion dams make a huge contribution to the 
District's water conservation program. As we are now able to maintain 
the Biological Opinion target flows with greater precision, we can more 
rigorously conserve the water stored for the silvery minnow. For 
example, when the target flow is 150 cubic feet per second, that target 
can now be consistently met within about 3%, thus avoiding the large 
daily oscillations that used to cause the river to dry and re-wet, 
stranding many fish. This improvement has, however, come at some cost 
to the District, as our canals now endure a daily fluctuation in flows 
that makes irrigation scheduling more complicated.
    Under the District's current water delivery criteria, irrigators 
receive water approximately every two or three weeks, depending upon 
the crop they are growing and other factors. In managing through the 
current drought, the District has had to make difficult decisions that 
have not always pleased all of our constituents. Nevertheless, to date 
we have been able to minimize the drought-related damage to irrigators.
    In light of the water storage restrictions of Article VII. of the 
Rio Grande Compact, we predict that we will end this irrigation season 
with little or no water in storage at El Vado Reservoir. In that case, 
the 2007 irrigation season is likely to be significantly more difficult 
for all irrigators.
    In spite of the drought, the progress made by the District, with 
your crucial support and the help of our partners, has allowed us to 
continue our historic mission of providing irrigation, drainage, and 
river flood control to support and sustain agriculture, even as we 
improve water management and support the recovery of endangered 
species. The District is committed to continuing to do all we can to 
meet the flow targets of the Biological Opinion even as we refine and 
improve upon our accomplishments in the areas of water conservation and 
improved water management. Thank you for your support of these 
important efforts.
    The District extends to all members of the Committee and staff an 
open invitation to come visit us to see how much progress we have made 
and the nature of the challenges still ahead.

    The Chairman. OK. Very good.
    We're going to now move to Mr. D'Antonio. Thank you again 
for your patience in waiting. I know you have a lot of things 
to do in your office.

            STATEMENT OF JOHN D'ANTONIO, NEW MEXICO 
                         STATE ENGINEER

    Mr. D'Antonio. Thank you, Mr. Chairman, Mr. Bingaman. Thank 
you for holding this hearing in New Mexico--it's great to have 
both of you here--and your influence not only with the State, 
but within the Nation and the benefits it brings to the State 
of New Mexico. I also want to really thank you for your staffs. 
You have great staffs. Nate Gentry, Eric Webb, Callie Gibson, 
helping us in the State; and Mike Connor with your staff, 
Senator Bingaman. They're invaluable to help us with our water 
issues within the State of New Mexico.
    Today I'm going to talk about drought and the effects it 
has on some of the critical water issues confronting the State 
of New Mexico. Obviously, we've talked about the driest winter 
in the last 112 years, snowpack conditions being very poor, 
poor since 1950. The drought conditions in the near future are 
not likely to abate, and may worsen. Governor Richardson issued 
an executive order this year, on March 14, with an official 
drought declaration for the State of New Mexico.
    One of our significant issues is the delivery of surface 
water to irrigation districts in the Lower Rio Grande. As you 
know, 6 years ago, Texas threatened to sue New Mexico and 
claimed groundwater diversions were interfering with the Rio 
Grande project water deliveries to El Paso Irrigation and Water 
Conservation District No. 1. To date, Texas has not followed 
through with that litigation, and New Mexico has had numerous 
discussions with Texas concerning the State engineer's historic 
administration of water rights, which has not affected project 
deliveries, and that improved efforts are being undertaken to 
ensure such deliveries continue unimpeded.
    However, drought coupled with the rate of development 
during the last 30 years has illuminated areas in need of 
attention, as the great margin of error once enjoyed by New 
Mexico has evaporated, and is now razor-thin. In order to 
ensure our State utilizes its full entitlement and maximizes 
the beneficial use of its available water supply, we have 
undertaken major administrative changes. I have ordered 
metering and groundwater diversions in the Lower Rio Grande 
below Elephant Butte Dam. We also are developing a more 
advanced water rights application analysis process to 
complement the completion of one of the most advanced models in 
the country for the conjunctive management of surface and 
groundwater sources, which requires the acquisition of new and 
improved technology.
    The Department of the Interior's Water 2025 initiative 
focuses, in part, on avoiding crises associated with western 
water management issues. Water 2025, a problem-solving 
initiative, helps States such as New Mexico develop and 
implement strategies and put proper tools in place to better 
manage the scarce resources that we have. This partnership will 
help nourish a healthy environment and sustain a vibrant 
economy by fostering cooperation and collaboration between all 
water users, especially during times of drought.
    The process of acquiring, developing, and implementing 
these tools is part of my active water resource management 
plan. Implementation of this initiative in the Lower Rio Grande 
will benefit the United States because the Bureau of 
Reclamation is actively contributing to and participating in 
the implementation of this initiative to promote the project's 
efficient operation. Texas' project members will benefit from 
Reclamation's increased efficiency in delivering project water 
and New Mexico's active management of this water resources.
    New Mexicans benefit by avoiding costly litigation, and 
they will continue to maximize beneficial use of available 
water supply. The New Mexico Interstate Stream Commission will 
benefit from approximately $1 million in funds through the 
Bureau of Reclamation's Water 2025 grant program for work 
related to the design and construction of the Seven Rivers 
augmentation wellfield pipeline project down in the Pecos River 
Basin. The pipeline will deliver water from the Seven Rivers 
augmentation wellfield to Brantley Reservoir. This completed 
wellfield and pipeline will satisfy one of the conditions of 
the settlement agreement and will help the Interstate Stream 
Commission comply with the Pecos River Compact.
    Also, the Interstate Stream Commission received a Water 
2025 Challenge Grant for close to $60,000 to be used to 
rehabilitate the USGS streamflow gauge in the Pecos River at 
Red Bluff to provide more accurate high-streamflow measurements 
and improve site accessibility during high flow conditions. The 
Red Bluff gauge is the index station for measuring flows 
delivered to Texas under the Pecos River Compact. Again, that 
accentuates the importance of the accuracy of the flow 
measurements at this location.
    The State of New Mexico very much appreciates the funding 
that may be available to New Mexico under S. 178, the New 
Mexico Water Planning Assistance Act, through the Senate, and 
we hope that the bill will pass through the House and be 
acceptable to the President for signing into law. This bill is 
especially important because it makes funds available to begin 
implementation of important measuring and metering projects in 
the Lower Rio Grande, in addition to other areas of New Mexico.
    The drought has also highlighted areas of the State in need 
of urgent assistance from maximizing the available water 
supply. That includes funding for maintenance and improvements 
to interstate and intrastate stream gauging programs and 
metering initiatives; the construction of a pipeline in the 
Fort Sumner area to deliver water to the Pecos River to assist 
the Federal Government in meeting flow requirements for the 
benefit of the endangered Pecos bluntnose shiner; improved 
irrigation efficiency for Indian tribes and acequias; the 
hydrologic and biological studies to implement the New Mexico 
portions of the 2004 Arizona Water Rights Settlement Act in the 
Gila and San Francisco Basins; and the development of 
hydrologic data, groundwater characterization data base 
development, and data distribution relating to the salt basin.
    Development of desalination projects is important also, and 
passage of legislation through Congress enacting the Taos 
Navajo and Aamodt water rights settlements. Most recently, on 
March 31, there was a public release of the Taos Pueblo Water 
Rights Draft Settlement Agreement, and that joint public 
release is an important first step toward completing a water 
rights settlement in the Taos Valley.
    We also have the Navajo Nation Water Rights Settlement 
that's important because it would resolve the claims of the 
Navajo Nation for use of the waters in the San Juan River Basin 
in Northwestern New Mexico, and also the Aamodt Settlement, 
which is four decades of litigation adjudicating water rights 
for the Pueblos of Nambe, Pojoaque, Tesuque, and San Ildefonso 
and use of the waters of the Rio Pojoaque in north-central New 
Mexico.
    With that, Mr. Chairman and Senator Bingaman, I conclude my 
report.
    [The prepared statement of Mr. D'Antonio follows:]

    Prepared Statement of John D'Antonio, New Mexico State Engineer

    Thank you for allowing me to speak today . . . about drought and 
the effect it has on some critical water issues confronting the State 
of New Mexico. New Mexico is currently suffering through one of the 
driest winters in the last 112 years, and in parts of the state, this 
is the driest year in recorded history. New Mexico's rivers and streams 
are expected to have extremely low flows because the snowpack 
conditions are the poorest since 1950. Also, the National Weather 
Service is predicting that dry conditions will continue throughout most 
of New Mexico for the remainder of the spring season. Drought 
conditions, in the near future, are not likely to abate and may worsen. 
Governor Bill Richardson issued Executive Order 2006-012 on March 14, 
2006, with an official drought declaration for the State.
    One of our significant issues is the delivery of surface water to 
irrigation districts in the Lower Rio Grande. As you know, six years 
ago Texas threatened to sue New Mexico . . . and claimed groundwater 
diversions were interfering with Rio Grande Project water deliveries to 
El Paso Irrigation and Water Conservation District Number One. To date 
. . . Texas has not followed through with litigation. New Mexico has 
had numerous discussions with Texas . . . concerning the State 
Engineer's historic administration of water rights . . . which has not 
affected project deliveries and that improved efforts are being 
undertaken to ensure such deliveries continue unimpeded.
    However, drought . . . coupled with the rate of development during 
the last 30 years . . . has illuminated areas in need of attention as 
the great margin of error once enjoyed by New Mexico has evaporated . . 
. and is now razor thin. In order to ensure our state utilizes its full 
entitlement and maximizes the beneficial use of its available water 
supply, we are undertaking major administrative changes. I have ordered 
metering of groundwater diversions in the Lower Rio Grande below 
Elephant Butte Dam. We are developing a more advanced water rights 
application analysis process to complement the completion of one of the 
most advanced models in the country for the conjunctive management of 
surface and groundwater sources . . . which requires the acquisition of 
new and improved technology.
    The Department of the Interior's Water 2025 initiative focuses in 
part on avoiding crisis associated with western water management 
issues. Water 2025--a problem-solving initiative helps states such as 
New Mexico develop and implement strategies and put proper tools in 
place to better manage scarce water resources. This partnership will 
help nourish a healthy environment and sustain a vibrant economy by 
fostering cooperation and collaboration between all water users, 
especially during times of drought. The process of acquiring . . . 
developing . . . and implementing these tools is part of my Active 
Water Resource Management plan. Implementation of this initiative in 
the Lower Rio Grande will benefit the United States . . . because the 
Bureau of Reclamation is actively contributing to and participating in 
the implementation of this initiative to promote the project's 
efficient operation. Texas' Project members will benefit from 
Reclamation's increased efficiency in delivering Project Water and New 
Mexico's active management of its water resources. New Mexicans benefit 
by avoiding costly litigation, and they will continue to maximize 
beneficial use of available water supply.
    The New Mexico Interstate Stream Commission will benefit from 
approximately $1 million in funds through the Bureau of Reclamation's 
Water 2025 grant program for work related to the design and 
construction of the Seven Rivers augmentation well field pipeline 
project. The pipeline will deliver water from the Seven Rivers 
augmentation well field to Brantley Reservoir. The completed well field 
and pipeline will satisfy one of the conditions of the Settlement 
Agreement and will help the Interstate Stream Commission comply with 
the Pecos River Compact.
    The Interstate Stream Commission also received a Water 2025 
Challenge Grant for close to $60,000 of funding to be used to 
rehabilitate the USGS streamflow gage on the Pecos River at Red Bluff 
to provide more accurate high streamflow measurements and improve site 
accessibility during high flow conditions. The Red Bluff gage is the 
index station for measuring flows delivered to Texas under the Pecos 
River Compact, which accentuate the importance of accurate flow 
measurements at this location to New Mexico State.
    The State of New Mexico very much appreciates the funding that may 
be available to New Mexico under Senate Bill 178 . . . the New Mexico 
Water Planning Assistance Act . . . through the Senate and we hope the 
bill will pass through the House and be acceptable to the President for 
signing into law. This bill is especially important because it makes 
funds available to begin implementation of important measuring and 
metering projects in the Lower Rio Grande in addition to other areas of 
New Mexico.
    The drought has also highlighted areas in the state in need of 
urgent assistance to maximize the available water supply including:

  <bullet> Funding for maintenance and improvement to interstate and 
        intrastate stream gauging programs and metering initiatives
  <bullet> Construction of a pipeline in the Fort Sumner area . . . to 
        deliver water to the Pecos River to assist the federal 
        government in meeting flow requirements for benefit of the 
        Pecos Bluntnose Shiner
  <bullet> Improved irrigation efficiency for Indian tribes and 
        acequias
  <bullet> Hydrological and biological studies to implement the New 
        Mexico portions of the 2004 Arizona Water Settlement Act . . . 
        in the Gila and San Francisco Basins
  <bullet> Development of hydrologic data . . . groundwater 
        characterization . . .  database development and data 
        distribution relating to the Salt Basin
  <bullet> Development of desalination projects
  <bullet> Passage of legislation through Congress enacting the Taos, 
        Navajo, and Aamodt water right settlements.

  <bullet> Most recently on March 31st . . . there was a public release 
        of the Taos Pueblo Water Rights Draft Settlement Agreement. The 
        agreement was reached through multi-party negotiations among 
        the Taos Pueblo . . . the State of New Mexico . . . the Taos 
        Valley Acequia Association . . . the Town of Taos . . . El 
        Prado Water and Sanitation District . . . and 12 Taos-area 
        Mutual Domestic Water Consumer Associations. The joint public 
        release is an important first step toward completing a water 
        rights settlement in the Taos Valley.
  <bullet> The Navajo Nation Water Rights Settlement is also important 
        because it would resolve the claims of the Navajo Nation for 
        use of waters of the San Juan River Basin in northwestern New 
        Mexico.
  <bullet> The Aamodt Settlement . . .  is important because it 
        resolves nearly four decades of litigation by adjudicating the 
        water rights of the Pueblos of Nambe . . . Pojoaque . . .  
        Tesuque . . . and San Ildefonso to the use of the waters of the 
        Rio Pojoaque in northcentral New Mexico.

    The Chairman. Thank you very much.
    Our last witness, Mr. Hightower.

         STATEMENT OF MICHAEL HIGHTOWER, DISTINGUISHED 
 MEMBER OF THE TECHNICAL STAFF, SANDIA NATIONAL LABORATORIES, 
                        ALBUQUERQUE, NM

    Mr. Hightower. You know, it's tough sitting next to the 
State engineer in the time of drought. Everybody throws things 
at him, and if they miss, they're going to hit Sterling and 
myself.
    [Laughter.]
    Mr. Hightower. So I'm a little bit gun shy, but I'm going 
to try to get through this as quickly as I can.
    Thank you, Senator Domenici and Senator Bingaman, for the 
opportunity to address you today about the research activities 
at Sandia National Laboratories and their applications to the 
State of New Mexico.
    New Mexico Is no stranger to drought. An old saying we have 
is that New Mexico has three types of weather: We are either in 
a drought, going into a drought, or coming out of a drought. 
And actually, that's not that far from true. Data from the 
National Drought Center suggests that over the last century, 
New Mexico has experienced either a severe or an extended 
drought for 1 year in 7.
    The problem in arid regions like New Mexico is that we're 
becoming increasingly less resilient to drought. This is due to 
a combination of explosive growth, decreasing surface water 
runoff, and dropping groundwater tables. The drought concerns 
of today may be indicative of the kinds of persistent water 
shortages that we could find ourselves in on a regular basis in 
the future unless we develop a long-term strategy to reduce 
water consumption and improve water supplies and water 
management.
    While we know we have limitations on our fresh water 
resources in New Mexico, there are opportunities to create new 
water. This is a major research direction at Sandia, and our 
efforts to create new water are focused in three areas.
    First, we're conducting advanced water treatment research, 
trying to reduce the cost of using nonpotable water supplies to 
supplement fresh water supplies. The second area that we're 
working on is advanced water conservation research to try to 
reduce fresh water use and fresh water demands. And the third 
area that we're working on is the development of innovative 
decision support tools and modeling tools to try to improve 
overall water management.
    To support these efforts, we are actively partnering with 
industry, government agencies, and research institutions in New 
Mexico--and, most importantly, communities in New Mexico--to 
develop and test technologies that address user needs. This 
approach has helped us gain acceptance of new technologies and 
accelerate their use both in New Mexico and internationally and 
nationally, as well. Our research partnerships have included 
both near-term support for New Mexico communities, as well as 
development of capabilities to build a foundation for sustained 
improvements in water availability and quality.
    A couple of our major efforts in the State include 
partnering with the State engineer, the city of Alamogordo, 
Federal water agencies like the Bureau of Reclamation and USGS, 
and New Mexico State University Water Resources Research 
Institute, to establish the National Inland Desalination 
Research Center in Alamogordo. This facility is funded by 
Congress--by you, Senator--and is completing construction. 
We've already done some preliminary testing on technologies. 
One of those technologies was recently used to support Katrina 
relief efforts and provided over 200,000 gallons a day of 
treated water for emergency drinking water supplies in 
Mississippi. That system is being moved to Gallup to look at 
research on desalination of brackish water in the Gallup area, 
which is very important in the State of New Mexico.
    We are also conducting desalination and water research and 
providing technical assistance to a number of counties within 
the State, and have provided assistance to communities in Lea 
County, Sandoval County, Eddy County, Otero County, Chaves 
County, Lincoln County, Sierra County, and Bernalillo County.
    The Chairman. What are you doing in those counties?
    Mr. Hightower. Most of those counties are asking for 
information on costs of desalination, costs of treatment, 
disposal options, water resources, associated brackish water 
resources in those communities, in those counties.
    We're also partnering with the oil and gas industry in the 
Permian, San Juan, and Raton Basins of New Mexico, as well as 
with organizations in Wyoming and Montana to conduct research 
on treatment and use of oil-field-produced water. In New 
Mexico, we produce almost 25 billion gallons of produced water 
a year in oil and gas production, and if we use just even a 
minor or a moderate amount of that, we can significantly impact 
fresh water supplies and water availability in some of those 
local areas. We're doing that activity in conjunction with New 
Mexico Tech, New Mexico State, UNM, Los Alamos National 
Laboratories, and local resource management agencies.
    Also, in the treatment research area, we're evaluating new 
technologies to meet emerging treatment standards, such as 
arsenic, and some of the other 20 or 30 new standards that may 
be developed over the next several years. Our arsenic research 
efforts include local and national outreach programs to work 
with communities.
    We're also conducting efforts on technology pilot testing 
in communities in New Mexico, including Anthony, Socorro, Rio 
Rancho, and Jemez Pueblo. And we have assisted over 75 New 
Mexico communities in assessing their water quality and 
identifying arsenic treatment technologies for their 
communities.
    In an effort with the Department of Energy, Los Alamos and 
Sandia and other national laboratories are working with the 
Utton Center at UNM in developing a national technology road 
map to assess research needed associated with the consumption 
of fresh water use in the energy sector, which looms as a 
future major competing demand for water supplies.
    Finally, in the water management area, Sandia is partnering 
with communities, government agencies, and stakeholders in the 
Middle Rio Grande to develop interactive water management 
decision support tools to help communities and agencies assess 
and manage options and evaluate long-term impacts of different 
water management options. Based upon the success of that 
modeling activity, we're developing similar tools to do 
cooperative water management with communities along the Gila 
River in New Mexico, the Willamette River in Oregon, and the 
Jordan River in Jordan.
    In closing, Sandia's water research efforts emphasize the 
development of innovate approaches and technologies that 
support the wise use of water resources and that create new 
water. We continue to use local partnerships to help accelerate 
technology implementation. Our goal is to conduct research and 
development that supports long-term strategies to reduce future 
water shortages.
    Thank you for the opportunity to address you today.
    [The prepared statement of Mr. Hightower follows:]

 Prepared Statement of Michael Hightower, Distinguished Member of the 
     Technical Staff, Sandia National Laboratories, Albuquerque, NM

   RESEARCH, DEVELOPMENT, AND TECHNOLOGY TRANSFER EFFORTS AT SANDIA 
      NATIONAL LABORATORIES TO IMPROVE WATER RESOURCE AVAILABILITY

    An old saying among water managers and water users in New Mexico is 
that ``In New Mexico if we are not in a drought, then we are either 
coming out of a drought, or about to go into a drought.''
    While that statement is often said facetiously, the saying fairly 
well represents New Mexico's water supply dilemma. Like states in the 
High Plains and most of the western United States, New Mexico has been 
in either a severe or extreme drought for 10% to 15% of the time over 
the past century, or about one in seven years (Figure 1*). While we all 
pray for both snow and rain to get us out of the current multi-year 
drought :probably the worst we have seen in fifty years--we know that 
if it does rain again in New Mexico, drought conditions will return in 
three to seven years.
---------------------------------------------------------------------------
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
    Because of our and climate and frequency of drought, New Mexicans 
know well the economic and social tragedies that have accompanied 
extreme and extended droughts. New Mexicans have a long history of 
water planning and management to conserve fresh water resources during 
droughts. The ancient Indian cultures, the Pueblo Indians, and European 
immigrants all utilized dams and diversions to help capture, store, and 
transport water for irrigation and domestic uses to extend supplies 
during low flows. Drought was suggested as a major challenge to the 
prehistoric Anasazi and cliff dwelling cultures, and drought was the 
direct cause of the mass exodus and migration of farmers and ranchers 
out of the Southwest during the Dust Bowl of the 1930s.
    The current extended drought is probably the most severe since 
1950. New Mexico and many states across the country have become much 
less resilient to droughts because of emerging trends in climate 
variability, population and industrial growth, environmental and 
ecological water demands for endangered aquatic species, and over 
pumping of ground water for municipal and agricultural demands. As a 
result of these important trends of increasing water demand and reduced 
water availability, future extended droughts could have even more 
serious consequences than those in the past. For example, current 
climate trends suggest that New Mexico and states in the coastal and 
mountain West will experience significantly less winter snowfall and 
spring runoff in coming decades. Low snowpacks are expected to reduce 
future surface water runoff by as much as 10% to 15% each year, 
significantly reducing the quantity of water that will be stored in 
traditional reservoirs for use during droughts.
    The long-term reduction in surface water availability will occur at 
a time when New Mexico's population has grown from less than one 
million during the severe drought of the 1950s to a population of more 
than 1.8 million in 2005 and a projected population of 2.5 million by 
2025. During the current drought, New Mexico is providing water to 
twice the population it did in the last major drought of 1950, and in 
the next major drought, New Mexico will have to provide water to almost 
two million more people than was required during the 1950s drought, 
while also trying to meet the water needed for increasing ecological, 
energy, industrial, and agricultural demands. Ground water from wells 
has been a major water supply resource that has helped limit the 
impacts and severity of past droughts. Unfortunately, in may places, 
our current ground water pumping practices have been unsustainable, and 
the amount of ground water available has declined significantly. This 
will limit our ability to use ground water to mitigate water supply 
shortages during future droughts.
    These trends are not just a New Mexico problem, many other western 
states are projecting similar population growth and face similar water 
demand and supply challenges. Some arid states are projecting even 
double the growth rate in New Mexico. Therefore, competition over water 
resources among different water-use sectors and between states will 
become increasingly intense, especially during droughts. For these 
reasons, our traditional water-management and water-use practices and 
technologies might not be able to provide New Mexico or other states 
with the ability to cope with future extended droughts.
    The potential shortfall in water resources has great potential to 
lead to negative long-term social and economic impacts to arid and 
drought-prone states like New Mexico. Therefore, while it is important 
to help communities deal with the water-supply and water-resource 
issues during the current drought, we must also develop an improved, 
long-term approach and long-range strategy to ensure adequate fresh 
water supplies so that and states, such as New Mexico, can meet future 
water needs in a sustainable manner, even during extended periods of 
drought.
    As shown in Figure 2, the southwestern United States/northern 
Mexico region is one of the more water-stressed areas of the world. 
Worldwide, water has become a regional and global public health and 
economic concern with public safety, economic development, and national 
security implications. New Mexico's water issues, economic growth and 
development trends, and climate issues are similar to those in many 
regions of the world experiencing water stress or water shortages. 
Because of these similarities, Sandia believes New Mexico is an 
excellent ``testbed'' for national and international research, 
development, and demonstration programs that can implement new 
technologies to reduce fresh water demands, conserve and better manage 
fresh water supplies, and accelerate the use of impaired waters in arid 
urban and rural areas.
    Using New Mexico as a ``testbed'' is an important element of Sandia 
National Laboratories' water research and development efforts to 
improve availability, reduce fresh water use, and improve water 
management and use. Our approach is to partner and collaborate with 
government agencies, industry, and academia and to work closely with 
local communities and municipalities to help demonstrate, evaluate, and 
implement new technologies. Partnering and collaboration are an 
effective technology transfer approach that when driven by the needs of 
water users encourages acceptance and implementation of innovative 
technologies that can improve water supplies and meet the cost and 
performance needs and expectations of communities and industry.
    While the availability of fresh-water resources in New Mexico and 
the arid West may seem limited based on the current trends, there are 
significant opportunities to ``create new water'' through focused 
research and development. Carrying out this work in partnership with 
communities, industry, government agencies, and research institutions 
will play an important role in transferring technology and accelerating 
broad technology implementation. Sandia is working to ``create new 
water'' in three major areas:

  <bullet> Advanced treatment to enhance the cost-effective use of 
        nontraditional or non-potable water resources,
  <bullet> Enhanced water conservation approaches to reduce fresh water 
        demands, and
  <bullet> Innovative decision support and modeling tools to improve 
        water management.

    A focus of Sandia's work is to support the use and management of 
water in a more sustainable manner, helping to reduce conflicts that 
will arise over limited water resources, especially during periods of 
water shortage, such as extended and extreme droughts.
    Our research and development efforts in advanced treatment focus on 
technologies for cost-effective treatment of nontraditional or non-
potable water resources to enhance their potential to be used to 
supplement fresh water resources. These research and development 
efforts include treatment of nontraditional water resources such as 
brackish water, produced water from oil and gas production, and waste 
water reuse and utilization. Additionally, we are working to develop 
advanced treatment approaches to address emerging contaminants such as 
arsenic, trace metals, and pharmaceuticals to maintain the use of these 
water resources.
    In the water treatment research and development arena, Sandia is 
pursuing the following activities:

  <bullet> Long- and short-term research that will provide new water 
        through advances in desalination of brackish water.
        This includes partnering with the State Engineer, the City of 
        Alamogordo, federal water agencies, and New Mexico State 
        University to establish and construct a National Inland 
        Desalination Research Center in Alamogordo, providing a world-
        class desalination research and demonstration facility to help 
        accelerate the evaluation and implementation of innovative and 
        emerging desalination technologies for brackish ground water. 
        The facility is completing construction, and well fields, water 
        storage facilities, large-system outdoor testing areas, and 
        evaporation ponds are already completed and operational. The 
        indoor testing areas and laboratory and office facilities are 
        being constructed. The facility is in initial operation and has 
        already been used to evaluate a new, large Navy desalination 
        system. Based on the performance data collected at this 
        facility, the system was mobilized to provide emergency water 
        purification of more than 200,000 gallons per day of brackish 
        water to critical facilities along the Gulf Coast in the 
        aftermath of Hurricane Katrina.
        Future research priorities for national desalination research 
        are being established with user communities to support both 
        urban and rural inland communities in the development of new 
        technologies to utilize brackish water to supplement fresh 
        water supplies. New technologies are being developed and tested 
        in the laboratory with follow-on pilot testing scheduled at the 
        National Inland Desalination Research Center and other 
        desalination research centers.
        Efforts have also included joint research on desalination and 
        water reuse efforts with Rio Rancho and Alamogordo, and 
        technical assistance on desalination extended to several New 
        Mexico counties and communities.
  <bullet> Technical assistance and joint research is being conducted 
        with industry and resource management groups on the treatment 
        and use of produced water.
        This includes efforts in the Permian, San Juan, and Raton 
        basins of New Mexico to investigate treating oil and gas 
        produced water for cost-effective industrial and agricultural 
        applications, reducing fresh water demands. Produced water is a 
        potential water resource in New Mexico and many other states. 
        For every barrel of oil produced, there are often 7 to 10 
        barrels of brackish water produced. Significant quantities of 
        brackish water are also produced in conventional and coal-bed 
        natural gas production. For example, New Mexico oil and gas 
        production generates more than 25 billion gallons of produced 
        water each year. Treatment and use of even a moderate 
        percentage of these waters could help reduce fresh water 
        demands. Our ongoing work in this area includes coordinating 
        technical workshops in New Mexico and nationally on produced 
        water and laboratory and field testing of emerging treatment 
        technologies.
        Current efforts include field testing projects in both the San 
        Juan and Permian basins of New Mexico and technical assistance 
        to the Department of Energy on coal-bed natural gas produced 
        water treatment and utilization in Wyoming and Montana. These 
        efforts have involved collaboration with New Mexico State 
        University, New Mexico Tech, the University of New Mexico, Los 
        Alamos National Laboratory, and resource management agencies in 
        New Mexico and other states.
  <bullet> Cooperative research is being conducted with local 
        communities to improve the cost and performance of new 
        treatment technologies to meet emerging treatment standards, 
        such as for arsenic.
        Our arsenic research efforts have included coordination of 
        local and national outreach programs for communities on arsenic 
        treatment costs and issues, providing laboratory analysis 
        capabilities to local communities on arsenic content, and 
        collaboration with local communities on arsenic technology 
        demonstrations. We have conducted pilot demonstrations in New 
        Mexico with Anthony, Socorro, Rio Rancho, and soon Jemez Pueblo 
        on arsenic removal, and we have assisted over 75 New Mexico 
        communities in testing and evaluating their water chemistry to 
        help them understand their arsenic removal technology 
        alternatives.

    Sandia's ongoing efforts in water management and water conservation 
focus on development of approaches, technologies, and tools to improve 
the understanding, cooperation, and collaboration on water management 
and water conservation options and decisions. These efforts include 
advanced, science-based research of environmental and ecological water 
demands to help improve river and watershed management. Our efforts 
also include development of advanced decision-support tools and models 
for improved surface and ground water management, as well as regional 
water planning.
    In the watershed management, water conservation, and the water 
management research and development arenas, Sandia is pursuing the 
following activities:

  <bullet> Coordinating with local communities the research to quantify 
        environmental and ecological water demands.
        Efforts have included research on the water demands of 
        endangered species on the Pecos River. These efforts helped 
        identify the necessary flow regimes to support spawning of the 
        Blunt Nosed Shiner, providing irrigators and wildlife agencies 
        with information to effectively optimize water delivery 
        operations to meet competing demands.
        Research and development of real-time sensors has now created 
        the ability to assess intermittent stream water flows and 
        sediment quantities. The use of these sensors could provide 
        information on water inflows to support improved water balance 
        analyses and water management decisions, and help to assess 
        sedimentation rates to improve reservoir management and water 
        storage ability.
        Research is underway to quantify the impact of tamarisk removal 
        on water availability and reservoir sedimentation. This work 
        will help optimize tamarisk removal and river vegetation 
        restoration to improve long-term water availability without 
        increasing reservoir sedimentation, which could reduce overall 
        water storage ability.
  <bullet> Sandia is coordinating the development of a national 
        research roadmap for the Department of Energy to reduce water 
        use in the energy sector.
        In this effort, Sandia is coordinating development of a 
        national research roadmap to identify future research and 
        development priorities that can reduce the use and consumption 
        of fresh water in energy production and generation. Currently, 
        electric power generation is the largest fresh water withdrawal 
        sector in the country. While not all of the water withdrawn is 
        consumed, increasing energy needs to meet population and 
        economic growth, new environmental regulations, and efforts to 
        transition to biofuels for transportation will significantly 
        increase future water demands and water consumption by the 
        energy sector, doubling or even tripling water needs. This 
        increased demand will be further exacerbated by the fact that 
        much of the projected energy demand growth will be in areas of 
        the country, like New Mexico and the Southwest, that already 
        have limited fresh water resources. The roadmap will identify 
        the research, development, and technology demonstrations needed 
        to ensure that natural resources, such as energy and water, can 
        be cooperatively managed so that water limitations in the 
        future will not negatively impact energy supplies.
  <bullet> Development of innovative decision support and modeling 
        tools to improve water management.
        Sandia is assisting local communities and government agencies 
        along the Middle Rio Grande in New Mexico in developing 
        regional water management decision support tools to help these 
        communities and agencies to determine how to best manage water 
        use and demands in the Middle Rio Grande and assess long-range 
        impacts of those decisions. These efforts have supported 
        cooperation of a wide spectrum of stakeholders to evaluate 
        numerous options and collectively develop of a 50-year water 
        plan for the region as well as support improved water routing 
        and planning.
        Sandia is assisting state and local communities and water 
        resource managers in developing a regional water-management 
        decision tool for the Gila River in New Mexico. This decision 
        tool will enable local and state agencies, along with local 
        water users to develop a shortage sharing and water banking 
        mechanism to minimize economic and social disruptions during 
        low flow or drought conditions.
        Cooperation with federal, state, and international agencies is 
        focused on developing new modeling tools for water resources 
        management and conflict resolution for the Williamette River in 
        Oregon, the lower Rio Grande, and the Jordan River in Jordan. 
        These efforts will provide user-friendly tools that allow all 
        stakeholders to rapidly look at various options and identify 
        appropriate management strategies. The tools are being designed 
        to help minimize regional conflicts over limited water 
        resources, especially in times of drought.

    In conclusion, we know that drought is a problem that is always 
going to be with us, but we do not have to accept the social 
dislocations and economic hardships that a drought can create. In the 
short term, we. can manage our water resources better than we do now to 
be sure that there is enough water for people, their livelihoods, and 
for the environment. In the long term, our focus is on developing 
technologies that actually increase the amount of water available for 
our use. This new water can then be directed to the most appropriate 
activities, matched to the quality of water produced. The key to 
Sandia's water strategy is to focus research, development, and 
technology transfer on critical needs, beginning now and continuing 
forward as the current drought is alleviated so that we do not have to 
deal with ever-escalating crises in the future when drought conditions 
return.
    Our vision of the future is built around wise use of water 
resources and the research and development of technologies that will 
``create new water''. The good news is that New Mexico has lots of 
water. The bad news is that much of it is brackish or otherwise 
unusable. Our success and our survival in the future may depend on how 
well we are able to find technologies to help us exploit potential 
resources and to effectively manage the growth of competing water 
resources demands.

    The Chairman. Let me start right with you, while you're 
there, Mr. Hightower. Just a few years ago, Sandia didn't have 
much to do with water research. It's not in its mission. It's 
not in its charter. But as a result of some work that started, 
I think, with arsenic, you now have established quite an effort 
within the laboratory to help us; is that correct?
    Mr. Hightower. Yes, sir.
    The Chairman. And what do we call that?
    Mr. Hightower. We're calling it Sandia Water Initiative.
    The Chairman. Water what?
    Mr. Hightower. Just Sandia's Water Initiative. That's our 
terminology for it. And I think--
    The Chairman. That's fine. And let me ask a question about 
this center. There is a center in the Tularosa Basin that's 
going to be located outside of Alamogordo. As we know, there's 
a huge basin. The Tularosa Basin is a huge underground basin. 
This center that's there, we have built and paid for with pure 
Federal dollars. Bureau of Rec has managed the construction of 
it. You all are involved in the technical operation of it.
    Just in a nutshell, what is a center like this? Is it a 
place where people go to do research on technologies that might 
work, or what is it?
    Mr. Hightower. The way we've designed this center in 
cooperation with the Bureau of Rec and USGS and many water 
utilities in the Southwest, it's designed specifically to look 
at the issues associated with desalination of brackish 
groundwater in rural communities. And that means brackish 
groundwater has a different type of chemistry than other types 
of seawater. It's more difficult to treat.
    Also, economies of scale don't exist in many cases in small 
rural communities, so we have to look at economies of scale and 
new technologies that can address those issues.
    And a third issue that you have in inland areas is to 
address the concentrate management issue that you get when you 
treat brackish water. There's a concentrate that has to be 
dealt with in an environmentally and ecologically sound manner.
    So this research facility is designed to address all of 
those types of research. It's a user facility, it's set up to 
do both regional research and international research. There are 
very few inland desalination research facilities in the world. 
This will be the largest major research facility to address 
those types of issues. And those are the types of issues that 
we have to address in the State of New Mexico and in the 
Southwest to be able to use the brackish resources that we 
have.
    The Chairman. Mr. D'Antonio, is the facility down there 
something you're aware of?
    Mr. D'Antonio. Mr. Chairman, yes, it is. We work closely 
with Sandia Labs in a lot of different initiatives. It's 
something that we're extremely interested in, applying that 
inland technology throughout New Mexico and just looking for 
the cost associated with producing brackish water to come down 
so that it's economically viable.
    The Chairman. Are you on top of the issue of what is going 
to happen to all that water if and when we find out we're going 
to use it? Are we going to have a big battle as to who owns it 
and who can use it and who has to pay for it?
    Mr. D'Antonio. Mr. Chairman, one of the issues that's 
associated with it is the point of diversion. We had an 
application before my office a couple of years ago, a point of 
diversion. There was a request for a 10,000--or application for 
10,000 acre-feet. But the point of diversion was located in an 
area where it actually caused some impairment issues to local 
areas. We can definitely find better locations and points of 
diversion to utilize that water, and one of my tasks, 
obviously, is to protect senior water rights status. So that 
application was partially approved for about 3,000 acre-feet of 
the total 10,000 that was asked for. And certainly we're going 
to do what we can with respect to impairment issues and 
protecting existing water rights.
    The Chairman. I'd led off with this question because, while 
we're here in the midst of a drought, one of the things we said 
we would be looking for is new water, and one new water source 
may very well be the brackish water, if we can make it 
economic. And if that's the case, we're on the right track with 
this center and spending money to try to lead the world, and we 
just can't wait around and watch them develop it at seawater, 
because it's not going to be the same technology. We're going 
to have to work our own for inland brackish.
    I'm going to yield now to Senator Bingaman, and I'll have 
some follow-ups with you, Mr. Secretary, after he's finished.
    Senator Bingaman.
    Senator Bingaman. Thank you very much to all of you and 
thanks for your testimony. Mr. Limbaugh, let me just ask about 
this Water 2025. Obviously, I support the goals of that 
program, and I think all of us do. Frankly, I have been 
somewhat concerned, though, that the way we've been 
implementing this in budget requests to the Congress, there has 
been something of a robbing-Peter-to-pay-Paul kind of aspect to 
it. As I understand the fiscal year 2007 budget for water that 
was submitted by the administration, you're asking for $14.5 
million for Water 2025 at the same time you're proposing $24 
million in cuts for similar programs. Am I missing something 
there? I mean, you add $14.5 million, and you cut $24 million. 
You come out in the hole.
    Mr. Limbaugh. Well, Mr. Chairman, Senator Bingaman, I'm not 
familiar with exactly where the $24 million came up from, which 
programs. But in our budgeting process, we make a lot of tough 
decisions based on complexities of situations dealing with some 
programs. We look at where priorities can be set, and we also 
look at performance. And one of the things in budgeting for 
Water 2025 in fiscal year 2007 was that we saw the performance 
is there. And we also saw some tremendous results for the 
dollars that are spent, and the fact that it's hitting the 
ground and helping communities that we're sitting in today, 
with their water problems, dealing with it themselves in 
partnership, not as a Federal program that's throwing dollars 
at something, but as a focused, well-thought-out, competitive 
program, that the best projects rise to the top and are funded 
50 percent, so you have the local engagement and ownership in 
those projects, bringing relief to some of these communities 
that are affected by drought, and other pressures, like 
burgeoning populations and the Endangered Species Act.
    In dealing with that, my background is farming and 
ranching, but it's also water management. I was a water master 
in Idaho dealing with droughts much like what you have here, 
although probably not that bad. But what we saw was 100-year-
old infrastructure that just couldn't keep up and deal with all 
of the pressures of today.
    So any dollars that can be put on the ground to help 
rebuild and modernize these facilities, so water managers can 
make good decisions, they can move water around more 
efficiently, they can conserve water in their operations and 
thus create maybe some peace, and maybe bring some people to 
the table to meet unmet needs in some of these watersheds where 
we think there may be problems down the road.
    Senator Bingaman. Let me ask you also about the situation 
here in the Middle Rio Grande, something Senator Domenici spent 
a lot of time on, and I have also focused some attention on it. 
I have been urging that the Department put together a strategic 
plan and develop a multiagency budget to address this water 
issue in the Middle Rio Grande. We're concerned, of course, 
that compliance with this 2003 biological opinion could turn 
out to be very expensive. I think your own estimate is it could 
cost $230 million--that's a figure that I have seen--and yet we 
haven't been able to get the Department to give us a strategic 
plan or a cross-agency budget, and, in fact, the requested 
budget for the various agencies to do work here in the Middle 
Rio Grande has suggested cuts. And that's for Bureau of 
Reclamation, Fish and Wildlife, U.S. Geological Survey, and the 
BIA.
    What is your thought on this? Does it make sense? Is there 
a reason why an overall strategic plan doesn't make sense here?
    Mr. Limbaugh. Mr. Chairman, Mr. Bingaman, it does make 
sense, and I have actually been personally working within the 
Department to bring that strategy to light. A lot of 
coordination is done on the Middle Rio Grande project. Jennifer 
Gimbel, from the Secretary's office, has been involved for the 
last 3 years to try to bring some coordination to that, and 
it's just a matter of getting a better line of communication 
with your committee, and getting this out so we can communicate 
this plan, that we have the strategic--look at how we're going 
to make these commitments and work through these issues with 
the endangered species on this river. I certainly am willing to 
work with you and your staff, as well as the Chairman's staff, 
to ensure that all your questions are answered, and that we do 
have a strategic plan in place.
    Senator Bingaman. Thank you for that. I think, Mr. 
Chairman, this may be something we want to visit with Governor 
Kempthorne about. You have a hearing next week, I believe, on 
his nomination.
    The Chairman. That's right.
    Senator Bingaman. He may be interested in trying to do 
something on this. I hope that that's the case.
    Let me just ask also--maybe Mike Hightower, let me ask you 
about all of this work on desalination, desalination of 
brackish groundwater. It assumes that we have a good idea of 
the extent of the brackish groundwater in these underground 
aquifers. It's been my impression that we don't have a very 
good idea. We haven't done a very good job yet of mapping the 
underground aquifers along the U.S./Mexico border, and I put a 
bill in now for a couple of Congresses to try to get that done 
more effectively.
    What's your assessment as to whether we should also try to 
get Geological Survey--working with others, perhaps--to do a 
better job, a more accurate job of mapping the underground 
brackish water aquifers that we have here in the State?
    Mr. Hightower. The last major study that looked at brackish 
water in the State of New Mexico was done in 1972. And that was 
an effort associated with the old Office of Saline Water to try 
and assess brackish water in a general case. So as we are--in 
these situations where we're looking at brackish water more and 
more heavily, I think that there's a lot of additional 
information that we're going to need to be able to utilize that 
resource effectively.
    So I do agree with you that we need to go in and do a 
better job, at least in the beginning, with the number of 
basins that look like they will be the basins that would be 
used for supplementing fresh water supplies, and get better 
characterization data, both safe yield data, aquifer property 
data, pumping data, that can all be used to help cities and 
communities identify exactly what their wellfields are going to 
have to look like, what kind of costs those are going to be, 
and what kind of information that you can use to support an 
application to the State engineer to use that water.
    So yes, sir, I think that a better job of characterization 
of some of the major brackish aquifers in the State is very 
much warranted.
    Senator Bingaman. I'll stop with that, Mr. Chairman.
    The Chairman. Well, Senator Bingaman, let me just say, I'm 
not sure that Mr. Hightower is the right person for me to pose 
the question to, but I will pose it for the record, and we will 
get it answered.
    Mr. Hightower. It could be the wrong answer.
    The Chairman. We need to know soon whether your question 
should be answered in the affirmative. And if it is, we have to 
find out why we shouldn't do it. And if the answer is that we 
should, then we'd better do that. I mean, we are spending a 
considerable amount of money for the Center to be built when it 
costs--it slips me. Does anybody remember what the cost is?
    Mr. Hightower. $16 million.
    The Chairman. $16 million just for it. The Navy spent $29-
$30 million there on Tularosa Basin with one of its 
experiments. So it seems to me, if we're doing that, we might 
be looking at that resource as something valuable, we ought to 
know more about its condition; right? What is it? How deep is 
it? I think we know a little more than this little conversation 
would indicate.
    Mr. Hightower. The Tularosa Basin is probably the best 
characterized aquifer. Tularosa is fairly well characterized. 
But there are other aquifers, the Estancia Basin Aquifer, that 
people are looking at.
    The Chairman. Which one?
    Mr. Hightower. Estancia.
    The Chairman. Very good. We ought to look at that.
    Mr. Hightower. Aquifers by Gallup that are not as well 
understood.
    The Chairman. I didn't even know they existed. Are they 
very good? Are they usable?
    Mr. Hightower. There are some. There are some issues with 
safe yields associated with that.
    The Chairman. But they could be?
    Mr. Hightower. Possibly. There are some brackish aquifers 
on the east side, from Hobbs all the way up through Tucumcari 
that--
    The Chairman. I think we're going to pose the question here 
for the record, and whichever entity is appropriate is going to 
answer that for us, and we're going to put up some money and 
get it done in an orderly manner. We're not going to just say, 
everybody has to--it has to be done, but in a manner that's 
consistent with some sense of realism.
    Having done that, let me say there are plenty of additional 
questions, but let me just do one here for Mark, for the 
secretary.
    As you're aware, New Mexico is facing this terrible drought 
and we included in the Emergency Supplemental Appropriation 
Bill a provision to authorize the Bureaus of Emergency Drought 
Assistance Program for 2010 and to fund that program at $7.5 
million. Do I have your assurance that you will use this 
authority and the funds provided for emergency drought 
assistance to help New Mexico through this tough time? And do 
you believe the $7.5 million is adequate and will help us 
significantly through these difficult times? And what else 
might we do to assist New Mexico during this time?
    Mr. Limbaugh. Well, Mr. Chairman, first of all, on the 
adequacy, I believe $7.5 million will go a long way. You know, 
as far as some of the capabilities of the Bureau of 
Reclamation, I think it does cover the things that we believe 
we have to do to not only get through the drought for the 
endangered species issues, but also to assist some of the 
communities that are having some very dire problems right now.
    The Chairman. All right.
    Mr. Limbaugh. You do have my commitment to work within the 
authorizations of the act as you have extended title I of that 
act. Obviously, the only permanent things we can do are 
drilling wells. They are an emergency basis. I believe the 
State of New Mexico has a drought mitigation plan in place. We 
do not need a Governor's request. It's in the--I think it's in 
the record, and so we can move forward. But I will double-check 
on that to make sure we don't get the red tape in the way of 
meeting the needs of the State.
    As far as other things, again, I think the 2025 projects 
are helping a lot. I think it's hard to--once you get them in 
place, it's hard to simply continue to point our finger at 
those things, saying they're very useful, but they are. And we 
need to continue to look at our aging infrastructure and 
improving that for the future.
    The Chairman. Mr. Otero, it's my understanding that you're 
going to receive an additional $1 million in 2025 grant money 
this year.
    Mr. Otero. Yes, sir.
    The Chairman. What are you going to do with that money, and 
what kind of savings do you anticipate are going to result from 
that?
    Mr. Otero. Can you answer that?
    Mr. Grogan. Yes, Mr. Chairman. Senator Domenici, thank you. 
We anticipate carrying on with the plan that we've developed 
with the Bureau of Reclamation for further improvements to our 
metering program, additional water control devices to improve 
water management, and we have recently begun a large-scale 
effort to examine the feasibility and the potential for lining 
some portions, some limited portions, of our canal system. We 
don't want to go into that in a big way yet. We're not 
convinced of the savings, but we are working with the Middle 
Rio Grande Endangered Species Collaborative Program and some 
other entities to see if there might be some savings available 
to us there.
    The Chairman. That's good. Senator Bingaman alluded to the 
endangered species in the biological opinion, and we won't 
scratch the surface on what has taken place over the last 4 
years in an effort to resolve this issue. It's just been an 
enormous effort. I look back on it and say, I just cannot 
believe how much time and effort and resources it has taken to 
get us through these difficult times. And the ESA, the 
agreement between all of the stakeholders--the 
institutionalizing of the stakeholders, which we have done by 
statute through appropriations once, and then we have a bill 
introduced that's being held up by WRDA that would make a 
permanent board and permanent voting for the members.
    You know, we have the Secretary of the Interior involved in 
this basin, as far as the minnow, in a way that you would not 
imagine. They are there on the ground trying to solve this. And 
Senator Bingaman alluded to the cost to implement what we've 
got to preserve the minnow and keep the water flow. Assuming 
everything else goes, we'll have spent over $200 million in the 
next decade. The public doesn't know that yet. That's the first 
allusion to it today, $235 million. They love the minnow, but 
when they see the price tag, they begin to ask questions. It's 
going to be very, very expensive. I'm hopeful that we don't get 
into serious arguments about it, but who knows? I could not 
have spent more time and effort or put more staff time in any 
project. And you know that, Senator. And it is tough. And it is 
part of this issue. It doesn't sound like it should be here, 
but it is, as if we have a new person, new entity that uses 
water--to wit, the fish--so in that context, it's part of the 
issue that we have here.
    So let me say to the Middle Rio Grande and to you, Mr. 
Chairman, I have read recently that you and the board have made 
a commitment to work with the Bureau of Reclamation and the 
Corps of Engineers to meet the requirements of the Endangered 
Species Act, ESA, the collaborative agreement, that we have 
ongoing; is that correct? I see the board members here. I'm 
sure that's correct.
    Mr. Otero. It is.
    The Chairman. Is that correct, Mr. Chairman? Because we 
can't do it without you. It's impossible.
    Mr. Otero. Thank you.
    The Chairman. I have no further questions. Do you, Senator 
Bingaman?
    Senator Bingaman. No, that's fine.
    The Chairman. Could I ask--this is unusual, but I think 
I'll do it. There are lots of people from the press here. We're 
finished with our witnesses. We're not going to let the 
witnesses inquire of the senators. That would be very 
unorthodox.
    [Laughter.]
    The Chairman. And I didn't ask Senator Bingaman whether we 
could or not. He would probably say yes, anyway. But let me 
say, if the press would like to ask a couple of questions, if 
they have any, we'd be glad to take a few right now. If not, 
we're going to adjourn, and thank the Cultural Center for this 
room.
    Anything? Any questions from anybody? OK. There was one out 
there. Yes, ma'am.
    Speaker. I just had a question for Senator Bingaman. I was 
wondering, could you elaborate on the $24 million in cuts that 
you had mentioned?
    Senator Bingaman. Yes, I sure will. Let me just cite for 
you the areas where those cuts have occurred, because I'm 
informed the cuts have been in four areas: One, in the Science 
and Technology Desalination Program; second, in the Water 
Management and Conservation Program; third, in the Native 
American Affairs Program; and fourth, in the water reuse 
projects. So when you add up the cuts in those four categories, 
it gets you to $24 million.
    The Chairman. And you know, I don't have it in front of me, 
but the Corps of Engineers didn't get the increases that it 
should have gotten. We have to find some money there, too. 
There isn't any question the water programs never get treated 
very well, but the four that were mentioned, at least a couple 
of them have not been treated that poorly in the past, so we're 
going to have to make up a little bit by finding some moneys 
elsewhere. And that will be my job, to try to help some, rather 
than to let it get cut that much.
    I don't disagree that the choice must have been made that 
2025 has more bang for the buck than some of this, in the 
opinion of the OMB presented to the President. That happened. 
And of course, Senator Bingaman is indicating he doesn't like 
that, and that's obvious. I surely don't like it, either, but I 
can't do much about it at this point. I still want to do 2025, 
despite the fact that they haven't done as much as they should 
in the other areas.
    Anything else? All right. It's been great being with all of 
you. We'll be in recess. Thank you.
    [Whereupon the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of R.B. (Randy) White to Questions From Senator Domenici

    Question 1. You mentioned that some farm program such as the 
Livestock Assistance Program, have been helpful but that some of the 
Conservation program divide property rights. Can you go into a little 
more detail about your concerns about the Conservation programs?
    Answer. Under the current Farm Bill, there are substantial funds 
earmarked for conservation programs, while there is no money earmarked 
for disaster or drought assistance programs. When there is a disaster 
or a drought, and in the arid Southwest we know there will be drought, 
funding must be approved by Congress and assistance is provided after 
the fact. Sometimes years after the fact. There needs to be money in 
the Farm Bill readily available for livestock producers facing weather 
related adversities as they occur. We know that there will be drought 
in the Southwest, it is just a question of when. It can be argued that 
drought management and funding are conservation measures.
    There are various conservation funding segments in the Farm Bill 
making millions upon millions of dollars available to those who can 
take advantage of it. Unfortunately not all producers are in a position 
to participate in these programs. Many of the programs require cost-
shares that, especially during a drought, are not affordable. Others 
simply provide matching money for an unrelated third party to purchase 
and severe development rights to guarantee that the land will stay in 
agriculture into perpetuity. These programs can, and often do, provide 
a cash injection into an agricultural operations and they are a 
necessary tool. However, I cannot plan into perpetuity and I don't know 
anyone else who can either.
    I would rather see stable and readily available funding for 
disaster and drought assistance place in priority ahead of these 
conservation programs and more work done to support a health 
agriculture economy rather than land use planning.

    Question 2. With respect to grazing on Forest Service and BLM 
lands, you mentioned that the drought is causing agencies to remove 
livestock rather than implement workable solutions to get through the 
drought. From your perspective, what might some workable solutions that 
the Forest Service and BLM could implement?
    Answer. While New Mexico is continuing a long term drought, many 
parts of the state experienced significant moisture last year resulting 
in excess forage early this year. The Forest Service could have let 
allotment owners on the ground early this year to allow that forage to 
be grazed, rather than letting it sit as fodder for catastrophic fire 
as it has for the past few months.
    Additionally, the Forest Service has been inflexible in allowing 
allotment owners to supplementally feed cattle on allotments as 
necessary to maintain body condition and to care for the land. The 
agency also does little to nothing to assist producers who can no 
longer use their allotments to locate alternative grazing, often 
resulting in the sale of livestock. As the state's elk population, the 
elk are grazing ahead of the livestock leaving no forage for the 
ranchers who have paid a grazing fee for that forage. Admittedly, the 
elk are a state issue, but we have been unsuccessful in getting the 
Forest Service to work with the New Mexico Department of Game & Fish to 
address the issue.
    Finally, the work load created by federal environmental laws and 
law suits have left the federal land management agencies unable to 
address the monitoring that is necessary for prudent land management. 
Because they do not have the data on which to base decision-making, 
they are cutting livestock numbers to avoid further litigation. 
Additionally, they are continually seeking subjective decision-making 
processes, rather than relying on the traditional objective processes.
                                 ______
                                 
    Responses of Larry F. Perkins to Questions From Senator Domenici

    Question 1. I'd like to better understand how our drought relief 
programs are working. Have you and your family been eligible for, and 
received, any drought relief over the past 5 years? If so, from which 
programs?
    Answer. We have been eligible for some FSA drought programs.
    The FSA Nap program (drought insurance on non-program crops) and 
the cattle program offered in 2003 (I forgot the program name but it 
had to do with having to sell livestock that you normally would not 
sell.)

    Question 2. You mentioned that your groundwater table has dropped 
20 feet over the last 5 years. Given the lack of surface water in your 
area, are the costs of pumping water for irrigation needs now so high 
that it is uneconomical for farming operations in the area? Is that 
primarily a function of high energy costs, or has that just exacerbated 
the problem?
    Answer. We are in a area that has very few wells that produce 
enough water to irrigate with. This is the main reason we have been hit 
so hard by the drought. Our only source of irrigation is from surface 
water held in Conchas Reservoir, and delivered to our district through 
a canal system. Therefore I would have to say that the cost of pumping 
is not a big issue in our area. I can say the few wells we have (4 or 
5) they have not pumped due to the cost of pumping and the low volume 
of water they can pump (between 200 and 400 gallons/minute).

    [Responses to the following questions were not received at 
the time the hearing went to press.]

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
Hon. L. Ray Nunley,
Mayor of Ruidoso, NM.
    Dear Mayor Nunley: I would like to take this opportunity to thank 
you for testifying before the Senate Committee on Energy and Natural 
Resources on Wednesday, April 19, 2006, to give testimony regarding the 
record low snow pack and drought conditions facing the state of New 
Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. Your community is facing many hardships this year due 
to the drought and from your testimony, it's obvious that you're 
looking at all options to conserve water and manage it more 
efficiently. Are there some specific options that should be an 
immediate priority such as drilling an emergency well?
    Question 2. I toured a watershed thinning project in your area in 
February. Has that project, and similar efforts helped reduce the risk 
of fire to the Village of Ruidoso or are there some areas that are 
still of particular concern to you?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
Michael Hightower,
Sandia National Laboratories, Albuquerque, NM.
    Dear Mayor Hightower: I would like to take this opportunity to 
thank you for testifying before the Senate Committee on Energy and 
Natural Resources on Wednesday, April 19, 2006, to give testimony 
regarding the record low snow pack and drought conditions facing the 
state of New Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. Given the population projections in your testimony, 
it's clear that expanding the useable water supply, along with 
conservation and better water management, are key to addressing our 
future water needs. As you note, New Mexico has lots of water but that 
a large part of it is brackish or otherwise unusable. Just the number 
you provided for the amount of ``produced water'' from the oil and gas 
fields is astounding (25 billion gallons/yr). How close are we to 
developing cost-effective technologies for using produced water or 
desalinating our brackish groundwater? Is there a consensus as to what 
the priorities should be for research at the Tularosa Basin National 
Desalination Research Center? How is it anticipated that the research 
will be funded?

    Question 2. Over the last decade, there has been a significant 
increase in water reuse projects. Albuquerque, El Paso, and many 
communities in California have implemented projects. Are there still 
improvements to be made in water reuse technology--or should most of 
the research priority be focused on desalination?
    Question 3. You note that Sandia is conducting research to quantify 
the impacts of salt-cedar removal on water availability and reservoir 
sedimentation. Is this research being conducted by working with other 
entities such as the Soil & Water Conservation Districts to evaluate 
some existing salt cedar removal projects? When will the findings of 
this research be available?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
Alvin S. Trujillo,
Executive Director, Navajo Nation Division of Natural Resources.
    Dear Mr. Trujillo: I would like to take this opportunity to thank 
you for testifying before the Senate Committee on Energy and Natural 
Resources on Wednesday, April 19, 2006, to give testimony regarding the 
record low snow pack and drought conditions facing the state of New 
Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. Reading your testimony, I'm encouraged by the progress 
you've made in many areas. In particular, I'd like to congratulate you, 
and everyone else involved in the San Juan River Shortage Sharing 
Agreement. That agreement has been very significant in helping 
Northwest New Mexico get through this period of drought. Your 
testimony, though, is also somewhat overwhelming in describing the 
number of water issues still facing the Navajo Nation. You mentioned 
that over 30% of Navajo households must haul water to meet their daily 
needs. Can you give an estimate of how many people this 30% figure 
represents? Do you know how many of these households are located in New 
Mexico?

    Question 2. In preparing your drought response plan, are some of 
the public water systems that supply those hauling water at significant 
risk this year?

    Question 3. What has been the effect of increasing gasoline prices 
on those households having to haul water?
    Question 4. You also mentioned that the Navajo Nation has 
identified a number of economic development centers on the Reservation. 
Will the proposed Navajo-Gallup pipeline project serve one or more of 
these economic development centers? If constructed, will it help 
address reduce the number of households having to haul water?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
John D'Antonio, P.E.,
New Mexico State Engineer.
    Dear Mr. D'Antonio: I would like to take this opportunity to thank 
you for testifying before the Senate Committee on Energy and Natural 
Resources on Wednesday, April 19, 2006, to give testimony regarding the 
record low snow pack and drought conditions facing the state of New 
Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. The State is putting in place a lot of progressive 
water management strategies that will benefit all water users over the 
long-term. You deserve a lot of credit for that. For the short term, 
though, what programs does the State have in place to help provide 
immediate relief from the effects of the drought? For example, how can 
the State help secure water for Ruidoso?

    Question 2. Your testimony mentions the ``Active Water Resource 
Management Program''. Can you provide some specifics as to some of the 
water management tools that will help you implement that program?

    Question 3. Last year, the Legislature authorized and provided 
funding for the State to create a ``Strategic Water Reserve''. I know 
that in the middle of this thought, it's hard to think of times when 
we'll have excess water to put in reserve. But do you envision that 
Strategic Water Reserves will play a significant role in helping to 
address future water shortage situations, and ensure that water is 
available for environmental needs in a manner that minimizes the impact 
on water users?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
Bruce Knight,
Chief, Natural resources Conservation Service, Department of 
        Agriculture.
    Dear Chief Knight: I would like to take this opportunity to thank 
you for testifying before the Senate Committee on Energy and Natural 
Resources on Wednesday, April 19, 2006, to give testimony regarding the 
record low snow pack and drought conditions facing the state of New 
Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. Your testimony indicates that drought conditions are 
expected to persist through June 2006. What does the NRCS use as the 
basis for analyzing and predicting drought conditions? Based on the 
current tools you have in place, how far into the future are you 
comfortable making predictions about drought conditions?

    Question 2. You also mention that 80% of the streamflow in the 
Western U.S. is derived from melting snowpack. The Western States Water 
Council is developing a ``Water Action Plan for the Western States''. 
One of the concerns they have raised has to do with the ramifications 
of climate change on western water supplies. They note that there is 
already evidence of (1) smaller snowpacks and more rain; (2) earlier 
snowmelt; and (3) more evaporation and dryness in our soils. Do you 
agree with those findings? If so, what are the implications for the 
West given that streamflows are so reliant on melting snowpack.

    Question 3. NRCS's water supply forecasting programs are very 
valuable to water managers and water users. What are some of your 
priorities in expanding the data-gathering capabilities of the program 
to increase its accuracy and capabilities?

    Question 4. You talked about the Ground and Surface Water 
Conservation (GSWC) component of the Environmental Quality Incentives 
Program (EQIP). Do you have figures on how much GSWC funding has been 
available in New Mexico since the 2002 Farm Bill? Are there any water 
banking or groundwater recharge projects currently in the works in the 
State?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
Hon. Mark Limbaugh,
Assistant Secretary for Water and Science, Department of the Interior.
    Dear Mr. Limbaugh: I would like to take this opportunity to thank 
you for testifying before the Senate Committee on Energy and Natural 
Resources on Wednesday, April 19, 2006, to give testimony regarding the 
record low snow pack and drought conditions facing the state of New 
Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. As your testimony notes, crisis management is not an 
effective response to drought, and water 2025 is intended to allow 
Reclamation to take action in advance of a water supply crisis. For 
several years now, I've been trying to get the Department to put 
together a strategic plan and develop a multi-agency budget to address 
systemic water issues in the Middle Rio Grande one of the designated 
hotspots under water 2025. Obviously, my goal is to avoid a conflict 
that might occur soon, particularly due to this drought. The Department 
has not yet responded to my requests, despite the fact that by its own 
estimates, compliance with the 2003 biological opinion will exceed $230 
million. In fact, this year's budget proposes an overall 17% cut for 
the Middle Rio Grande programs of the Bureau of Reclamation, Fish & 
Wildlife Service, USGS, and BIA. While there are some good water 2025 
projects, I also see grants being used to install water meters in urban 
areas--which causes concern if those projects are considered a higher 
priority than the Middle Rio Grande. What criteria is Reclamation 
applying to prioritize its water 2025 grants?

    Question 2. I'm concerned that a strict 50-50 cost-share formula 
for the water 2025 program will preclude some smaller financially-
strapped entities from participating in the program. Your testimony, in 
fact, notes that the thought program may be the last resort for these 
communities. Do you believe this is a valid concern, and how might it 
be addressed in the legislation?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                       Washington, DC, May 1, 2006.
Jose Otero,
Chairman of the Board of Directors, Middle Rio Grande Conservancy 
        District.
    Dear Mr. Otero: I would like to take this opportunity to thank you 
for testifying before the Senate Committee on Energy and Natural 
Resources on Wednesday, April 19, 2006, to give testimony regarding the 
record low snow pack and drought conditions facing the state of New 
Mexico.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, May 12, 2006.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. I'd like to congratulate the District on the efficiency 
improvements made to your infrastructure over the past several years, 
and the efforts you've made to work with the federal and state agencies 
to help avoid conflict between water users and the Endangered Species 
Act. I've been concerned that the current drought will make it very 
difficult to avoid a crisis--particularly next year when we have little 
storage in the reservoirs, and the Rio Grande Compact will preclude New 
Mexico from storing upstream even in an average water year. Given that 
the water the District provides for its farmers is the same water that 
helps meet the target flows for the biological opinion, do you have 
similar concerns about the likelihood of a crisis in 2007?

    Question 2. Your testimony highlights the fact that the District 
has reduced diversions of water from the Rio Grande by almost 40%. This 
is impressive. It also appears that you've been able to conserve your 
stored water for the benefit of both the farmers and the environment. 
As you know, I'm interested in developing a detailed long-term 
strategic plan for the Middle Rio Grande, of which the District would 
have to be a key player. Is there a way to formalize how your improved 
efficiency will yield benefits to the river environment? For example, 
if a conservation pool or water bank were one day established to help 
ensure compliance with the ESA, do you think your improved efficiency 
may allow the District to provide water to that pool, assuming that we 
eventually get relief from the drought?

    Question 3. Is the District working with the Pueblos it serves to 
help them also improve their systems and become more efficient?


</pre></body></html>
